<html>
<title> - THE IMPACTS OF CLIMATE CHANGE ON AMERICA'S NATIONAL PARKS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                            THE IMPACTS OF
                           CLIMATE CHANGE ON
                       AMERICA'S NATIONAL PARKS

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, April 7, 2009

                               __________

                           Serial No. 111-16

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
48-662                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, April 7, 2009...........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     3

Statement of Witnesses:
    Cipra, Michael, California Desert Program Manager, National 
      Parks Conservation Association, Joshua Tree, California....    71
        Prepared statement of....................................    72
    Coleman, John, Senior Meteorologist, KUSI, San Diego, 
      California.................................................    42
        Prepared statement of....................................    44
    Harja, John, Director, Public Lands Policy Coordination, 
      Office of Utah Governor Jon M. Huntsman, Jr., on behalf of 
      the Western Governors' Wildlife Council, Salt Lake City, 
      Utah.......................................................    18
        Prepared statement of....................................    20
    Jarvis, Jonathan B., Regional Director, Pacific West Region, 
      National Park Service, U.S. Department of the Interior, 
      Oakland, California........................................     4
        Prepared statement of....................................     6
    Keiter, Robert B., J.D., Wallace Stegner Distinguished 
      Professor of Law, Director, Wallace Stegner Center for 
      Land, Resources and the Environment, University of Utah 
      S.J. Quinney College of Law, Salt Lake City, Utah..........    54
        Prepared statement of....................................    58
    Shaw, M. Rebecca, Ph.D., Director of Conservation Programs, 
      The Nature Conservancy of California, San Francisco, 
      California.................................................    23
        Prepared statement of....................................    25
    Swetnam, Thomas W., Professor of Dendrochronology and 
      Watershed Management, and Director, Laboratory of Tree-Ring 
      Research, University of Arizona, Tucson, Arizona...........    33
        Prepared statement of....................................    35
    Watson, Melyssa L., Senior Director for Wilderness, The 
      Wilderness Society, Durango, California....................    64
        Prepared statement of....................................    66


OVERSIGHT FIELD HEARING ON ``THE IMPACTS OF CLIMATE CHANGE ON AMERICA'S 
                            NATIONAL PARKS''

                              ----------                              


                         Tuesday, April 7, 2009

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                      Twentynine Palms, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., City 
Council Chambers, 6134 Adobe Road, Twentynine Palms, 
California, Hon. Raul Grijalva [Chairman of the Subcommittee] 
presiding.
    Present: Representatives Grijalva and Napolitano.

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. And let me call the 
Subcommittee on National Parks, Forests and Public Lands to 
order. This is an oversight hearing on the impact of climate 
change on America's national parks.
    Today our Subcommittee will be conducting the second in a 
series of oversight hearings to explore the role of Federal 
lands in combating climate change. Our focus today will be on 
the effects on our treasured national parks, some of which face 
serious threats to characteristic resources. It's really 
difficult to imagine Glacier National Park without glaciers, 
Joshua Tree National Park without these trees. Yet the evidence 
is clear that we may be facing just that kind of future. The 
impacts of climate change on our Federal lands are staggering. 
Science shows that climate change will cause the spread of 
invasive species, threaten native species, endanger watersheds, 
cause habitat loss, and increase the intensity and length of 
the fire season on our public lands.
    Today we will be hearing more about these impacts and 
suggested policy solutions by reputable scientists, such as Dr. 
Swetnam from the University of Arizona and Rebecca Shaw of The 
Nature Conservancy.
    There are two potential climate change solutions which the 
Subcommittee is exploring today, as we did at a previous 
hearing in March that focused on the national forests and lands 
owned by the Bureau of Land Management. The first is climate 
change adaptation. Jon Jarvis of the National Park Service will 
be talking about some of the steps the agency is starting to 
take in this regard, from scenario planning to improving what 
many call resilience--the ability of natural systems to respond 
to changing conditions.
    Mr. John Harja from the Western Governor's Association and 
some of our other witnesses will be talking about connecting 
habitat in order for wildlife to adapt to the impacts of 
climate change.
    The second solution we are exploring is whether some of the 
key laws under the jurisdiction of the Committee on National 
Resources adequately reflect the reality of climate change. 
These laws include the National Environmental Policy Act, or 
NEPA, as well as various organic acts from the land management 
agencies.
    Today we'll be hearing from Bob Keiter of the University of 
Utah who has been studying such questions for several years.
    President Obama has made climate change a top issue in his 
agenda, and climate change and Federal lands will be a key 
agenda item for this Subcommittee in this Congress.
    I feel strongly that while our public lands are threatened 
by climate change, they are also critical in finding solutions 
to combat climate change. As Congress goes about developing 
climate change legislation, I will work to ensure that there is 
a role for Federal lands.
    I look forward to hearing from our witnesses today. And let 
me take the time to thank the Park Service staff for their 
courtesy and generosity of time and schedule. I also want to 
thank the Mayor and City Council for the use of these fine 
facilities, It is very much appreciated. I appreciate it very 
much.
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today our Subcommittee will be conducting the second in a series of 
oversight hearings to explore the role of federal lands in combating 
climate change. Our focus today will be the effects on our treasured 
national parks, some of which face serious threats to characteristic 
resources. It's hard to imagine Glacier National Park without glaciers, 
or Joshua Tree National Park without those trees. Yet the evidence is 
clear that we may be facing just such a future.
    The impacts of climate change on our federal lands are staggering. 
Science shows that climate change will cause a spread of invasive 
species, threaten native species, endanger watersheds, cause habitat 
loss, and increase the intensity and length of the fire season on our 
public lands. Today we will be hearing more about these impacts, and 
suggested policy solutions, by reputable scientists such as Tom Swetnam 
from the University of Arizona and Rebecca Shaw of The Nature 
Conservancy.
    There are two potential climate change solutions that the 
subcommittee is exploring today, as we did at a previous hearing in 
March that focused on national forest lands and lands owned by the 
Bureau of Land Management. The first is climate change adaptation. Jon 
Jarvis of the National Park Service will be talking about some of the 
steps the agency is starting to take in this regard, from scenario 
planning to improving what many call resilience--the ability of natural 
systems to respond to changing conditions. John Harja from the Western 
Governors' Association and some of our other witnesses will be talking 
about connecting habitat in order for wildlife to adapt to the impacts 
of climate change.
    A second solution we are exploring is whether some of the key laws 
under the jurisdiction of the Committee on Natural Resources adequately 
reflect the reality of climate change. These laws include the National 
Environmental Policy Act, or NEPA, as well as the various organic acts 
for the land management agencies. Today, we will be hearing from Bob 
Keiter of the University of Utah, who has been studying such questions 
for several years.
    President Obama has made climate change a top issue on his agenda, 
and climate change and federal lands will be a key agenda item for our 
Subcommittee this Congress. I feel strongly that while our public lands 
are threatened by climate change, they are also critical in finding 
solutions to combat climate change. As Congress goes about developing 
climate change legislation, I will work to ensure that there is a role 
for federal lands.
    I look forward to hearing from all of our witnesses today. I would 
now like to turn to my colleague Mrs. Napolitano for any opening 
statement she may have.
                                 ______
                                 
    Mr. Grijalva. Now let me turn to my colleague on the 
Committee on Natural Resources, the Chair of the Subcommittee 
on Water and Power, Mrs. Napolitano, for any opening statement 
she may have.
    Madame Chair.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Chairman Grijalva, for the 
hearing on public lands' service to the whole area of the 
United States, especially in California.
    To the witnesses, thank you for your cooperation and your 
being transparent in telling us some of the things that are 
happening and we don't normally hear in Washington nor, if we 
don't live in the area, we certainly are not affected by them. 
But we know that there are things that will affect the rest of 
the country, and we must work together to preserve the 
wilderness and the water management on our public lands.
    In the Subcommittee on Water and Power that I chair, we're 
very concerned about the drought in the whole Western States, 
especially in California. And the fact that if we do continue 
to have more evaporation, we need to find the ability to store 
underground in aquifers. We need to be able to understand how 
we can capture and maintain more water in the watershed areas.
    I know we need to invest more than has been invested in the 
last eight years in the research on what impact the water 
drought and climate change have on our public lands and its 
environment. The need to protect our plants and wildlife is 
something that we have overlooked. And it is critical for us to 
understand the role it plays in preservation of our air, our 
water, and certainly our environment and, of course, to that 
end, the economy. Because it does affect our economy.
    We must work with the National Park Service on combating 
climate change and implementing conservation strategies goes 
without question. It's something that even local communities, 
local councils are aware of. This need must be included when 
bringing forth testimony on how they also want to be part of 
finding workable solutions.
    Thank you, Chairman Grijalva. It's good to be here in this 
beautiful area, and I trust that you'll come back and see us 
more often.
    Mr. Grijalva. Thank you, very much.
    Mr. Grijalva. Thank you. I'd like to thank the gentlelady 
from California for giving me permission to visit this 
beautiful state.
    Again, let me thank the witnesses for traveling to be here 
with us today. We look forward to your testimony. It is going 
to be vital in shaping the legislation that we hope to propose 
in the very near future.
    Let me remind the witnesses that your written statements 
and any other extraneous information you wish to submit to the 
Committee will be made part of the record. And if you could 
limit your oral remarks to five minutes or so. I'm not a real 
stern timekeeper, but when Dom tells me that I've become too 
lax, I will have to ask you to wrap up. And that will allow 
Mrs. Napolitano and me some time to ask some questions.
    Let me now start with Mr. Jon Jarvis, Regional Director, 
National Park Service Pacific West region.
    Thank you, sir. And welcome. I look forward to your 
comments.

  STATEMENT OF JONATHAN B. JARVIS, REGIONAL DIRECTOR, PACIFIC 
    WEST REGION, NATIONAL PARK SERVICE, OAKLAND, CALIFORNIA

    Mr. Jarvis. Thank you, Mr. Chairman. And thank you for 
giving us this opportunity.
    Congresswoman Napolitano, thank you also for joining us 
here today.
    We are very pleased that you have chosen Joshua Tree 
National Park and Twentynine Palms as the site for the field 
hearing because this park has been a leader in addressing 
climate change and becoming an environmental sustainability 
leader as well.
    Secretary Salazar has made the issue of climate change a 
top priority within the Department of the Interior, and as such 
has called upon all of the bureaus to work together in an 
unprecedented manner to address this concern, the National Park 
Service being just one of those. The BIA, U.S. Geological 
Survey, U.S. Fish and Wildlife Service, Bureau of Land 
Management, Bureau of Reclamation, and Minerals Management 
Service are all working together on this issue.
    Climate change is potentially the most far-reaching and 
consequential challenge to our mission than any other previous 
challenge in the entire history of the National Park Service. 
It challenges the very foundation of the National Park System 
and our ability to leave America's national and cultural 
heritage unimpaired for future generations.
    As your stewards of America's natural and cultural 
heritage, we have an obligation to act now. There are serious 
consequences if we delay action.
    But I want to focus on what we are seeing now in the 
national parks, what programs do we already have underway, the 
actions that are involving mitigation, adaptation, and 
communication, and then the role that research and monitoring 
play in ecosystem resilience.
    Already we are seeing glaciers melting in our mountain 
parks. We are seeing species moving up in elevation. We are 
seeing higher mortality in forests from beetle infestations. 
Our fire seasons are longer and more intense. We are seeing 
archeological sites damaged by fire and potentially by sea 
level rise.
    As you know, our coastal systems are the most productive 
systems in the country in terms of shellfish and recreational 
fishing and commercial fishing. All of those will be challenged 
by sea level rises.
    We are already seeing coral bleaching in the Virgin 
Islands. And as you've mentioned yourself, the Joshua trees 
here, the namesake of this national park, based on the 
predictive models of warmer winters and increased rain, the 
Joshua tree itself may be threatened to no longer exist in this 
park.
    In Alaska where I worked for five years in the bush, 
subsistence resources that are heavily relied on by rural 
residents and native Alaskans are being threatened by climate 
change as well.
    As I mentioned, this will require an unprecedented level of 
cooperation across the landscape of the Department of the 
Interior and all of our partner land management organizations 
as well.
    We have, the National Park Service, created a strategic 
framework to begin to address some of these things, working 
with other agencies such as the Environmental Protection Agency 
as well. We have a Climate Friendly Parks program, of which now 
60 parks are participating.
    The first and foremost aspect of that is leading by 
example. And that is reducing our own carbon footprint. Of 
course our big natural areas are already sequestering carbon, 
but we are really looking at how our operations can be changed 
so that we reduce our own footprint. So emissions, inventories, 
climate action planning, looking at energy conservation, and 
looking at opportunities for renewable energy through the 
Energy SmartPARKS Program are all ways that we can reduce our 
carbon footprint and become a visible leader in environmental 
sustainability.
    Our region is also already well in advance of this. This 
park, for instance, already generates 40 percent of its energy 
from renewable resources.
    We need to begin adaptation in terms of our planning and 
really look to maintaining ecosystem integrity. The key to that 
is long-term monitoring and good research as well. We have a 
tremendous opportunity to communicate that information to the 
public as well.
    As we observe the changes in climate, our visitation is 
over 275 million visitors to parks, and it's a great 
opportunity to educate them about what we are seeing and what 
actions they can take at home.
    We are in the process of looking at multiple-working 
futures for our parks. With the variety of scientific scenarios 
in the future we have to be thinking about different planning 
regimes for our parks as well.
    Joshua Tree has been, again, one of those places that this 
work has been a model for the rest of the Mojave Desert. So, we 
are really into scenario and adaptation planning as the major 
goal for the National Park Service over the next ten years.
    As I mentioned, the National Park Service is ideally 
positioned to bring climate awareness to the American public 
and to the rest of the world. As we seek solutions and as we 
see problems, we want to engage the public. So looking forward, 
the National Park Service has a goal that every national park 
will have some form of exhibit providing information through 
brochures, waysides, interpretive programs, handouts, and 
websites to talk about climate change, and also how we 
ourselves are addressing those issues.
    Again, we are looking at this as not just affecting natural 
resources. I want to emphasize that cultural resources are both 
at risk and an opportunity as well. Through historic 
preservation of existing structures we are able to preserve the 
embedded energy in carbon in these structures and interpret 
them as well.
    We are currently developing a Visitor Do Your Part program 
which will allow visitors to voluntarily measure their own 
carbon footprint as they travel to parks. Alternative 
transportation activities with our gateway communities and our 
partners are also one of the ways that we will be addressing 
climate change and reducing our carbon footprint.
    Clearly we know that boundaries of national parks are 
inadequate to address the issues of climate change. Working 
with our neighbor, land management agencies, with the 
establishment of corridors and opportunities for migratory 
wildlife to move between protected areas is absolutely 
essential to climate change as well.
    So, in conclusion, the key components to the National Park 
Service program are to monitor the change and report that out; 
to use our parks as the canaries in the mine for research; to 
lead in sustainability, both in reducing our own carbon 
footprint but also being a beacon for the American public in 
terms of our own sustainability; and educate the public about 
climate change. Sixty-five percent of our park visitors are 
repeat visitors. They provide extraordinary opportunities to 
demonstrate the changes that have occurred to the parks from 
climate change. And to cooperate across borders with all of our 
partners in addressing climate change.
    Thank you for this opportunity. And I am open to any 
questions.
    Mr. Grijalva. Thank you very much, Mr. Jarvis.
    [The prepared statement of Mr. Jarvis follows:]

   Statement of Jonathan B. Jarvis, Regional Director,, Pacific West 
     Region, National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present testimony on the role of the Department of the 
Interior (DOI) and the National Park Service (NPS) in addressing 
climate change impacts on America's greatest treasures--units of the 
National Park System.
    Secretary Salazar has prioritized the issue of climate change 
within the Department of the Interior. He is in the process of 
designing a climate change strategy to integrate the work of each 
Bureau to mitigate and adapt to the effects of climate change in the 
pursuit of each Bureau's mission--this includes the National Park 
Service, Fish and Wildlife Service, U.S. Geological Survey, Bureau of 
Land Management, Bureau of Indian Affairs, Bureau of Reclamation, and 
Minerals Management Service. In 2008 the Department of the Interior had 
a multi-agency taskforce that put forth a number of recommendations 
relating to climate change adaptation and mitigation activities. The 
Department works closely on many levels with NOAA and the U.S. Forest 
Service in coordinating activities relating to climate change.
    An integration of science, adaptive management tools, and other 
resources across the Federal Government is essential to the DOI's 
mission to address climate change across all federal lands, wildlife, 
and cultural and natural resources (including mitigation, adaptation, 
and communication/engagement strategies) and to the NPS' mission to do 
the same. We are pleased that you chose Joshua Tree National Park as 
the site of this field hearing since this is a good example of a desert 
park whose resources are being impacted by climate change.
    Climate change is potentially the most far-reaching and 
consequential challenge to our mission than any previously encountered 
in the entire history of the NPS. In setting aside Yellowstone National 
Park in 1872, Congress stated that the purpose of the park was:
        preservation, from injury or spoliation, of all timber, mineral 
        deposits, natural curiosities, or wonders, within the park, and 
        their retention in their natural condition.
    This concept of ``retention in their natural condition'' became the 
cornerstone of our National Park System when Congress passed the 
National Park Service Organic Act, which states that the mission of the 
NPS is:
        ...to promote and regulate the use of the...national 
        parks...which purpose is to conserve the scenery and the 
        natural and historic objects and the wild life therein and to 
        provide for the enjoyment of the same in such manner and by 
        such means as will leave them unimpaired for the enjoyment of 
        future generations.
    Climate change challenges the very foundation of the National Park 
System and our ability to leave America's natural and cultural heritage 
unimpaired for future generations. Our national park units can serve as 
the proverbial canary in the coal mine, a place where we can monitor 
and document ecosystem change without many of the stressors that are 
found on other public lands.
    DOI and the NPS are rising to this challenge, and today my 
testimony will focus on four major areas. First, our observations of 
the effects and potential future changes related to climate change in 
national park units. Second, the actions and programs we have underway 
to prepare for the current and anticipated changes from climate change. 
Third, some of the actions the NPS plans to undertake in the coming 
years. And fourth, some other considerations related to climate change.

The Effects of Climate Change in National Park Units
    Parks are already experiencing some dramatic impacts that may be 
resulting from climate change. Warming temperatures may be accelerating 
melting of mountain glaciers in national parks such as Glacier and 
North Cascades while perennial snowfields throughout Alaska are 
disappearing. Reduced snowpack and changes in the timing and amount of 
stream flow affect aquatic communities. Alaskan parks are seeing some 
of the earliest impacts of possible climate change--melting sea ice 
threatens marine mammals as well as coastal communities, while thawing 
permafrost can destabilize buildings, roads, and facilities and disrupt 
the structural basis of large regions of interior lands. In Yosemite 
and Great Basin National Parks, we have documented high-elevation 
species, such as the pika and alpine chipmunk, moving upslope, thereby 
reducing the effective area for their survival; this upslope migration 
may be attributable to changes in climate. In Bandelier and Rocky 
Mountain National Parks, higher temperatures and drought have brought 
high mortality to pine forests as infestations of bark and pine beetles 
have expanded to higher elevations and new ranges that may also be 
occurring because of climate change. (Parmesan 2006, Marcogliese 2001)
    Fire frequency and intensity may also be related to climate change. 
NPS data indicates that fire ignitions are occurring both earlier and 
later in the season now and the average duration of time that a 
wildfire burns has increased from less than 10 days to more than a 
month. Fires in some places may be increasing in frequency and 
intensity, threatening native plant communities and contributing to the 
spread of invasive exotic species. Wildland fire frequency and 
intensity can have a significant impact on cultural resources, as 
hotter fires and our efforts to fight them directly damage buried 
archeological sites. At Mesa Verde National Park, fires have damaged 
historic structures and threatened the loss of archeological sites 
according to NPS data. (Westerling 2006)
    Coastal parks are extremely vulnerable to climate change. The NPS 
manages 74 coastal units encompassing more than 5,100 miles of coast 
and three million acres of submerged resources including beaches, 
wetlands, estuaries, coral reefs, and kelp forests. These parks attract 
more than 75 million visitors every year, and generate over $2.5 
billion in economic benefits to local communities. The U.S. Climate 
Change Science Program Synthesis and Assessment Product on Coastal 
Sensitivity to Sea Level Rise (2009) states:
        Critical coastal ecosystems such as wetlands, estuaries, and 
        coral reefs are particularly vulnerable to climate change. Such 
        ecosystems are among the most biologically productive 
        environments in the world.
    These coastal ecosystems are significant habitats for the 
production and health of recreationally and commercially valuable fish 
and shellfish, they provide important environmental services, and offer 
beautiful landscapes for marine recreation and wildlife watching. These 
ecosystems are predicted to change as sea level, ocean acidity, and 
water temperatures rise. Shorelines and park boundaries will change as 
sea level rises resulting in a net loss where parks cannot migrate 
inland. At Everglades National Park, rising seas may overwhelm the 
mangrove communities that filter out saltwater and maintain the 
freshwater wetlands. Indeed, changes have already been observed as 
coral bleaching and disease caused by increased sea surface 
temperatures led to the loss of more than 50 percent of reef-building 
corals in the Virgin Islands park units since 2005. (IPPC 2001, Hoegh-
Guldberg 1999, Buddemeier 2004) Increasing the resilience and adaptive 
capacity of coastal ecosystems will be critical to maintaining their 
enormous biological value and ecological services to the nation and 
local communities. NPS's Organic Act uniquely positions us to work 
cooperatively with states, local agencies and the public to address the 
cumulative impacts of overfishing, pollution, and coastal development 
that aggravate and accelerate the effects of climate change on these 
valuable ecosystems.
    While some impacts from climate change are already measurable, the 
long-range effects of climate disruption on park natural and cultural 
resources, infrastructure, and visitor experience are just beginning to 
be understood. Here at Joshua Tree, the park may lose its namesake 
species as warmer winters cause the freezing temperatures required for 
the trees' reproduction to occur less frequently. The policy 
implications for protecting species in a rapidly changing climate are 
complex and without precedent.
    Cultural resources will also be significantly affected by climate 
change, primarily due to increased erosion from rising seas and more 
intense storm (and hurricane) surge. Rising sea levels are already 
damaging archeological sites, historic structures, and cultural 
landscapes such as Fort Jefferson in the Dry Tortugas and Jamestown. 
Sea level rise and storms threaten the tangible remains of some of the 
earliest human occupation sites, dating back over 10,000 years, along 
the west coast, as well as associated Native American burial grounds at 
places like Channel Islands National Park and shell middens on the Gulf 
Coast of Everglades National Park. Alternately, decreasing lake levels 
expose vulnerable archeological resources and critical park 
infrastructure in places like Lake Mead National Recreation Area. Our 
nation's maritime history, including lighthouses from Massachusetts to 
Oregon, historic forts including Fort Jefferson and Fort Sumter, and 
historic coastal communities also face threats from rising seas and 
more intense storm surges.
    The 1980 Alaska National Interest Lands Conservation Act (ANILCA) 
created 10 Alaskan parks and expanded parklands by 43 million acres. It 
also recognized the critical importance of access to subsistence 
resources found in parks, including fish, game, and plants, to both 
Native and non-Native residents of rural Alaska, and directly linked 
this access to their continued physical, economic, social, traditional, 
and cultural existence. While the threats that climate change poses to 
salmon, caribou, and seals may be viewed as threats to natural 
resources, they also clearly challenge our ability to provide 
appropriate subsistence opportunities to local rural residents around 
our units in Alaska.
    Many questions exist regarding how physical processes, species 
populations, and ecosystems will respond to a changing climate. The 
science of predicting the complexities of these interactions over 
relatively long periods of time is highly uncertain, yet the NPS is 
committed to understanding and monitoring the effects of climate change 
on park resources and ecosystems. The focus of the climate change 
discussion has largely shifted from the evidence to what we can do 
about it. As stewards of our nation's natural and cultural heritage, we 
have an obligation to act now.

Current Climate Change Actions and Programs
    To effectively respond to the challenges of climate change, the DOI 
is undertaking a collective and coordinated strategy that builds upon 
and expands existing partnerships such as those between NPS, other 
bureaus, parks, regions, and national program offices. Building the 
capacity to respond to climate change will involve identifying, 
linking, prioritizing, and implementing a range of short and long-term 
activities. The complex and cross-cutting nature of this issue will 
require an unprecedented level of cooperation across the DOI Bureaus, 
other federal and state agencies, the entire NPS, and our partner 
organizations.
    Because climate change has been identified as one of highest 
priorities for the NPS, many actions and activities have already been 
undertaken at parks and within regions. The NPS is now in the process 
of developing a strategic framework for action that will detail short 
and long-term actions in three major areas: mitigation, adaptation, and 
communication. The NPS has hired a Climate Change Coordinator and 
created six working groups--Legal & Policy; Planning; Science; Resource 
Stewardship; Greenhouse Gas Emission & Sustainable Operations, and 
Communication. We will use the information from these groups to develop 
a strategic framework for action that will address park, regional, and 
national-level needs and concerns.
    Over the past three years, the NPS has hosted or participated in a 
series of regional and interagency workshops to explore climate change 
impacts and coping strategies. In conjunction with the Environmental 
Protection Agency in 2003, the NPS initiated the Climate Friendly Parks 
Program to promote sustainable operations in parks and create climate 
action plans to reduce greenhouse gas emissions; almost 60 parks now 
participate. The NPS also requires Environmental Management System 
Plans that help parks track and reduce their environmental impacts and 
set targets for sustainable park operations. The NPS adopted an Ocean 
Park Stewardship Action Plan in 2006 to guide actions to reduce ocean-
related climate change impacts. Finally, NPS formed a service-wide 
Climate Change Response Steering Committee to foster communications, 
provide recommendations, and serve as an advisory body to NPS 
leadership.
    Successful approaches to mitigating climate change impacts require 
the very best science, not only in physical and biological disciplines, 
but also in social, and cultural sciences. Since 1999, the Cooperative 
Ecosystem Studies Units (CESU) Network has provided the NPS with a 
mechanism to collaborate with leading research institutions, including 
universities, NGO's and State and federal partners to provide the 
necessary science for sustainable adaptive management of NPS resources. 
Since 1999, 17 CESUs have been established covering all regions of the 
country, with a total of 250 partners including 13 federal agencies. 
The program has been highly successful in funding cutting edge 
collaborative research and providing technical assistance and capacity 
building to the NPS, as well as State and local agencies and other 
federal partners.

Looking to the Future--Mitigation, Adaptation, Communication
    While efforts to date are significant, much work lies ahead. The 
NPS must position itself to respond to the effects of climate change on 
park resources and to prescribe management actions that are suitable 
for parks. Building an effective response to the threats posed by 
climate change will require action in three interrelated areas: 
mitigation, adaptation, and communication. These efforts will 
necessarily involve strong intra- and interagency cooperation and 
leadership. We need to build on the collective knowledge that is 
available to create new solutions for protecting resources and resource 
values.

Mitigation-Leading by Example
    Our collective carbon footprint must be understood to be managed 
responsibly. In the area of mitigation, the NPS is leading by example 
in reducing our carbon footprint and promoting sustainable operational 
practices. The Climate Friendly Parks Program and the Energy SmartPARKS 
Program are two of the key ways that NPS is mitigating GHGs through 
these areas of emphasis:
        Emissions Inventories: Parks quantify and track their emissions 
        and identify specific areas where reductions can be most 
        readily achieved. An online tool--the Climate Leadership in 
        Parks (CLIP) Tool created in 2005, allows parks a new and 
        simplified way to do this assessment and to guide them through 
        the process.

        Climate Action Planning: Parks use the CLIP tool to identify 
        carbon reduction goals and actions to follow through on these 
        goals. Sixty parks are now in the process of completing these 
        plans.

        Energy Conservation: Significant portions of GHG emissions in 
        parks come from transportation, building energy consumption, 
        and waste management. Mitigation solutions include sustainable 
        design and construction, adaptive ``green'' reuse of historic 
        structures, use of high-mileage and alternative-fuel vehicles, 
        solid waste reduction, and alternative transportation systems 
        that integrate all modes of travel within a park, including 
        land and water-based vehicles.

        Renewable Energy: An increasing number of parks are generating 
        and using clean renewable energy such as photovoltaic systems 
        and geothermal heat exchange. The Energy SmartPARKS program is 
        a partnership with the Department of Energy that is focusing on 
        generating renewable energy and showcasing sustainable energy 
        practices in parks. Currently, NPS-wide, 3.8% of energy in 
        parks comes from renewable sources.
    Regions are also moving forward with their own climate change 
initiatives. For example, the Pacific West Region (PWR) of the NPS has 
a very ambitious Climate Change Leadership Initiative that promotes 
Climate Friendly Parks. The overall objective is to support Executive 
Order 13423, Strengthening Federal Environmental, Energy, and 
Transportation Management, by setting GHG targets. The 58 parks in the 
region have set a target of carbon neutral for park operations by 2016 
and now generate over 4% of their energy from renewable sources. For 
example, Joshua Tree National Park generates 40% of its energy from 
renewable sources.
    The NPS has made carbon management, energy conservation, and 
renewable energy a major focus for our future. Accordingly, we have set 
a goal to significantly exceed the federal requirements for reducing 
total energy use in NPS operations and having some of our energy come 
from renewables by 2016, the 100th year anniversary of the 
establishment of the National Park System. Additionally, the NPS has 
set a goal of having all parks identify their carbon footprint and have 
climate action plans in place before 2016.

Safeguarding and Protecting Park Resources--Adaptation Planning
    While mitigating the cause of climate change is essential, 
scientific evidence demonstrates that even if we stopped emitting 
greenhouse gases today, our past actions have already committed the 
planet to some degree of change. Because of processes in the atmosphere 
and oceans, it will take carbon dioxide and temperature on the order of 
centuries to stabilize once GHG emissions are under control. Other 
responses, such as sea level rise, can take millennia. We have to start 
planning for adaptation options now--while we simultaneously work to 
stabilize emissions.
    For adaptation planning and implementation, our highest priority is 
to support ecosystem integrity and the resilience of species and 
communities to respond to changing conditions. As climate change causes 
shifts in weather, we will see changes in water availability, fire, and 
community structure and composition. Park vegetation and wildlife will 
need to adapt to these new regimes or have the ability to migrate. By 
building resilience and reducing other ecosystem stressors, the NPS 
will help to reduce the extent of some of the most deleterious impacts 
on park resources from climate change. For example, the NPS needs to be 
aggressive in its actions to prevent the intrusion of invasive species, 
eradicate where feasible, and control the spread when prevention and 
eradication efforts fail. The NPS also will undertake measures to 
restore natural ecosystems, making them healthier and more resilient to 
the effects of climate change. Examples include our on-going efforts to 
restore major ecosystems such as the Everglades, and the establishment 
of marine reserves in units of the National Park System.
    A critical component for adaptation planning and implementation 
involves building our science information and ecosystem monitoring 
capacity for sound decision-making by park managers. National park 
units represent a wide range of ecosystems scattered across the nation, 
embracing a broad spectrum of diverse and natural environments of North 
America. Parks present a tremendous opportunity to observe the effects 
of climate change on resource conditions that scientists and managers 
have documented over decades. Begun almost nine years ago, the NPS 
Natural Resources Challenge Initiative has funded parks across the 
nation to conduct inventories and initiate vital signs monitoring of 
natural resources under the NPS's jurisdiction.
    The combination of these sources of information, long-term legacy 
monitoring data, and new inventories has provided timely examples of 
the possible effects of climate change now visible in parks. The NPS 
Inventorying and Monitoring (I&M) Program's primary goal is to collect, 
organize, and make available natural resource data. This program 
includes 32 networks serving more than 270 parks. The Vital Signs 
Program, which is part of the I&M Program, is strategically positioned 
to help parks acquire the information they need to make informed 
decisions and to employ adaptive management so that we can be flexible 
in the face of change. In addition, NPS has also been funding baseline 
documentation, including condition assessments of its cultural 
resources and ethnographic studies that include data on natural 
resources utilized and monitored by native groups. This data provides 
critical information for evaluating the potential and real impacts of 
climate change on cultural resources. Information from these programs 
also informs state policymakers and assists scientists in looking at 
regional and national trends.
    Planning for climate change presents a major challenge for park 
superintendents, their staff, and NPS programs. Resource management 
decisions must be based on future expectations. However, in an era of 
climate change, the future will be characterized by highly 
consequential and unprecedented changes that cannot be predicted with 
as much accuracy and precision as we would like. Consequently, the NPS 
is utilizing a scenario planning approach that uses the best available 
science to explore a range of plausible ``multiple working futures'' 
and consider appropriate actions within them. Currently the NPS and 
USGS are working on a scenario planning workshop that will be held the 
end of this month to look at case studies at Assateague Island National 
Seashore and Wind Cave National Park. Adaptation also involves 
rethinking infrastructure and preparing people for those changes that 
are inevitable. To respond to climate change, park infrastructure may 
need to be adapted to better perform or maintain functionality. This 
also includes rethinking park planning issues such as zoning and the 
design or location of buildings and roads. Scenario planning is being 
specifically designed to help managers identify policies and actions 
that will be most effective across a range of potential futures and to 
promote tactical adaptation responses that are compatible with the NPS 
mission.
    Joshua Tree served as a case study for developing climate change 
scenarios through a workshop held at the park in November 2007. Some of 
the issues that were common across all scenarios were the loss of 
Mojave Desert habitat in the park due to warming and increased invasion 
by non-native grasses, which in turn is likely to bring more frequent 
and larger fires to the park. As the park begins its general management 
plan this year, these scenarios--forecasts of potential landscapes of 
the future--will help guide that park in identifying appropriate 
management actions for the future.
    The NPS has made scenario and adaptation planning a major goal for 
the next ten years to ensure parks are prepared for building resilience 
into ecosystems and ensuring future visitor facilities are sited in 
appropriate locations.

Parks Serve as Models of Sustainability and Places to Communicate 
        Climate Change Information
    There is a great need at this time for messages that communicate 
the complexities of climate change and the actions that can be taken. 
With 275 million visitors annually, the parks can serve as models of 
sustainability and platforms to effectively communicate information 
about climate change. Parks can thus be the catalyst for visitors to do 
their part for climate friendly parks. The NPS's interpretive and 
education programs strive to connect people to the parks, with 
opportunities for all visitors to form their own intellectual, 
emotional, and physical connections to the meanings and values found in 
the parks' stories. Effective interpretive and educational programs 
encourage the development of a personal stewardship ethic and broaden 
public support for preserving and protecting park resources so that 
they may be enjoyed by present and future generations. The public has 
come to expect high-quality and up-to-date resource information when 
they visit parks.
    The NPS is ideally positioned to raise awareness on climate change 
and provide information about solutions that are being implemented 
across the NPS and the Department. A number of efforts are underway to 
tell the story about climate change and impacts to national parks. 
These efforts include a monthly web-based seminar series featuring 
climate change experts on science, communication, and management topics 
and interpretive training using a decision-tree for developing 
knowledge around aspects of climate change. The information will be 
used to frame interpretive programs and answer visitor questions. The 
NPS has developed a ``Climate Change, Wildlife and Wildlands Toolkit'' 
(in conjunction with other federal agencies) to be used by interpreters 
in parks, zoos, aquariums, and science centers and by outdoor and 
classroom educators across the country. In addition, summaries of 
climate change knowledge for specific bioregions--a series of 11 
bioregional documents--are being created in partnership with the U.S. 
Fish and Wildlife Service that summarize the current state of knowledge 
about climate change and impacts to protected areas, with a focus on 
national parks and refuges.
    Looking forward, the NPS has a goal of every NPS park having 
climate change information available through brochures, wayside 
exhibits, interpretive programs and handouts, and park websites. The 
Climate Friendly Parks Program has encouraged this and currently, there 
are many examples such as Point Reyes National Seashore, Glacier 
National Park, Apostle Islands National Lakeshore, Everglades National 
Park, Dry Tortugas National Park, and Kenai Fjords National Park where 
climate change information is readily available to the public. The NPS 
is currently developing and supporting a new and exciting ``Visitor--Do 
Your Part Program'' which will have visitors voluntarily measure and 
reduce their carbon footprint.
    The NPS may also utilize the national preservation programs, such 
as Preservation Assistance and the National Center for Preservation 
Technology, to develop and disseminate information on sustainability, 
historic preservation, guidance for adaptive reuse of historic 
buildings and addition of renewable energy sources into historic areas.

Other Considerations
    In the future, collaboration with gateway communities, private 
partners and state, local and federal agencies will be a key element to 
successful mitigation, adaptation, and communication measures. Much of 
our carbon footprint results from visitor services and movement in and 
around parks. Thus, our ability to mitigate GHGs is uniquely tied to 
our gateway communities and the transportation decisions we make. The 
NPS will need to complement natural mechanisms that mitigate and adapt 
to climate change through strategic approaches including: ensuring 
wildlife and stream corridors are established to enable wildlife to 
migrate if necessary; promoting and protecting healthy reefs, mangroves 
and coastal wetlands that can minimize damage to coastal communities; 
and protecting and restoring forests that can reduce soil erosion and 
mudslides brought on by changing weather patterns and catastrophic 
events.
    At present, the Vital Signs Monitoring Program is well-established 
as a key source and supplier of reliable, organized, and retrievable 
information about parks. Climate change monitoring efforts by other DOI 
bureaus, such as the U.S. Geological Survey, will also be a valuable 
tool in understanding climate change effects on NPS landscapes. By 
building on the successful network approach of these programs, the NPS 
will likely gain additional capability to collect, analyze, and report 
data on the condition of key natural and cultural resources in parks 
and how they are changing or may change as a result of climate change.
    Coastal and riverine parks are extremely vulnerable to climate 
change impacts, especially sea level rise and storm surges, and these 
are high priority areas for developing and implementing adaptation 
actions. For example, shallow estuaries are significant for the long-
term production and health of many commercial species of fish, 
including salmon and steelhead trout. The survival of these natural 
resources are also critical to maintaining viable cultures that depend 
on them such as the salmon and shellfish critical to Northwest tribes 
and the reefs that support Pacific Island cultures. These important 
habitats could dramatically change as sea level continues to rise. The 
impacts of rising sea level also reach surprisingly far inland. The 
Hudson River, for example, is tidal more than 100 miles inland, at 
Albany, New York. Implementation of adaptation plans will be critical 
to ensure facilities and coastal systems such as estuaries and tidal 
rivers continue to function.

Conclusion
    Our national park units are environmental baselines to track 
change, and they stand as some of the last vestiges where ecological 
components function naturally. To succeed in its mission in the face of 
climate change, the DOI and NPS must lead by example in minimizing our 
carbon footprint and promoting sustainable operational practices. We 
must take responsibility for understanding how climate change will 
impact the national parks and take appropriate steps to protect these 
national treasures. An unprecedented level of collaboration and 
cooperation with other agencies and partners will be required to 
acquire needed scientific information, protect resources, and 
effectively expand the teaching of the benefits and necessity of 
natural and cultural resource conservation across the nation and the 
world.
    Thank you for the opportunity to present this testimony. I will be 
pleased to answer any questions you and other members of the 
subcommittee might have.

Bibliography
Marcogliese, David J., 2001. Implications of climate change for 
        parasitism of animals in the aquatic environment. Canadian 
        Journal of Zoology.
Westerling, A.L., et al, 18 August 2006. Warming and Earlier Spring 
        Increase in Western U.S. Forest Wildfire Activity. Science. 
        Vol. 313.
IPCC (Intergovernmental Panel on Climate Change) 2001. Climate Change 
        2001: Synthesis Report. A Contribution of Working Groups I, II, 
        and III to the Third Assessment Report of the Intergovernmental 
        Panel on Climate Change. IPCC 3rd Assessment Report, Cambridge 
        University Press, Cambridge, United Kingdom, and New York, USA.
Hoegh-Guldberg, 1999. Climate change, coral bleaching and the future of 
        the world's coral reefs. Marine and Freshwater Research.
Buddemeier 2004. Coral Reefs and Global Climate Change: Potential 
        Contributions of Climate Change to Stresses on Coral Reef 
        Ecosystems. Prepared for the Pew Center on Global Climate 
        Change.
Canadian Journal of Zoology 2001. Implications of climate change for 
        parasitism of animals in the aquatic environment.
Bentz, et. al. Bark Beetle Outbreaks in Western North America: Causes 
        and Consequences. University of Utah Press
CCSP 2009. Thresholds of Climate Change in Ecosystems. A report by the 
        U.S. Climate Change Science Program and the Subcommittee on 
        Global Change Research. U.S. Geological Survey, Department of 
        the Interior, Washington DC, USA.
Parmesan 2006. Ecological and Evolutionary Responses to recent climate 
        change. Annual Review of Ecology, Evolution and Systematics.
                                 ______
                                 
    Mr. Grijalva. One of the questions that comes to mind is 
should the National Park Service have set renewable energy 
goals as part of that effort in sustainability, and how to 
downsize the agency's carbon footprint. Should there be a goal?
    Mr. Jarvis. Yes, sir, I do believe that goals are essential 
to achieving this. We have already in the Pacific West begun to 
research whether or not we can be carbon neutral by 2016. We 
are already at about four percent in terms of our use of 
renewables. And the rest of the Service is about 3.8 percent. I 
think measurable goals for reducing our footprint would be very 
good.
    Mr. Grijalva. And the NPS 2006 management policies, they 
say very little about the subject that we're talking about 
today, very little about climate change, adaptation, 
sustainability, some of the issues that you mentioned in your 
testimony. Do you believe that document needs to be updated to 
the issues that we're dealing with now?
    Mr. Jarvis. Sir, I think actually no. I think that the 
management policies provide at the moment an excellent 
framework upon which to address this. I think the way I would 
suggest that it might be addressed from a policy standpoint 
would be a director's order which tiers off of management 
policies and can be very specific to the actions required under 
climate change.
    We are not yet prepared, I would suggest, to address in 
management policies concerns about the specific changes to 
natural resources from climate change. We have a foundation 
that the national parks--the natural areas of our National Park 
System--be managed, quote, unquote, to be natural. That we know 
is changing, but we are not yet, let's say, sophisticated 
enough to understand what the new model will be.
    I served on a panel at a science conference just a few 
months ago on this particular issue. And we are looking for 
what will be the new model in terms of ecosystem, ecological 
integrity, while we address climate change.
    So, my suggestion at this time would be that we address it 
through a director's order as well.
    Mr. Grijalva. And a director's order would be more 
flexible?
    Mr. Jarvis. I think it would, sir. What it provides is that 
it can be revised more easily than management policies at 
this--as we address this, I think we're going to need some 
flexibility.
    Mr. Grijalva. OK.
    NPS, the public lands, the Park Service's role in cap and 
trade, how do you see that role?
    Mr. Jarvis. I think that there is a role for the National 
Park System in a carbon market. We are beginning to research 
how that would work. We do restoration. For instance, in 
Redwood National Park, an area that we--I was brought into the 
National Park System after most of the large redwood trees had 
been logged. We are in active restoration there, and those 
trees will obviously sequester carbon. And understanding how we 
could market that in a carbon market would be important.
    We do restoration here in the desert. We do restoration 
work in the islands. And all of those, I think, would be ideal 
to play on a carbon market.
    Mr. Grijalva. Again, one of the advantages of having a 
closed ecosystem over dealing with an unlimited number of 
owners is that it's a tremendous advantage in the strategy that 
one puts in place. How do you envision multiple boundaries and 
the need for adaptation, the restoration process to be 
initiated when we're dealing with something other than a closed 
ecosystem, when we're dealing with something other than one or 
two participating owners, when we're dealing with 
multiboundaries, be they public, be they private?
    Mr. Jarvis. I think that climate change may be the unifying 
principle that brings us together to begin to really address at 
a landscape scale the changes that we are seeing. As you well 
know, this country was divided up into a variety of Federal, 
state, and private land ownerships, and has resulted in a 
checkerboard landscape. In order for us to retain long-term 
ecological sustainability and at the same time develop 
renewables and other energy sources and to move it across the 
country in corridors, we really are going to have to begin 
discussing this at a landscape scale, at an ecosystem scale. 
And there are some models in this country where we've done 
that. And there are some models in Canada where they have done 
that as well, where private, public land managers come together 
and say, these are the most important ecological corridors for, 
let's say, here in the desert.
    The desert is a perfect example of that where we are 
addressing right now the planning for large deployment of solar 
energy in the desert and thinking about how do you connect and 
provide for the mule deer and the desert bighorn and the desert 
tortoise and other species in the desert while providing solar 
development and recreation and all of that.
    So, connectivity is the key. And it doesn't necessarily 
mean it all has to be National Park Service or all wilderness. 
It's just that it needs to be managed in such a manner that 
ecological integrity is maintained and connectivity is 
maintained as well.
    Mr. Grijalva. So, the urgency becomes the unifier.
    Mr. Jarvis. That's the way I see it, sir.
    Mr. Grijalva. Tell me a little more about climate change 
and the threat to cultural resources on our National Park 
System.
    Mr. Jarvis. I'll start first with our coastal areas. The 
coasts of this country have been occupied for tens of thousands 
of years, obviously because of their productivity and they're 
great places to live. And as a result there are archeological 
sites all along the Pacific Coast and the Atlantic Coast, in 
the Pacific Islands. And predicted sea level rise of a meter or 
more could or will inundate many of these archeological sites, 
former home sites, and in some cases sites that are still 
occupied with Native American reservations such as along the 
Olympic Peninsula.
    It has caused us in the National Park Service to begin to 
shift our priorities in terms of inventory and monitoring of 
those sites, if they are to be inundated by a sea level rise or 
storm surge. Or like in the case of in the Northwest where 
we're getting changes in storm regimes where much more flooding 
in the falls that can wipe out these big alluvial fans where, 
again, there are archeological sites, we are shifting our 
priorities to inventory these sites before we lose them.
    Mr. Grijalva. Thank you.
    Mrs. Napolitano, questions?
    Mrs. Napolitano. Where do I start?
    I have great interest in all the work that you're doing and 
what you're reporting. And I think one of the first questions 
I'd like to ask--because I know this was an issue with us in 
the Bureau of Reclamation, is the amount of funding of your 
staffing levels. What is it going to take to be able to do a 
job that you need to do? That's one question.
    If you want to address that, I have a whole bunch of 
others.
    Mr. Jarvis. Well, I always like that question. And the 
bottom line is, first of all, the Congress in over the last ten 
years has frankly been very good to the National Park Service 
in investing in the national resources challenge. About 80 
million dollars was invested over about eight years of 
recurring funding that allowed us to build a network of vital 
signs, and cooperative ecosystem study units of the 
universities across the country. We have one here in the 
University of California. And those have really been the 
bedrock of monitoring of our park resources. And we are--so we 
are better prepared today from that kind of investment than we 
would have been if that investment had not occurred.
    Now we're sort of moving to the next phase of this. And 
certainly an investment I would suggest in two areas, one is to 
build our research capacity to really begin to understand the 
changes that we are seeing. We have sort of a baseline of 
monitoring, but we need to also do a significant amount of 
research as these--as these systems really change much more 
rapidly than we had originally expected.
    And the second piece is the education side, that frankly 
our education side of our organization has gone into decline 
over recent years and our reinvestment in our staff that do 
frontline interpretation, education, exhibits, brochures, web, 
all of that new technology that will allow us to get this 
information out. Those were two areas.
    Mrs. Napolitano. And I'm assuming that you do not have the 
access to a lot of that technology.
    Mr. Jarvis. That's correct, we do not.
    Mrs. Napolitano. And just as an aside, I was in Puerto Rico 
during the days of Anibal Acevedo Vila, being a resident 
commissioner. And we visited the reserve. And some of the Park 
Service people there advised us that they were very shorthanded 
in being able to maintain that park. And that's one of the most 
beautiful places I've seen.
    How closely does the Park Service work with the USGS, with 
the Bureau of Reclamation, with the Army Corps of Engineers? 
And the reason I'm asking is, given my area of water in the 
rivers, the dams, the canals, I worked heavily with all three 
of them, mostly the first two, USGS and Bureau of Reclamation, 
but somehow we haven't built the nexus to be able to determine 
what your role, the Park Service, is with the role of 
conservation, of watershed management, of all those other 
things that can be part of what you're talking about.
    Mr. Jarvis. That's a great question. And you're absolutely 
right. Those are sister agencies within the Department of the 
Interior, except for Army Corps of Engineers, but Bureau of 
Reclamation and USGS are sister agencies to the National Park 
System.
    And it is very clear to me in discussions with the new 
secretary, Secretary Salazar, and his staff, that the 
expectation is that our bureaus will be working together much 
more closely than in the past.
    I think it has been in some ways--I mean, each of these 
agencies have somewhat in some cases competing mandates. And 
the expectation of the new secretary is that we will get 
together, particularly on climate change and water demands.
    I mean, as you well know, Congresswoman, the challenges we 
are having here in California from drought and water needs, 
water availability, water quality, all of those kinds of 
things. And in many cases the National Park Service and the BLM 
and the U.S. Forest Service are at the headwaters in terms of 
these sites. In some cases there are entitlements. And we play 
a very vital role in protecting that watershed as to serve the 
downstream needs. And we are really working together in a much 
more robust way.
    Mrs. Napolitano. Well, that really helps the quality of 
water.
    Mr. Jarvis. Yes, it does.
    Mrs. Napolitano. Which brings me to a point of recycling. 
How much recycling of any of its water does the Park Service 
do?
    Mr. Jarvis. It's again--in many cases it's the individual 
initiative of a local superintendent has created some system to 
provide that. But there has not been a holistic approach to 
this at the National Park Service.
    Mrs. Napolitano. Why not?
    Mr. Jarvis. Because there hasn't been, as you've indicated, 
Chairman, sort of direction from the top that the National Park 
Service should be an environmental leader.
    Mrs. Napolitano. Well, I guess I push that because we need 
to start looking at conservation storage, recycling it. And as 
you talk about education, I hope that as you receive some 
assistance in funding for education of the public and the 
visitors that you incorporate water conservation into that.
    Mr. Jarvis. Absolutely.
    Mrs. Napolitano. That is key.
    How about the tribal issues? Are they part and parcel of 
what the Park Service is doing? Many tribal lands are adjoining 
park units, and when you're talking about establishing--what 
would I say--corridors of energy that traverse public, private, 
and tribal lands, that's going to be a big issue in being able 
to resolve without impacting the wildlife in those areas.
    Mr. Jarvis. Absolutely. And this has been certainly one of 
my personal interests over my 30 years in the National Park 
Service, is to reach out to affiliated tribes. In many cases 
the tribes have--our national park units were their traditional 
hunting grounds or they are adjacent to reservations or in some 
cases the reservations are actually inside units of the 
National Park System. And to maintain an open and robust 
relationship requires individual personal attention from the 
park superintendents. And I encourage all of my 
superintendents--I did it as a superintendent as well--to sit 
down and discuss these issues. Because they too, tribes, have a 
very strong vested interest in wildlife corridors, in energy 
development, in maintaining their lifeways, all of those 
things, cultural resources in particular that are threatened by 
this. And I think it's going to require us to work very, very 
closely with tribes as we address this.
    Mrs. Napolitano. And is the Park Service looking at the 
possibility of adding areas adjacent to the parks, the national 
parks, for purposes of preservation?
    Mr. Jarvis. In some cases I believe so. You know, there is 
a process for adding units, for adding significant lands. And 
it comes by Congress authorizing the study of additional units 
and additional park lands. Our new secretary, Secretary 
Salazar, has indicated that he has an interest in expanding the 
National Park System for a variety of reasons to reflect all of 
the American stories but as well to preserve additional 
habitat.
    Mrs. Napolitano. I'm glad to hear that because if not, 
we'll ask his brother to bend his ear. His brother serves in 
our caucus, and we are very much proud of the work he's doing.
    You indicated you're behind in the strategy and you're 
trying to set up the model that you just attended a conference 
where they're looking at being able to bring it all together. 
How long do you think that's going to take? And if you were the 
director, if you were given the authority by Congress by the--
whether it's by the secretary's mandate or legislation, what 
would be the scenario that you think would be in place to be 
able to progress more than we have in the last decade or so?
    Mr. Jarvis. Well, in 2016 will be the centennial, the 
hundredth birthday of the National Park System. And I think 
2016 provides an extraordinary opportunity and target point for 
us as an agency and, frankly, for the country.
    If you look at the National Park System in aggregate, we--
as Wallace Stegner said, we are America at its best. We are, as 
in Ken Burns' film that's coming out this fall, America's best 
idea.
    Climate change is going to be a challenge to all of us. And 
the National Park Service can play a significant leadership 
role in this, first setting very specific goals to reduce our 
carbon footprint by 2016 so that we can really demonstrate to 
the American public that this institution is a leader.
    And I can give you a perfect example here in California, At 
Lassen Volcanic National Park we've built a brand new visitor 
center up there that is certified under the Green Building 
Council as Lead Platinum, which is the highest level that you 
can get. So when you enter that building, you can pick up a 
brochure on volcano, and you can pick up a brochure on the in-
floor heating system that is driven by geothermal. So, you 
really get both stories.
    And I think that setting specific goals for the National 
Park Service to be an environmental leader in this case, to set 
up a way of reporting to the American public on the condition 
of these park resources, the ecological integrity as well that 
has been threatened, and to inspire the American public to take 
action themselves in terms of energy conservation, water 
conservation, all of those things to what they learn within our 
national parks, I would set all of those as very specific goals 
leading up to 2016.
    Mrs. Napolitano. OK. Hopefully part of that will be the 
solar panel, especially in areas where there's a lot of sun.
    Chair, I have other questions, but I think I'll submit them 
in writing.
    Thank you very much.
    Mr. Grijalva. Thank you, Mrs. Napolitano.
    If I can, Mr. Jarvis, let me follow up on a question that 
Mrs. Napolitano asked.
    One of our later witnesses is going to suggest that we 
should also consider adding areas to the National Park System 
that are damaged but restorable. Any thoughts on that concept?
    Mr. Jarvis. The National Park Service has, I believe, one 
of the best restoration programs in the country. We have 
inherited damaged landscapes in the past. Shenandoah National 
Park in the East was significant--was homesteaded. It was 
significantly cut-over forest. And as I mentioned, Redwood 
National Park as well. Restoration is an absolute key. And 
it's--actually I think it's an exportable activity as well, as 
there are damaged landscapes around the world that we can 
contribute to as well. I think it's a very valid idea.
    Mr. Grijalva. Thank you. Let me thank you, Mr. Jarvis. I 
think that was--as the development of the legislation goes 
forward, I think you made some good points that need to be 
considered, in response to a question about education, how 
vital that needs to be as part of the overall strategy to deal 
with the climate change and the public lands, and the fact that 
we touch so many people, so many visitors, and how powerful too 
that could be.
    Research and development is another point you made, and 
human resource development as well. And so thank you very much 
for your testimony, and I appreciate your suggestions very 
much. Thank you.
    Mr. Jarvis. Thank you, Mr. Chairman.
    Mr. Grijalva. Call the next panel of witnesses. If the next 
panel would join us, please. Thank you.
    Let me begin. Mr. John Harja, Co-Chair Western Governors' 
Association Wildlife Corridors Initiative Steering Committee, 
welcome. And we look forward to your comments.

     STATEMENT OF JOHN HARJA, CO-CHAIR, WESTERN GOVERNORS' 
 ASSOCIATION WILDLIFE CORRIDORS INITIATIVE STEERING COMMITTEE, 
                      SALT LAKE CITY, UTAH

    Mr. Harja. Thank you. Thank you for the opportunity to 
come, Mr. Chairman, Mrs. Napolitano.
    My name is John Harja. I am Public Lands Policy Coordinator 
for Governor Jon Huntsman of Utah. And as a coincidence, 
Governor Huntsman is the Chair of the Western Governors' 
Association this year.
    Last summer at their annual meeting, the Governors 
established a working group called the Western Governors' 
Wildlife Council. The reason for this is the Governors 
recognized that wildlife issues were important to the West as a 
whole.
    The Western Governors' Association is composed of the 19 
Western states. And the board of directors are the Governors. 
So, it's an organization that directly reports to the Governors 
and face these regional issues. They don't always agree, of 
course. And if not, then that issue is left with Governors to 
deal with on their own. So when they do agree on an issue, it's 
very important. And this is one of the issues they agreed on, 
that wildlife crucial habitat and wildlife corridors, 
connectivity of wildlife, was something that as a region we 
should focus on.
    And by connectivity, they didn't necessarily mean just 
movement of big game. They meant connectivity in terms of 
genetics and the flow of plants and all that sort of thing. So, 
it is an important issue that they decided to move forward 
with.
    They recognized, as we stated, that intact and functioning 
ecosystems, resilience as the previous speaker mentioned, are 
important, and asked a group to start looking at it. That group 
convened last summer. And in one of those be-careful-what-you-
ask-for tasks, I was elected chair. So, that's why I'm here 
today. In meeting the council has focused on a couple of 
issues. There have been a couple of important examples of 
corridors that we're looking at, protection of corridors. The 
first wasn't the Western Governors' Association that caused it 
to happen, it was a partnership of lots of groups. It's a 
corridor south of Grand Teton National Park, the Path of the 
Pronghorn, was established by the Forest Service and the BLM 
last summer. And that's the kind of example of movement that we 
were mentioning.
    I want to mention that not only because it's there now, but 
it was true partnership. And that's one of the things that the 
Governors understand, that it's going to take Federal lands and 
state lands and private lands to accomplish many of these 
goals.
    But in meeting we've discovered a number of things. A lot 
of information is simply not there. The Western Governors' 
Association is also, at the same time, working on a Western 
Renewable Energy Zone Process. And they're trying to establish 
areas where wind, geothermal, solar are appropriate--or best 
sited--let me put it that way. And wildlife is one of the 
issues. Another of course is transmission corridors and power 
lines and all of that. But wildlife is very important.
    In examining our group was asked to provide them 
information on wildlife corridors and crucial habitats, and 
discovered much information is simply not yet there. And what 
information is there is not necessarily designed for this 
purpose. For example, in Arizona a lot of antelope information 
simply doesn't exist. So, how to proceed?
    Crucial habit are defined differently in different states. 
My state, Utah, has one definition. Right across the border, 
Wyoming, might have a different definition. Neither is wrong, 
they're just established for different purposes. And so trying 
to coordinate across state boundaries is a key point for us.
    We do need a credible set of tools. We need things like 
GIS. We do need to understand how to map them. But in mapping 
you have to understand the basis of the information. It has to 
be accurate.
    And then it comes down to funds. A lot of states, of 
course, are suffering just now. There's a need for funding. 
There's a need for GIS funding. There's a need for essentially 
more information. Most of the states get their wildlife funding 
through sale of permits for hunting. That's sufficient for what 
we're doing, but a lot of the states are maxed out. It's hard 
to proceed any further. And so some sort of coordinated effort 
is needed.
    We're pleased to partner with most of these groups that are 
sitting next to me and behind me as partnering their efforts 
and their funding. And that's an important way to proceed.
    We are looking primarily at what we call a Decision Support 
System. And that is a method of gathering information, making 
it available to the public on the web, for example, to anybody 
who needs it, and then making it available to decision makers, 
whether those decision makers are local government, state 
government folks, or the Federal agencies. Just providing it to 
them, and then asking that they use it.
    In Utah in the last few years we have been taking advantage 
of cooperating agency status a great deal. That's one of my 
primary functions with Governor Huntsman. This is a way to get 
into the process, bring that kind of information to the Federal 
agencies that work on environmental impact statements and ask 
them to consider it. That's one way. There are many others. The 
State of Wyoming has got a GIS system on their web that has all 
of the information that they have to date. And they're asking 
agencies to look at it. So, there are many ways to approach it.
    The effects of climate change are part of our effort. 
Corridors may change as the climate adjusts, as things get 
warmer and plants move north or up. So, that's a difficult one, 
though, for the agencies. There isn't a lot of knowledge yet. 
Some of their predicted models vary in their certainty. They're 
very complex. So, just trying to get a handle on that is going 
to be a major challenge in and of itself.
    But the state agency--I want to emphasize this--the state 
agencies are willing to accept all those challenges. They take 
very seriously their responsibilities as the public trust for 
natural resources. Outside the Endangered Species Act, for 
example, the states are the managers of habitat and wildlife. 
They don't own the habitat, but they are the managers of the 
wildlife issues. They take that seriously and they see it as an 
opportunity to improve things and protect corridors that are 
essential to the way of life in the West for wildlife.
    So, with that, Mr. Chairman, I pass the opportunity along.
    Mr. Grijalva. Thank you, very much.
    [The prepared statement of Mr. Harja follows:]

 Statement of John Harja, Director, Public Lands Policy Coordination, 
Office of Utah Governor Jon M. Huntsman Jr., Speaking on behalf of the 
                  Western Governors' Wildlife Council

    Chairman Grijalva, Ranking Member Bishop and members of the 
Committee, my name is John Harja. I am the Director of Public Lands 
Policy Coordination in the Office of Utah Governor Jon M. Huntsman, Jr. 
I also serve as Chair of the Western Governors' Wildlife Council, an 
organization formed by the Western Governors' Association. The WGA 
addresses important policy and governance issues in the West, advances 
the role of the Western states in the federal system, and strengthens 
the social and economic fabric of the region. Thank you for the 
invitation to testify today on behalf of WGA concerning the Wildlife 
Corridors Initiative and the work of the Western Governors' Wildlife 
Council <SUP>1</SUP>.
---------------------------------------------------------------------------
    \1\ www.westgov.org
---------------------------------------------------------------------------
Background
    In February 2007, the Western Governors' Association unanimously 
approved policy resolution 07-01, Protecting Wildlife Migration 
Corridors and Crucial Wildlife Habitat in the West <SUP>2</SUP>. This 
resolution asked the Western states, in partnership with important 
stakeholders, to identify key wildlife corridors and crucial wildlife 
habitats in the West and make recommendations on needed policy options 
and tools for preserving those landscapes. WGA did this through the 
Wildlife Corridors Initiative, a multi-state, collaborative effort to 
assess current data for wildlife corridors and crucial habitat in the 
19 Western states. In June 2008, the governors adopted the report 
<SUP>3</SUP>, Wildlife Corridors Initiative, which included 
recommendations on data needs and conservation tools developed through 
a stakeholder-based process.
---------------------------------------------------------------------------
    \2\ http://www.westgov.org/wga/policy/07/wildlife-corridors07-
01.pdf
    \3\ http://www.westgov.org/wga/publicat/wildlife08.pdf
---------------------------------------------------------------------------
    The Governors acknowledged that large, intact and functioning 
ecosystems, healthy fish and wildlife populations, and public access to 
natural landscapes contribute to the West's quality of life and 
economic well-being. Unfortunately, human activity occurring in 
important wildlife corridors and crucial wildlife habitats can affect 
the integrity of these ecosystems around the nation and in the Western 
States.

Western Governors' Wildlife Council
    In June 2008 the Western Governors established the Western 
Governors' Wildlife Council to implement recommendations in the report. 
The primary task is to identify key wildlife corridors and crucial 
wildlife habitats in the West, and to coordinate implementation of 
needed policy options and tools for preserving those landscapes.
    The Council is generally tasked to address the following needs 
identified in the development of the report:
    <bullet>  Much information is missing, or more detailed information 
is desirable, concerning wildlife corridors and crucial habitats.
    <bullet>  Crucial habitat and wildlife corridors are defined 
differently, and used for different purposes, in the various states. 
These issues need to be examined and reconciled, to meet the common 
goal of aiding wildlife conservation efforts
    <bullet>  States must have a credible set of tools and models for 
incorporating wildlife values into planning and decision-making 
processes.
    <bullet>  There must be coordination across all levels of 
government for conservation of wildlife corridors and crucial habitat.
    <bullet>  States require long-term, sustained funding for wildlife 
conservation objectives that support current and future decision-making 
in a dynamic landscape. State wildlife agencies are funded primarily by 
revenues from fishing and hunting, federal distributions and lottery 
dollars; these revenues limit their capacity to engage actively in 
conserving wildlife habitat and corridors. Several existing programs 
provide a foundation of information that can be built upon with a 
modest infusion of funds.
    A key product of the Western Governors' Wildlife Council is the 
development of a spatially explicit Decisions Support System (DSS) that 
each state can use to make more informed decisions on protecting 
wildlife corridors and crucial habitats. This tool will build upon 
existing information and fill data gaps. The DSS will include GIS 
mapping data to bring consistency in the way corridors are mapped and 
crucial habitats identified across the West. It will also increase the 
integration of wildlife data into decision processes early on, by 
fostering more proactive planning and promoting research on adaptive 
resource management.
    The DSS will be dynamic. There will be regular updates of data as 
landscapes and wildlife populations change as a result of the influence 
of population growth, energy development and climate change. Through 
this effort the DSS will support research to understand climate change 
impacts on wildlife corridors and crucial habitats and climate-change 
related adaptation.
    For the last six months the Western Governors' Wildlife Council has 
been working on a pilot project to collect available wildlife data from 
relevant states, federal agencies and nongovernmental organizations to 
apply crucial habitat information to the identification of developable 
renewable energy zones within WGA's Western Renewable Energy Zones 
initiative. Plans are also underway within the Western Governors' 
Wildlife Council to establish two standing committees to move forward 
on developing an integrated fish and wildlife DSS within each state and 
to achieve a coordinated understanding of wildlife corridors and 
connectivity issues.

Federal Partnerships
    The WGA, through the Western Governors' Wildlife Council, is poised 
to coordinate efforts between the 16 state members of the Council to 
develop DSSs, while integrating federal partners and stakeholders into 
these efforts. Integrated DSSs in each state in the West will include 
all public lands, and consider current and future uses of adjoining 
lands. Early and frequent coordination between state and federal land 
managers and other agencies and stakeholders will create the likelihood 
of positive results. Given the amount of public lands in the West, it 
will be critical for states to partner with federal agencies in 
developing DSSs to ensure data sharing and the ability for federal 
agencies to utilize the information in their own decision-making 
processes.
    One wildlife corridor has already been designated on public lands 
as a result of data sharing between states, federal agencies and 
additional stakeholders. The Bridger-Teton National Forest amended its 
Land and Resource Management Plan to identify a wildlife corridor, 
known as the Path of the Pronghorn, and a management standard to ensure 
that no new projects or activities impede the migration corridor. This 
is one of the longest remaining land-based wildlife migrations in North 
America, and it is the longest in the lower 48 United States. A portion 
of this corridor also crosses Bureau of Land Management lands in 
Wyoming. A recent revision of the Pinedale District Resource Management 
Plan protected a portion of the pronghorn migration on their lands by 
approving the designation of an Area of Critical Environmental Concern, 
designated Trappers Point.

State Needs
    Each state will require funding to coordinate the development of 
their DSSs on a regional scale and fill data gaps within their state. 
Many states have begun this process, but they are in different stages 
of development. The Western Governors' Wildlife Council will soon be 
developing a framework for a coordinated DSS that will give each state 
the ability to create a scorecard, identifying their specific and 
individual needs. A portion of that money will also be needed to help 
states modify their wildlife management goals and plans as wildlife 
respond to impacts from climate change. Resources directed toward the 
federal agencies that would maximize their participation and support of 
the Western Governors' Wildlife Council should also be considered.

The Effects of Climate Change
    The Wildlife Corridors Initiative report provided recommendations 
for identifying and maintaining wildlife corridors in the face of 
climate change. These recommendations include:
    <bullet>  Establish a Wildlife Adaptation Advisory Council among 
state and federal agencies, academics, and science-based NGOs to 
facilitate regional and state climate-impact assessments on the effects 
of climate change upon wildlife and wildlife habitat.
    <bullet>  Establish a regional climate change adaptation 
information clearinghouse relevant to wildlife corridors and crucial 
habitat.
    <bullet>  Implement flexible approaches to addressing habitat 
fragmentation on public lands and utilize incentives to encourage 
voluntary protection and management of key crucial habitats and 
wildlife corridors by private owners.
    <bullet>  Recommend coordination among western states, tribes and 
federal natural resource agencies in planning and implementing 
adaptation activities.
    <bullet>  Consider collaboration within hydrologic strategic 
planning, hydrologic climate modeling, water storage capacity and state 
invasive species strategies.
    The Wildlife Corridors Initiative additionally suggests that the 
Western Governors should consider supporting the establishment of new 
revenue streams to support wildlife adaptation to climate change in any 
relevant climate change legislation, such as carbon cap and trade or 
carbon tax legislation that may be enacted by the U.S. Congress.

Conclusion
    In closing, the WGWC is moving ahead quickly with establishing a 
dynamic DSS in each state. Each DSS will be designed to coordinate the 
collection of information concerning crucial habitat and wildlife 
corridors, and design a process within each state which provides this 
information to state, local and federal decision makers. Our effort is 
to encourage early consideration of wildlife data in planning decisions 
and to help assist decision-makers to better manage wildlife resources. 
It is this last step which is vital. Wildlife and plant species live on 
private, state and federal land, and any process to protect them must 
involve partnerships. No one entity can accomplish the task alone. We 
would appreciate any support this committee and Congress is able to 
offer through funding or by encouraging federal agency participation in 
this effort.
    Thank you for the opportunity to speak with you about the work WGA 
and the Western Governors' Wildlife Council are doing to map wildlife 
corridors and crucial habitat on public and private lands.
                                 ______
                                 
    Mr. Grijalva. Ms. Rebecca Shaw, Director of Conservation 
Science, The Nature Conservancy of California. Welcome and 
thank you.

 STATEMENT OF REBECCA SHAW, DIRECTOR OF CONSERVATION SCIENCE, 
  THE NATURE CONSERVANCY OF CALIFORNIA,   SAN   FRANCISCO,   
                           CALIFORNIA

    Ms. Shaw. Thank you very much, Chairman Grijalva and 
Congresswoman Napolitano, for the opportunity to offer 
testimony regarding the impacts of climate change on the 
National Parks, and the opportunities that exist for 
implementing adaptation strategies to protect these resources.
    My name is Rebecca Shaw. I work for The Nature Conservancy. 
I oversee The Nature Conservancy's conservation in California. 
And I conduct research on the climate change impacts and 
adaptation strategies to develop scientific methods and 
information for use in the field by managers and by policy 
makers. I'm here today to talk to you about the adaptation of 
our national lands and waters, especially those in our national 
parks in the face of a rapidly changing climate.
    Just to be clear, adaptation refers to human actions to 
maintain important human and natural systems in the face of 
change. But adapting nature to the impacts of climate change 
will help ensure the health of our valuable resources in our 
national parks as well as the forests and waters on people--
upon which people depend.
    In many parts of the world, including here in the 
California desert, impacts of climate change can already be 
seen and measured with just the observed rise in global mean 
temperature of 1.3 degrees Fahrenheit. An explosion of studies 
in the last five years has documented the observed climate 
impacts on species distribution, wildfire frequency and 
intensity.
    With or without social interventions in curbing greenhouse 
gas emissions, we are committed to impacts in the future. In 
California in this century the average annual statewide 
temperature is projected to rise anywhere between 6.8 and 10.4 
degrees Fahrenheit under the greenhouse gas emissions 
trajectory on which we now find ourselves. To put this into 
context, San Francisco could have the climate of Los Angeles. 
That means that there will be considerable impacts in the 
desert as well as here at Joshua Tree National Park. Climate 
change will result in increased rates of plant mortality, 
including the charismatic Joshua Tree, which is the emblematic 
symbol of this park. These changes will affect the viability of 
the investments we have made in public lands in California and 
the resources those investments were designed to protect.
    While it is important to implement meaningful greenhouse 
gas reductions, it's also important to come to terms with the 
degree of the climate change to which we have already committed 
ourselves, and to act on the funding, planning and 
implementation to facilitate adaptation of our important 
protects areas.
    Current adaptation responses to climate change are focusing 
heavily on defensive infrastructure, such as reinforcing 
seawalls, relocating communities and roads, and building dams 
and levies and channels to control flooding. Such 
infrastructure responses will be necessary, but they will not 
be sufficient to address the full scope of climate change 
impacts. Done right and under the right conditions, adaptation 
can protect us from climate change threats such as increased 
fire, flooding, and pest outbreaks more cost-effectively than 
by deploying additional infrastructure. And this is ecosystem-
based adaptation, what we term as ecosystem-based adaptation.
    In practice, ecosystem-based adaptation includes strategies 
such an insuring that natural lands remain intact, and not 
fragmented, and connected to allow for plants, animals, and 
people to adjust to environmental conditions. It also includes 
the restoration of fragmented or degraded ecosystems. And it 
can include the use of natural infrastructure such as wetlands, 
flood plains, and mangrove trees to buffer settlements from 
flood waters or storms.
    The national parks, as you know, are not viable as islands. 
And ecosystem-based adaptation strategies will be needed to 
protect their resources in the future.
    As the climate shifts and plants and animals no longer will 
be able to survive in the current location, the ability to move 
will be essential to the survival of all species.
    One analysis of impacts of climate change here at Joshua 
Tree show that the future range will be reduced and shifted 
northward, and unfortunately the Joshua tree lacks the 
sufficient dispersing capability to follow that shifting 
climate. The Nature Conservancy is facing similar challenges 
with our investments in natural resource protection. And like 
the Federal government, we are working diligently to develop 
information to support those solutions.
    It is for this reason that The Nature Conservancy is 
developing information tools such as the Climate Wizard, which 
is referenced in my written testimony, and the Climate Stress 
Index, that allow resource managers to interpret climate 
impacts data for decision making. Using these tools and others, 
we are working to determine where species will migrate and to 
develop ecosystem-based adaptation strategies to facilitate 
their movement.
    This includes, of course, as others have mentioned, 
establishing connectivity to future habitat and insuring 
corridors are free of barriers to movement.
    Here at Joshua Tree National Park such a strategy will 
require coordination among Federal agencies like the National 
Park Service and the Bureau of Land Management, as well 
partnerships with nonFederal entities including private 
landowners.
    And to say that these kinds of efforts aren't unique, they 
would just be needed to be more prevalent in the future. An 
excellent example of this is available right here in the 
vicinity of the Coachella Valley Multiple Species Habitat 
Conservation Plan, which maintains links between Joshua Tree 
National Park and other protected areas, even as urban 
development moves forward.
    Moving forward then, it would be important to carefully 
explore what will be needed to implement adaptation strategies, 
ecosystem-based adaptation strategies to protect these 
resources on a scale that will be meaningful for protecting 
natural and human communities.
    I encourage you to consider the inclusion of the following 
key elements in any policy context: There will need to be 
significant funding and sustained funding to implement 
ecosystem-based adaptation. But it will be cost-effective in 
the long-run. But there is a need for a revenue stream.
    I encourage the development of a national climate change 
adaptation program with a nationally prioritized list of 
ecosystem-based adaptation strategies to address climate change 
impacts, guidelines for how they should be accomplished, and 
guidance on whether infrastructure solutions are necessary and 
appropriate.
    I also encourage climate change adaptation partnerships to 
facilitate the cooperation among all levels of government and 
the private section, and the appropriate incentives to allow 
this to happen.
    I also encourage guidance on the avoidance of impacts 
counter to adaptation goals. While Federal and state agencies 
should ensure adaptive infrastructure avoids damage to natural 
systems to the maximum extent practical, and should look for 
opportunities to use restoration of natural systems as a way to 
protect human communities.
    And last, the national parks could serve as climate change 
adaptation centers with key national parks identified to 
develop the information and tools needed, design and pilot 
adaptation approaches and strategies, monitor outcomes, and to 
facilitate adaptation learning.
    Thank you very much for the opportunity to appear today and 
to offer testimony.
    As the Subcommittee contemplates legislation for adaptation 
of our valued national parks, the conservancy has very 
practical solutions for advancing adaptation to climate change. 
And on behalf of the conservancy, I would like to extend an 
offer to work with the committee as you explore practical 
solutions for assisting the Nation in adapting to our future 
climate.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Dr. Shaw follows:]

Statement of M. Rebecca Shaw, Ph.D., Director of Conservation Programs, 
                  The Nature Conservancy of California

I. Background on Dr. Rebecca Shaw
    I am Rebecca Shaw, the Director of Conservation for the California 
Chapter of The Nature Conservancy. It is my job to provide the 
technical guidance and leadership necessary for the Conservancy to make 
smart decisions regarding the conservation and management of nature. 
Prior to taking a position at The Conservancy, I was a researcher at 
the Carnegie Institution's Department of Global Ecology at Stanford 
University and pursuing a career in climate change science. At the 
Conservancy, I have continued research on climate change impacts and 
adaptation, developing scientific methods and information for use by 
field managers of natural resources and policy makers that creates an 
explicit link between climate science information and its users. I have 
dedicated my scientific career to using rigorous, practical analysis 
and synthesis of science data for management and use our lands and 
waters. I am here today to talk explicitly about adapting our natural 
lands and waters, especially those in our National Parks, to a rapidly 
changing climate.

II. Background on The Nature Conservancy
    For the past 50 years, the Conservancy has integrated science, 
policy and on-the-ground conservation to protect more than 117 million 
acres of land and 5,000 miles of river around the world. We work in all 
50 states and 32 countries, and are supported by approximately one 
million individual members. Our work also includes more than 100 marine 
conservation projects in 21 countries and in 22 U.S. states. The 
Conservancy owns and manages approximately 1,400 reserves throughout 
the United States--the largest private system of nature sanctuaries in 
the world. The Conservancy recognizes that successful conservation is 
the underpinning of human health and prosperity and uses science and 
its strategic application to protect biological diversity and meet 
human needs. To achieve our goals we routinely partner with government 
agencies, non-profit organizations, academic institutions, and business 
enterprises. However, climate change impacts on the Earth's lands and 
waters are real and tangible, and we have found that protecting our 
natural systems has become increasingly challenging.

III.  Context for Ecosystem-based Adaptation to Climate Change
    In many parts of the world, including right here in Joshua Tree 
National Park, impacts are already observable and measureable. Forests 
from Canada to Brazil are more susceptible to pest outbreaks and 
catastrophic fires. Species like polar bears in the Arctic are 
struggling to survive as suitable habitat shrinks. As climate continues 
to change, water supplies will be threatened as some regions experience 
more flooding and others more drought. Agricultural productivity will 
shift. Low-lying coastal communities may be inundated by sea-level 
rise. In fact, with or without societal interventions, we are committed 
to continued human-driven climatic change and additional impacts in the 
future (Kerr 2004, 2005) and it is important to develop concrete 
approaches for helping communities and ecosystems deal with the climate 
change that is unavoidable.
    Nature can play a powerful role the solutions. Adapting nature to 
the impacts of climate change will help ensure the health of valuable 
resources, such as forests and fisheries, upon which people depend for 
their well-being and livelihoods. However, there is emerging evidence 
that adaptive responses to climate change are focusing heavily on 
defensive infrastructure, such as reinforcing seawalls, relocating 
communities or roads, and building dams, levees, and channels to 
control flooding. Such infrastructure responses will often be 
necessary, but they will not be sufficient to address the full scope of 
climate change impacts. Also needed are strategies to ensure that the 
ecosystems that support biodiversity and that provide people with 
water, food, and other natural resources and services continue to 
function despite the changing conditions. Done right and under the 
right conditions, we can also harness nature to protect us from climate 
change threats, such as increased flooding, more cost-effectively than 
by deploying additional infrastructure.
    While the testimony provided today will focus on adaptation in 
order to lessen climate change impacts, action to address the causes of 
climate change is essential if adaptation efforts are to be effective. 
To that end, implementation of policy that explicitly links three 
concepts is essential to success adaptation success:
    1.  A strong cost-effective cap on emissions and a market-based 
program compatible with other international efforts. Meaningful 
emission reductions are needed to stabilize atmospheric greenhouse gas 
concentrations at a level that ensures the well-being of human 
communities and ecosystems worldwide. The Conservancy supports caps 
that would establish emissions reductions of 20% below 2005 levels by 
2020 and an 80% reduction by 2050.
    2.  Reduction of emissions from forest and land-use practices 
through a comprehensive framework including incorporation of verified 
credits from these practices in a cap-and-trade program, and
    3.  Strong support for ecosystem-based adaptation programs designed 
to protect human and natural communities from the impacts of climate 
change.

III.  Climate Change Impacts in California and at Joshua Tree National 
        Park
    Our terrestrial, freshwater, and marine habitats, including the 
already dry and hot California desert in which we find ourselves today, 
face an uncertain climatic future. Climate change projections forecast 
significant ecological and economic impacts as a result of rising 
temperatures, changing rainfall patterns and extreme weather events. 
Although climate has changed repeatedly over past millennia, for a 
variety of reasons (Houghton et al. 2001), anticipated human-driven 
changes are likely to be unusually fast and large. Many of the species 
and ecosystems here are particularly vulnerable to future climatic 
change because their current ranges are limited and their potential 
ranges are bounded by the coast, mountains and other geographic 
features (Snyder et al. 2003). California's unique climate, under which 
its ecological systems evolved, is projected to change dramatically. 
Mean annual temperatures in California have already increased by 1 
degree Celsius (1.8+F) between 1950 and 2000. The contemporary climatic 
changes have already had a demonstrable impact on California's natural 
resources. Droughts have become more severe, especially in the southern 
part of the state, and this trend is projected to continue over the 
next 100 years (Christensen et al. 2007; Seager et al. 2007; Trenberth 
et al. 2007). In addition, movement of species in response to climate 
warming is already resulting in shifts of species ranges north and 
upward along elevational gradients (Parmesan, 2006) and have begun to 
explore the implications of these changes for the provisions of 
ecosystem services (sensu Millennium Ecosystem Assessment 2005). 
Indeed, an explosion of studies in the last five years document 
observed climate impacts on species distributions. In one such study in 
Southern California's Santa Rosa Mountains, researchers documented 
plants shifting upslope by 65 m over the 30 year period from 1970 to 
2007 (Kelly and Goulden, 2008). The altitudinal shift is attributable 
to increases in surface temperature and in the precipitation due to 
climate change. In another, researchers discovered that 70% of 
butterfly species studied advanced the date of first spring flights by 
an average 24 days over the period from 1972 to 2002 (Forister and 
Shapiro 2003).
    In California this century, the average annual statewide 
temperature is projected to rise 1.7-3.0+C (3.0-5.4+F) under low 
emission scenarios and 3.8-5.8+C (6.8-10.4+F) under higher emissions 
scenarios; the current trend is the higher than the high emissions 
scenario (Hayhoe et al. 2004; Cayan et al. 2006, Rapauch 2007). The 
projections for statewide annual average precipitation change varies in 
both direction and magnitude from a decrease of 157 mm to an increase 
of 38 mm (Hayhoe et al. 2004; Cayan et al. 2006), with significant 
variation in projections among Global Circulation Models (GCMs) and 
emissions scenarios (Metz et al. 2001; Salathe 2003; Wood et al. 2004).
    The projections for the California deserts, including Joshua Tree 
National Park, are even more severe, with the typical summer maximum 
temperatures by the end of the century reaching levels that are hotter 
than the most extreme year we have seen in the last 100 years. The 
majority of climate models also predict these deserts will become even 
more arid, losing an average of 1.6 inches of precious rain each year. 
Additional stresses to species and ecological systems are also likely 
to come from increased invasions from non-native species, more frequent 
high-intensity fires, unforeseen interactions between species as the 
climate shifts, and natural and non-natural barriers to wildlife 
migration (Suttle et al. 2007). Under pressure from climate change and 
the full array of stressors, these ecosystems, including the 
distinctive species associated with these places, will necessarily 
respond and change.
    Indeed, here in the Mojave Desert at Joshua Tree National Park, 
there will likely be increased rates of plant mortality, including the 
charismatic Joshua Tree, which will accelerate rates of erosion, create 
opportunities for exotic plant invasions and promote fire. The 
increased frequency of fire will further reduce abundance of native 
plants. The climate-driven dynamics of the fire cycle are likely to 
become the single most important feature controlling future plant 
distributions in these deserts. Thus it is likely that California's 
desert species and ecosystems, and the direct value we derive from them 
via ecosystem services (e.g., to sustain biodiversity, promote clean 
water, and sequester carbon), will also be altered dramatically.
    As we are now able to measure ecological signals for a temperature 
increase of just 1.0+ C (1.8+F), the expected impacts on species and 
ecosystems of the temperature expected by 2099 are sure to be dramatic 
and we need to develop approaches for securing our past investment in 
our federal, state and private protected areas through a comprehensive 
adaptation strategy that takes into account the likely impacts of 
climate change, analyzes the vulnerability of species and ecosystems to 
those impacts and develops adaptation strategies for building 
resilience into natural systems.

IV. Ecosystem-based Adaptation Approach--Strategies and Benefits
    While a world of rapidly changing climate is not desirable, it is 
now inevitable. To alter course of impact of climate change, it is 
essential to implement meaningful greenhouse gas reduction targets; but 
it is also important to come to terms with degree of climate change to 
which we have committed ourselves, both through our past emissions and 
through emissions that will occur between now and in the future. It is 
therefore vital to act now to begin to/take steps to fund, plan and 
implement strategies to protect our important protected areas and the 
services they provide to our nation's people in the face of anticipated 
changes in climate. These last strategies are commonly referred to as 
ecosystem-based adaptation strategies.
    In practice, ecosystem-based adaptation includes practices such as 
ensuring that ecosystems remain intact and interconnected to allow for 
biodiversity and people to adjust to changing environmental conditions. 
It can also include restoration of fragmented or degraded ecosystems, 
or simulation of missing ecosystem processes such as migration or 
pollination. It can include the use of natural infrastructure such as 
wetlands or fringing mangrove communities to buffer human settlements 
from floodwaters or storms. These interventions are not without costs--
all will demand adaptation of management, governance and institutional 
settings--but they are necessary to safeguard ecosystems and the 
essential services that natural systems provide to people such as clean 
water, clean air and recreations. Protecting, restoring, and managing 
key ecosystems yields significant sustained benefits in a world of 
climate change for both humans and nature. These benefits include cost-
effective protection against storms and flooding and reinforcing 
mitigation efforts.
    Ecosystem-based adaptation encompasses a range of strategies 
whereby ecosystem management, restoration and uses are modified or 
diversified to confer greater resilience of natural ecosystems, 
production landscapes, human populations and livelihoods in the face of 
accelerated climate change. Ecosystem-based strategies include, but are 
not limited to:
    <bullet>  Integrating climate change into local and regional plans
    <bullet>  Protecting large areas with buffer zone, increase reserve 
size and increase number of reserves
    <bullet>  Increasing connectivity between reserves through design 
of corridors, removal of barriers for dispersal, reforestation
    <bullet>  Minimizing and mitigate synergistic threats including 
invasive species, fragmentation, and fire
    <bullet>  Practicing intensive management to secure populations 
including relocating species
    <bullet>  Improving interagency regional coordination
    <bullet>  Providing private land stewardship incentives
    Early lessons from existing ecosystem-based adaptation projects 
suggest some principles for developing effective ecosystem-based 
adaptation strategies:
    <bullet>  Ecosystem-based adaptation should be based on robust 
predictive modeling of climate, biodiversity and social/economic 
responses to climate change.
    <bullet>  Ecosystem-based adaptation strategies should include a 
focus on minimizing other anthropogenic stresses that have degraded the 
condition of critical ecosystems, as healthy ecosystems will be more 
resilient to climate change.
    <bullet>  Existing management practices and governance 
infrastructure should be the basis for adaptation efforts, although 
these may have to be substantially altered in order to achieve 
management objectives.
    <bullet>  The development of adaptation strategies and their 
implementation should involve diverse stakeholders in government, the 
private sector and civil society.
    Ecosystem-based adaptation complements other climate change 
responses in two ways. First, it helps to make ecosystems more 
resistant and resilient in the face of climate change so that they can 
continue to provide the full suite of services that nature provides. 
Such strategies are especially important for sustaining natural 
resources like water, timber and fisheries that people depend on for 
their well-being and livelihoods. Second, ecosystem-based adaptation 
protects and restores ecosystems that can provide cost-effective 
protection against some of the threats that result from climate change. 
For example, wetlands, mangroves, coral reefs, oyster reefs, and 
beaches all provide shoreline protection from storms and flooding that 
can reinforce and enhance engineered solutions while sustaining 
biodiversity at the same time.
    Protecting, restoring, and managing key ecosystems yields the 
following significant sustained benefits in a world of climate change 
for both humans and biodiversity:
    <bullet>  Cost-effective protection against storms and flooding: 
protecting and restoring ``green infrastructure'' like healthy riparian 
corridors and wetlands could be a more cost-effective means for 
protecting large coastal areas, and require less maintenance since they 
are living systems
    <bullet>  Maintenance of connectivity across temperature and 
moisture gradients will allow plants and wildlife to adapt naturally to 
some degree of climate change
    <bullet>  Maintenance of essential ecosystem services, such as 
water purification, will ensure continued availability and access to 
natural resources so that communities can maintain and adapt 
livelihoods to the conditions that are projected in a changing climate.
    <bullet>  Reinforcement of mitigation efforts through, for example, 
``working forest'' easements can sequester carbon by improving overall 
forest health, and simultaneously sustain functioning ecosystems that 
provide food, fiber and water resources on which people depend.
    <bullet>  Consolidation and expansion of parks and other protected 
areas in carbon-rich habitats can increase carbon storage, thereby 
reducing greenhouse gas emissions, and involve a wide range of people 
in mitigation and adaptation efforts.

V. Effective Adaptation--Information and Tools
    As we work to curb greenhouse gas emissions, it is important that 
the adaptation go beyond the systematic identification of potential 
future impacts to produce a much more comprehensive analysis of 
vulnerability and pathway for modifying that vulnerability through 
implementable strategies. The goal of adaptation should be increasing 
the long-term resilience of natural and managed systems by increasing 
the adaptive capacity of the managing institutions. There are four 
important features are necessary for such an adaptation approach:
    1.  Tools that identify the range of potential future climate 
changes, the uncertainties associated with those ranges, the degree of 
vulnerability of particular species or systems to the full range of 
climatic change
    2.  An assessment the synergistic impacts of other factors that 
might alter vulnerability to climatic changes (e.g., land use change, 
fragmentation, pollution, proximity to other protected areas, etc.)
    3.  An assessment of the adaptive capacity for existing resource 
management institutions to respond to and reduce vulnerability given 
current goals and resources constraints; and
    4.  Development of an adaptive framework for reassessing goals and 
policies that promotes cross-institutional collaboration for ensuring 
the persistence of the nation's ecosystem and parks.
    This adaptation approach will allow for a systematic analysis of 
the institutions that manage natural resources, the factors that make 
species and natural resources vulnerable to impending climate change 
and the identification of institutional changes to enhance resilience. 
Proactive measures to address climate change impacts have proven to be 
more cost-effective and efficient than reactive measures (e.g., 
Schneider et al. 2000; Easterling et al. 2004). With concerted planning 
for adaptation, adaptation measures can be implemented in the course of 
short-term operational and longer-term strategic planning and 
management decisions (Paavola and Adger 2002; Luers and Moser 2006). I 
will focus in this testimony on concrete examples of tools and 
approaches that represent The Conservancy's experience at developing 
decision support tools for climate adaptation and the development and 
implementation of action plans for an adaptive approach.
Decision-Support Tools for Climate Change Impacts
    There is so much climate change information that managers and 
decision-makers can easily become overwhelmed. Information on climate 
change and its uncertainty, past and future, is not readily accessible 
to managers and decision makers and distilled in an applicable form. It 
is for this reason that Conservancy scientists have developed decision-
support tools such the ``Climate Wizard'' (see www.climatewiz.org) that 
allow users choose any place and get records of past temperature and 
precipitation trends as well as future projections under different 
scenarios and the ``Climate Stress Index'' which interprets that 
climate impacts data relative to the climate under which management now 
occurs and at scales relevant for decision-making.

[GRAPHIC] [TIFF OMITTED] T8662.001

    .epsClimate Stress Index: Figure shows how different the future 
climate (precipitation on the left and temperature on the right) will 
be relative the past climate under which resource managers have come 
accustom. The Drought Stress Index (left) indicates whether the change 
in precipitation will be low, medium, high or unprecedented relative to 
the last 100 years and whether there is low or high uncertainty 
associated with the change. The Heat Stress Index (right) indicates 
whether the change in temperature will be low, medium, high or 
unprecedented relative to the last 100 years and whether there is low 
or high uncertainty associated with the change.

Cost-Impact Study for Reality Check on What Adaptation Strategies are 
        Cost-Effective
    With impacts of climate change, new land protection and species 
management strategies may needed to maintain and achieve current 
conservation goals but we will have to be smart about the use of 
limited resources. In an analysis of a 780,000 acre (320,000 ha) 
Conservancy project area around San Jose, California, we found 43% of 
the endemic, highly-restricted species at high risk of local extinction 
requiring the establishment of corridors and the implementation of 
assisted migration strategies to new suitable areas; and 41% of the 
wide-ranging species in need of new climate-adaptive conservation 
strategies, such as new land use, land acquisition and land management 
contracts, in order to persist in the future. The total cost of 
sustaining the biodiversity and ecosystem function of this landscape 
under a current climate would likely exceed $300M during the next 40 
years. Under a changing climate, the total cost could exceed $750 
million, or a 2.5 times increase. With considerable emphasis on the 
adoption of new policies to incentivize implementation of lower-cost 
climate-adapted strategies in place of traditional, resource-intensive 
strategies such as land acquisition, the costs can be reduced 
considerably. Methodologies and tools developed in this study should be 
made widely-available to all natural lands managers.

Cost-Impact Studies for Reality Check of What Is at Stake to Lose
    In a California Energy Commission--funded study on the impacts of 
climate change on ecosystem service production and value, the 
Conservancy values the economic impact of climate change on our natural 
resources in the state of California and the ecosystem services they 
provide (Shaw et al. 2009). In this study, we show that California's 
famous grasslands and forests will likely shrink in area and generally 
become more shrubby and scrubby. Less grassland habitat means mean 
fewer opportunities for ranchers to graze cows on natural forage. The 
loss of natural forage not only deprives consumers of naturally fed 
beef, but results in a loss of profits for ranchers who must raise 
fewer cows or pay more to feed these cattle using grain and other 
sources of feed. By 2070, we estimate the annual loss in net income to 
ranchers could be between $22 million and $312 million annually. 
Likewise, the economic effects of climate change on forests will be 
substantial. A change in the ability of California forests to store 
carbon will affect the state's ability to meet greenhouse gas emission 
goals and will result in broader impacts on society as a whole. The 
market cost of changes in carbon storage by estimating how much it 
would cost to buy carbon offsets in a carbon trading market could be as 
high as $22 billion annually by 2070. Lost carbon storage also will 
contribute to global climate change and have an impact on economies 
around the world. This ``social cost'' of the lost carbon storage could 
result in impact that could cost society more than $62 billion 
annually. However, the sooner we act, the less likely we will be forced 
to incur this full cost.

VI.  Examples of Implementation of Adaptation Implementation: Learning 
        By Doing
    The Nature Conservancy does not have all the answer but has 
developed tools for understanding climate impacts, has begun to develop 
a series of adaptation strategies--ecosystem by ecosystem--and we have 
begun to implement these tools and strategies to better understand what 
will work best. Below are two examples of our adaptation approach:

Example One--Coastlines:
    Coastlines have always been dynamic, but are now more so than ever 
because of changing storm patterns and sea level rise, placing human 
and natural communities at greater risk. The costs of these hazards to 
human and natural communities are increasing as coastal development 
continues and natural buffers, such as coastal wetlands, dunes, and 
mangroves are lost. Despite a growing awareness of the reality of these 
hazards, communities and local decision makers still have little access 
to information on likely changes in storm and flooding risk or tools to 
visualize the potential impacts and identify alternative scenarios. As 
a consequence, communities are unable to integrate sea level rise and 
coastal hazard risk into decision-making regarding natural resource 
protection and land use management. This information is needed to 
protect human communities from the dramatic changes that are underway. 
The Conservancy has contributed to the development of two different 
examples of tools and approaches that can help address these services 
and objectives jointly in the Florida panhandle (www.marineebm.org/
32.htm) and a more advanced and developing decision support tool for 
the southern shores of Long Island (http://www.coastalresilience.org).
    The salt marshes, sea-grass beds and oyster reefs of Florida's Gulf 
Coast harbor manatees, sea turtles, piping plovers and many other 
threatened species, as well as serving as nurseries for economically 
important shrimp, crab and red snapper. These habitats also provide 
protection from storm surges that accompany hurricanes. Yet strategies 
to defend and restore coastal ecosystems--which could simultaneously 
assist people and expand habitats for threatened and economically 
valuable species--have largely been ignored in favor of engineering 
projects (diking, building levees, and hardening the coastline) that 
accelerate erosion and habitat loss. Working with scientists from the 
National Oceanic and Atmospheric Administration, the Conservancy 
recently combined maps of critical habitats and threatened species in 
the Florida Panhandle with maps of anticipated storm surges and of 
human communities most physically and socio-economically vulnerable to 
storm damage. By overlaying these data sets, we were able to identify 
areas in which restoration should simultaneously protect the most 
vulnerable human populations as well as many of the area's most 
important species.

Example Two--California Grasslands:
    In the Mount Hamilton range, south of San Francisco, The 
Conservancy is implementing a conservation plan called the Mount 
Hamilton Project. The Conservancy developing a climate-adapted 
conservation plan using information about temperature and precipitation 
changes and employing climate adaptation strategies to ensure the 
persistence of a full array of species and ecosystems important to 
California's biodiversity. An example of one important species found at 
the site is the Bay Checkerspot Butterfly (Euphydryas editha bayensis). 
The federally-threatened butterfly relies on a native plant that was 
once widespread, but now persists only on rare serpentine soil patches. 
Current conservation plans, identify for protection the areas where the 
species is currently found but not where the future habitats are. The 
areas of suitable climate for the butterfly and its host plants are 
projected to shift upslope, but the distribution of suitable soils is 
too limited to support their gradual migration to higher elevations. In 
this case, the butterfly, and other sensitive species, would go locally 
extinct without climate adaptation strategies including (1) the 
drafting of a climate-sensitive conservation plan that identifies for 
protection those areas where the butterfly can persist in the future 
and (2) the relocation populations to those climate-safe areas. We are 
currently updating our methodology to create site specific conservation 
plans to take current and future habitat needs into consideration, in 
addition

VII. Closing Recommendations
    Moving forward, it will be important to carefully explore what will 
be needed to implement adaptation strategies on a scale that will be 
meaningful for protecting on natural and human communities. I encourage 
you to consider the inclusion of the following key elements in a policy 
context:
    1.  Dedicated Funding: While in the long run ecosystem-based 
adaptation will be cost effective, there is an immediate and long-term 
need for a dedicated revenue stream to support the data collection and 
synthesis, the development of a robust adaptation approach and its 
implementation.
    2.  National Climate Change Adaptation Plan: Implementation of 
comprehensive adaptation approach will not be easy. I encourage the 
development of National Climate Change Adaptation Program with a 
nationally prioritized list of ecosystem-based adaptation strategies 
and action to address climate change impacts, guidelines for how that 
is to be accomplished, and guidance on when infrastructure solutions 
such as raising roads and building sea-walls are necessary.
    3.  Climate Change Adaptation Partnership: The National Climate 
Change Adaptation Plan should be designed to facilitate partnerships 
among all levels of government and the private sector.
    4.  Avoiding Impacts Counter to Adaptation Goals: Federal and State 
agencies taking action to prevent damage to roads and property from sea 
level rise or flooding should avoid damage to natural systems to the 
maximum extent practicable.
    5.  Facilitate Land Acquisition for Adaptation: Federal, state and 
local agencies will need funding for land, easements and cooperative 
management agreements to facilitate ecosystem-based adaptation and 
connectivity.
    As this Subcommittee contemplates legislation for the adaptation of 
our valued National Parks, it is faced with the daunting task of 
simultaneously configuring our policies and economy to reduce 
greenhouse gas emissions and support our natural and human communities 
to adapt to climate change. We do have very practical solutions for 
advancing both to great success. I would like to extend an offer to 
work with the Committee as you explore policy options for assisting the 
nation in adapting to our future climate.

References
Cayan, D., E. Maurer, M. Dettinger, M. Tyree, K. Hayhoe, C. Bonfils, P. 
        Duffy, and B. Santer. 2006. Climate Scenarios for California. 
        California Climate Change Center, Berkeley, CA. CEC-500-2005-
        203-SF.
Christensen, J. H., B. Hewitson, et al. 2007. Regional Climate 
        Projections. Climate Change 2007: The Physical Science Basis. 
        Contribution of Working Group I to the Fourth Assessment Report 
        of the Intergovernmental Panel on Climate Change. S. Solomon, 
        D. Qin, M. Manning, et al. Cambridge, United Kingdom and New 
        York, NY, USA., Cambridge University Press: 848-940.
Easterling, W.E., III, B. H. Hurd, J.B. Smith. 2004. Coping with global 
        Climate change: The role of adaptation in the United States. A 
        report prepared for the Pew Center on Global Climate Change, 
        Arlington, VA. (www.pewclimate.org).
Forister, M. L., and A. M. Shapiro. 2003. Climatic trends and advancing 
        spring flight of butterflies in lowland California. Global 
        Change Biology 9: 1130-35.
Hayhoe, K., D. Cayan, C. B. Field, P. C. Frumhoff, E. P. Maurer, N. L. 
        Miller, S. C. Moser, S. H. Schneider, K. N. Cahill, E. E. 
        Cleland, L. Dale, R. Drapek, R. M. Hanemann, L. S. Kalkstein, 
        J. Lenihan, C. K. Lunch, R. P. Neilson, S. C. Sheridan, and J. 
        H. Verville. 2004. ``Emissions pathways, climate change, and 
        impacts on California.'' Proceedings of the National Academy of 
        Sciences 101:12422-12427.
Houghton, J. T., Y. Ding, D. J. Griggs, M. Noguer, P. J. van der 
        Linden, and D. Xiaosu, eds. 2001. Climate Change 2001: The 
        Scientific Basis. Cambridge University Press, Cambridge.
Kelly, A. E. and M. L. Goulden. 2008. Rapid shifts in plant 
        distribution with recent climate change. Proceedings of the 
        National Academy of Sciences. 105:11823-11826.
Kerr, R.A. 2004 Climate change: Three degrees of consensus. Science. 
        305:932-934.
Kerr, R.A., 2005. How hot will the greenhouse world be? Science. 
        309:100
Luers, A. L., and S. C. Moser. 2006. Preparing for the impacts of 
        climate change in California: Opportunities and constraints for 
        adaptation. A report from the California Climate Change Center, 
        CEC-500-2005-198-SF.
MA (Millennium Ecosystem Assessment). 2005a. Ecosystems and Human Well-
        Being. Synthesis. Washington D.C.: Island Press.
MA (Millennium Ecosystem Assessment). 2005b. Ecosystems and Human Well-
        Being. Biodiversity Synthesis. Washington D.C.: Island Press.
Metz, B., O. Davidson, R. Swart, and J. Pan (eds.). 2001. Climate 
        Change 2001: Mitigation, Contribution of Working Group III to 
        the Third Assessment Report of the Intergovernmental Panel on 
        Climate Change, Cambridge University Press, Cambridge, UK.
Paavola, J., and W. N. Adger. 2002. Justice and Adaptation to Climate 
        Change. Tyndall Centre for Climate Change Research Working 
        Paper 23. Tyndall Centre, Norwich, UK.
Parmesan, C. 2006. ``Ecological and evolutionary responses to recent 
        climate change.'' Annual Review of Ecology, Evolution and 
        Systematics 37:637-669.
Raupach, M.R., G. Marland, P. Ciais, C. Le Quere, J.G. Canadell,. G. 
        Klepper, and C.B. Field. 2007. Global and regional drivers of 
        accelerating CO<INF>2</INF> emissions. Proceedings of the 
        National Academy of Sciences 104:10288-10293
Salathe, E.P., Jr. 2003. Comparison of various precipitation 
        downscaling methods for the simulation of streamflow in a 
        rainshadow river basin. International Journal of Climatology. 
        23:887-901.
Schneider, S.H., W. E. Easterling, L.O. Mearns. 2000. Adaptation: 
        Sensitivity to natural variability, agent assumptions and 
        dynamic changes. Climatic Change. 45: 203-221.
Shaw, M.R., L. Pendleton, R. Cameron, B. Morris, G. Bratman, D. 
        Bachelet, K. Klausmeyer, J. MacKenzie, D. Conklin, J. Lenihan, 
        E. Haunreiter and C. Daly. 2009. The impact of climate change 
        on California's ecosystem services. California Energy 
        Commission Scenarios Report. CEC-500-2009-025-D.
Seager, R., M. Ting, et al. 2007. Model Projections of an Imminent 
        Transition to a More Arid Climate in Southwestern North 
        America. Science 316(5828): 1181-84.
Snyder, M. A., L. C. Sloan, N. S. Diffenbaugh, and J. L. Bell. 2003. 
        Future climate change and upwelling in the California Current--
        art. no. 1823. Geophysical Research Letters 30: 1823.
Suttle, K. B., M. A. Thomsen, et al. 2007. Species Interactions Reverse 
        Grassland Responses to Changing Climate. Science 315(5812): 
        640-42.
Trenberth, K. E., P. D. Jones, et al. 2007. Observations: Surface and 
        Atmospheric Climate Change. Climate Change 2007: The Physical 
        Science Basis. Contribution of Working Group I to the Fourth 
        Assessment Report of the Intergovernmental Panel on Climate 
        Change. S. Solomon, D. Qin, M. Manning, et al. Cambridge, 
        United Kingdom and New York, NY, USA., Cambridge University 
        Press: 235-336.
Wood, A.W., L.R. Leung, V. Sridhar, and D.P. Lettenmaier. 2004. 
        Hydrologic implications of dynamical and statistical approaches 
        to downscaling climate model outputs. Climatic Change. 62:189-
        216.
                                 ______
                                 
    Mr. Grijalva. Professor Thomas Swetnam, Director, Tree Ring 
Laboratory, from the great University of Arizona. I say that, 
I'm alumna. I'm allowed one perk every once in a while.
    Professor Swetnam.

STATEMENT OF THOMAS W. SWETNAM, DIRECTOR, TREE RING LABORATORY, 
             UNIVERSITY OF ARIZONA, TUCSON, ARIZONA

    Mr. Swetnam. I appreciate the opportunity to be here. Thank 
you for inviting me. And thank you to Congresswoman Napolitano 
for being here.
    For the benefit of everyone else, I am a Professor of 
Dendrochronology, which is tree rings sciences. And I use tree 
rings to study forest ecosystems. And I have had the great 
pleasure and honor to work in national parks and national 
forests across this country for the last 30 years. My research 
has mainly focused on the use of the tree rings to study forest 
fires, insect outbreaks, and also the role of climate 
variability and climate change on driving disturbances in our 
national landscapes.
    My written testimony has three main points. The first one, 
which we've heard quite a bit about already, is the need for 
better coordination and collaboration among Federal, state, 
county, and private entities.
    The second point--which we've already heard--is that 
there's a need to maintain the parks as canaries in the coal 
mine, if you will. They are really some of our best places to 
understand climate change, to track it, to monitor it, to know 
how it's occurring, and also to educate the public on the 
impacts of climate change.
    The last point is about the need for science infrastructure 
for building our capacity to do better and more science to deal 
with the climate change problems that we're facing.
    On the first point, better coordination and collaboration, 
I was very encouraged to hear Jon Jarvis' comments about the 
Parks Service's intention and indeed their work already in 
coordinating among the multiple agencies. In my written 
testimony I provide a couple of examples from Southern Arizona, 
in Chairman Grijalva's district, in fact, that exemplify the 
problems that we're facing, the climate change problems we're 
facing.
    Climate change is operating at regional and landscape 
scales. And by landscapes I mean whole mountain ranges, entire 
watersheds, multiple state. And of course at these scales we 
must better coordinate and interact among the different 
jurisdictions, different Federal agencies and state agencies 
and the county agencies.
    The examples I give from Southern Arizona include invasive 
species, the problem of buffelgrass in invading the Sonoran 
Desert. But this is a problem recurring elsewhere in the 
American deserts. Here in Joshua Tree and the great basin there 
are other invasive species occurring. And these are leading to 
extraordinary wildfires that are changing the ecosystems.
    Climate change is most likely involved in promoting some 
growth of these invasives, but also through the droughts which 
promote fire.
    In Southern Arizona there's a very dynamic group engaged 
now in dealing with the buffelgrass problem, the Southern 
Arizona Buffelgrass Coordination Center. This is a Federal, 
state, and county and private enterprise to really begin to 
deal with it. And I think it's a good example of this 
coordination that needs to take place.
    The second example I describe in my written testimony is 
the Firescape Initiative. And this is working up at the tops of 
the mountains. Our Sky Islands of Southern Arizona and New 
Mexico have forests at the top, and they're burning. We 
recently had more than a hundred thousand acres burn in the 
Santa Catalina Mountains in 2002 and 2003, burned up 300 homes. 
These kinds of things are happening all across the West and 
elsewhere in the country as we know.
    To deal with these problems we need to have coordination 
among multiple agencies. And so restoration, work of dealing 
with the fuels problems, and dealing with the invasives also on 
these higher elevations is necessary.
    In this regard I want to actually thank Chairman Grijalva 
for his leadership on the recent passage of the Forest 
Landscape Restoration Act. This is precisely the kind of 
Federal support that's needed to really move to the landscape 
scales in terms of dealing with these broad scale problems.
    The second point is that the parks and the forests are 
really essential locations for tracking climate change and 
monitoring climate change. I give a couple of examples there of 
recent studies published. I was involved in one of these 
looking at wildfire occurrence across the whole Western United 
States.
    Tony Westerling, Professor at the University of California 
at Merced, and his colleagues at Scripps Institute in San 
Diego, we pulled together a record of forest fires across all 
of the Western U.S. And we published this in Science two years 
ago. We show almost seven times increase in area burned in the 
last two decades relative to the previous two decades, more 
large fires. This increase is well correlated with the rise in 
temperatures across the Western United States.
    Further, there's been many more early springs. Spring is 
occurring early, the snow melt is coming off the mountains, and 
the fuels are drying out earlier. There's been more early 
springs in recent decades.
    The second paper I describe in my written testimony--and I 
do have a couple of graphics at the end of testimony that show 
some of the results--a recent paper published in January in the 
Journal of Science by USGS scientists and their colleagues 
across the West showing rising tree mortality rates across the 
whole Western United States. And they very carefully analyze 
these data and show that these trends are regardless of 
elevation, of forest type, of land use history, the forest fire 
history. We're getting increasing rates of tree mortality. And 
they concluded that this is likely related to the warming 
temperatures across the West, because all of the other factors 
have been controlled for in this case. My examples there are 
that we would not have been able to do these large-scale 
studies of fire and tree mortality if it had not been for the 
monitoring data available from national parks and national 
forests. So, we really need to maintain these monitoring of 
data generating networks of our parks and forests, and improve 
them, expand them.
    The third and final point is that we need to build our 
capacity, our science capacity, within the parks and within and 
among the agencies. I give an example of one of the most 
effective types of--we call translational science, moving 
science to management and operations.
    Place-based scientists, these are scientists that are 
located at the national parks. And there's relatively few of 
these. USGS, through some legacy, has a number of scientists 
located at the national parks. And these folks have been very 
productive. The Parks Services Research Learning Centers is 
another great opportunity for science to be done in the parks 
and right adjacent to the parks. There are other kinds of 
science mechanisms that we need to build, including the CESU's 
and the interaction with the NOAA RISAs, the regional impact 
centers that NOAA funds.
    So, one thing I see here is a need for better coordination 
and institutional linkages, more explicit linkages to be made 
between the USGS scientists, the Park Service scientists and 
NOAA scientists and the other agencies that are involved in 
providing science support for the parks. We need to build the 
science capacity.
    Finally, one of the things we saw from the New Deal, which 
has been very valuable as I travel through parks, as anybody 
who travels through parks, they see the bridges and the roads 
and the trails and the great rock and timber structures that 
were built during the 1930s. And so the parks, we've seen a 
really big boost from the New Deal in terms of infrastructure. 
But we also had a science boost during that time frame. As I go 
back through the old records, the old documentary records, I 
see that a lot of the original mapping and the original species 
inventories and the original science work was also funded at 
that time. And we need this same sort of kind of investment now 
in the parks, both for the real infrastructure, the solid 
infrastructure, but also the science infrastructure, to deal 
with climate change as it is now.
    Mr. Grijalva. Thank you.
    [The prepared statement of Mr. Swetnam follows:]

    Statement of Thomas W. Swetnam, Professor of Dendrochronology & 
Watershed Management, Director of the Laboratory of Tree-Ring Research, 
                         University of Arizona

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me today to discuss the importance of America's National Parks 
in understanding climate change impacts, and the need to mitigate and 
adapt to these coming impacts on the ``crown jewels'' of our public 
lands system.
    I am a scientist with more than 30 years of research and 
applications experience in National Parks, primarily in the western 
United States. My expertise is in the areas of forest ecosystems, fire 
history, insect outbreaks, and the effects of climate change. Although 
my research has basic aspects, it has largely focused on applications 
to management, such as the use of fire and forest history knowledge to 
guide ecological restoration of forest ecosystems. This work has been 
particularly useful in places like the giant sequoia groves in Sequoia, 
Kings Canyon and Yosemite National Parks in California and the 
ponderosa pine forests of the Rincon Mountain Wilderness in Saguaro 
National Park, near Tucson. In recent years, my research has focused 
primarily on climate change and its past and current effects on fires 
and insect outbreaks.
    The main points of my statement are as follows:
    <bullet>  The coming climate-caused changes require landscape to 
regional-scale perspectives and management. These broad scales require 
much more effective collaboration among federal, state and private 
entities than has occurred before. Management challenges also require 
increased translational science capacity and partnerships between 
universities and federal agencies. I will briefly describe a landscape-
scale collaboration in southern Arizona to illustrate some of the 
issues, needs, and potential.
    <bullet>  The National Parks are critically important areas for 
tracking and understanding climate change impacts on ecosystems and 
watersheds. The Parks include many of the least human-altered 
ecosystems on the planet. As such they provide a unique and valuable 
perspective on climate-caused changes that have occurred in the past 
and are occurring now. Moreover, because the Parks contain our most 
cherished biota and landscapes, the climate change effects on these 
living things and places are naturally of great concern to the American 
people.
    <bullet>  To carry out the needed science support for mitigation of 
and adaptation to climate change impacts in the National Parks, federal 
agencies and their science collaborators in the universities need to 
build basic science and translational science capacity. A very 
effective mechanism of science support within and for the National 
Parks is ``place-based'' science. I will describe examples of this 
model, and I recommend that it be broadly replicated and 
institutionally strengthened. Additional science capacity building is 
needed that will involve other approaches, including the National Park 
Service's Monitoring Networks and Research Learning Centers, and 
coordination with the National Oceanic and Atmospheric Administration's 
Regional Integrated Science and Assessment centers (RISAs).

Landscape-Scale Management--Collaboration and Science Needed to Support 
        It
    A common observation, as reflected in statements by witnesses who 
have testified earlier this year to this committee, is the need for 
better coordination and cooperation among the multiple federal and 
state agencies involved in managing our ecosystems and watersheds. This 
need arises because the impacts of climate change are broad scale; they 
do not follow administrative boundaries, and neither will effective 
mitigation and adaptation solutions. As temperatures continue to rise 
and droughts of greater severity occur in coming years and decades we 
may be challenged to assist re-location of plants and animals via 
migration corridors or direct transplantation to more suitable 
habitats.
    Most of the necessary science, mapping, planning, and 
prioritization for adaptation is yet to be done. An approach that will 
be highly valuable is the development of climate change scenarios at 
the scale of bio-regions that can be used for planning and prioritizing 
in coordination among multiple agencies. I am encouraged to know that 
the National Park Service (NPS) is developing a strategic framework for 
action that has adaptation as a major component (Leigh Welling, NPS 
Climate Change Coordinator, personal communication). As part of this 
framework, NPS has already begun to develop a scenario-based approach 
for planning at the Park level. The first prototype workshop took place 
in Joshua Tree National Park in November 2007 and involved scientists, 
natural and cultural resource managers, and educators. Several other 
scenario workshops are being planned for 2009 and 2010, involving 
Assateague Island in the northeast, Wind Cave in the northern Prairies, 
and Yellowstone and Glacier National Parks in the Rocky Mountains. 
These efforts need to become more widespread and coordinated.
    As we work to adapt or restore ecosystems to conditions that are 
more resilient to climate changes and related disturbances--such as 
wildfires and insect outbreaks--we will need to implement treatments 
(e.g., mechanical thinning of forests, eradication/control of invasive 
species, and prescribed fire) at landscape scales. By ``landscape 
scales'', I mean entire watersheds and mountain ranges, typically 
extending over tens to hundreds of thousands of acres, i.e., the scales 
of National Parks, or networks of Parks. Examples from the landscapes 
where I live and work in southern Arizona (including Congressman 
Grijalva's district) serve to illustrate some of the issues and needs 
here:
    The mountains and desert basins of southern Arizona are often 
referred to as the ``Sky Islands''. The mountains rise as ``islands'' 
of oak woodlands and conifer forests above a sea of grasslands and 
cactus-shrub deserts. Ecosystems that span these elevational gradients 
range from the low Sonoran deserts to the high montane forests. Most of 
these ecosystems are increasingly at risk of irreversible damage from a 
climate change-related disturbance: unnatural and uncharacteristic 
wildfire.
    In the lowlands, the chief culprit is buffelgrass (Pennisetum 
cilare), an invasive species introduced into the Sonoran desert 
originally as forage for livestock. Buffelgrass has now spread widely 
throughout the Tucson Basin, including into Saguaro National Park. 
Buffelgrass is extremely flammable. The spreading clumps of buffelgrass 
are forming continuous patches hundreds of acres in size in some 
places, and they are carrying extraordinarily hot, running fires 
through the Sonoran desert. These fires kill most of the cactus and 
other native species because they are not adapted to such fires, which 
have never occurred with this severity or extent in these ecosystems 
before. Buffelgrass, in contrast, is highly adapted to fire and it re-
sprouts prolifically.
    This problem of widespread invasive species promoting unnatural 
wildfires is increasingly common in the American deserts and our 
National Parks. In addition to buffelgrass invasion in the Sonoran 
Desert, red brome, cheat grass and other invasive species are spreading 
prolifically in the Southwest and elsewhere, including National Parks 
in the Mohave and Great Basin deserts. In summer of 2005, invasive 
grasses fueled desert wildfires that approached a quarter of a million 
acres in central Arizona (the Cave Creek Fire Complex) and three-
quarters of a million acres in southern Nevada.
    The impacts of grass invasions and altered fire regimes in the 
deserts are many, looming and costly. They include threats to life and 
property in urban and exurban areas, significant economic losses (i.e., 
decreased property value, lost tourism revenues, and escalating weed 
control and fire suppression budgets), and compromises to biodiversity, 
protected lands and conservation initiatives. These fast-evolving 
threats are catching communities and fire departments off guard and ill 
prepared.
    The connection with climate change is not entirely clear, but we 
know that higher CO<INF>2</INF> levels will favor cheatgrass and red 
brome at the expense of native species, and that warmer winters will 
push buffelgrass higher in elevation and farther north. Our National 
Parks and Monuments are especially in peril, and save for a few 
valiant, grassroots efforts we seem to be losing this battle. One day, 
we may not only face a Glacier National Park without glaciers, but also 
a Joshua Tree National Park without Joshua trees and a Saguaro National 
Park without its iconic saguaro.
    A growing concern is the potential spread of wildfires from the 
lowlands to the highlands, and vice versa. The mountain tops of the Sky 
Islands have already experienced several damaging wildfires. The 2002 
Bullock Fire and the 2003 Aspen Fire in the Santa Catalina Mountains, 
for example, collectively burned more than 115,000 acres and destroyed 
about 300 homes and businesses in the town of Summerhaven. Similar 
events have occurred across the western U.S. in recent years, and it is 
increasingly evident that this rising trend in ``megafire'' occurrence 
is partly associated with warming temperatures, earlier arrival of 
spring, and drought conditions (Westerling et al. 2006).
    Forest changes (e.g., fuel accumulations) due to a century of fire 
suppression and land uses (e.g., livestock grazing, logging, etc.) are 
also involved in this problem in many but not all forests. More than 
35% of the area of the Bullock and Aspen Fires resulted in total or 
substantial canopy kill of the forest, leaving very large ``canopy 
holes'' which promote erosion of forest soils, and severe downstream 
watershed impacts. Although frequent, low severity, ``surface fires'' 
were a common and natural ecological process in our Southwestern 
ponderosa pine and mixed conifer forests in the past, these recent 
fires are burning uncharacteristically (and unnaturally) hot as ``crown 
fires. The result is conversion of forest stands to shrublands or 
grasslands, and damaging effects on soils, habitats, and watershed 
values.
    Landscape-scale collaborative efforts are underway in the Sky 
Islands, focusing on forest restoration that aims to mitigate and adapt 
to the climate change-related ``shocks'' of megafires. The 
``FireScape'' collaborative is an approach that has been particularly 
effective at working at landscape scales in the multi-agency context. 
FireScape is a collaboration of the Coronado National Forest, The 
Nature Conservancy, Saguaro National Park, The University of Arizona 
and other partners to provide an umbrella for safe, ecologically sound, 
broad-scale, multi-party fire management. The first FireScape project 
was developed for the Huachuca Mountains of southeastern Arizona. This 
project is nearing the implementation phase.
    A developing FireScape project for the Santa Catalina and Rincon 
Mountains surrounding Tucson has a focus on utilizing the mosaic of 
fuel conditions left by the recent Bullock and Aspen fires. The idea 
here is that the mosaic of low, moderate and high severity burned areas 
in the Bullock and Aspen Fires can be used as effective fuel breaks and 
opportunities for reintroducing prescribed fire and thinning treatments 
at landscape scales. This approach is likely to be safer, more cost 
effective, and ecologically sensitive than such treatments in unburned 
landscapes. In some areas the recent wildfires have effectively begun 
the restoration process of reducing fuel accumulations and forest stand 
densities. It is necessary, however, to follow up with treatments 
within the next decade or less, otherwise it is likely that the 
beneficial effects of the mosaic will be lost.
    Both the buffelgrass and forest wildfire problems of southern 
Arizona, like similar climate change-related problems elsewhere in 
U.S., require landscape-scale thinking, effective translational science 
partnerships, and sustained implementation with follow through using 
science-based adaptive management. The buffelgrass efforts are 
exemplary of highly effective multi-jurisdictional coordination and 
planning to deal with a landscape-scale problem affected by climate, 
and analogous to many of the climate change problems we will be facing 
in years ahead. Space is limiting here to describe in detail the 
collaborative efforts that have gone into planning southern Arizona 
buffelgrass control and the landscape fire planning for the mountains, 
so I will refer here to web links where more information can be 
obtained: see Southern Arizona Buffelgrass Coordination Center at 
http://www.buffelgrass.org/, and http://www.fs.fed.us/r3/coronado/ 
under ``FireScape on the Catalina and Rincon Mountains''.
    The key points I want to emphasize from these examples of 
landscape-scale, multi-agency management problems are the following:
    1.  Planning, collaboration, and implementation of restoration and 
climate-change adaptation programs at landscape-scales are essential. 
Both the Tucson Basin buffelgrass and Sky Islands FireScape examples 
cross numerous administrative boundaries and to be effective these 
projects must involve collaboration and coordination among federal, 
state, and county agencies, and with private land owners. 
Fundamentally, what is needed is support for the science, planning, and 
implementation of treatments and restoration work on the ground.
       In this regard, I wish to commend Congressman Grijalva for his 
vision and leadership in helping develop and pass the recent Forest 
Landscape Restoration Act. This is precisely the kind of federal 
support and leadership needed for landscape-scale restoration projects.
    2.  In addition to funding mechanisms for planning and 
implementation, we need to develop science support capacity. The 
Southern Arizona Buffelgrass Coordination Center (SABCC) and Sky 
Islands FireScape initiatives both point to the need for state-of-the-
art decision support and expertise in geospatial tools for mapping and 
prioritizing treatments, and for modeling spread of invasive species 
and fire behavior at multiple scales. If we are going to engage in 
landscape-scale treatments and adaptation, we should do it with our 
best scientific understanding, and monitor the results in a scientific 
framework. University collaboration is highly valuable in this regard 
because it brings scientific expertise, creativity, and credibility, as 
well as educational and training value for young scientists and 
managers.
    3.  Both the SABCC and FireScape programs have great potential to 
be national models of adaptation and mitigation of climate change-
related impacts on federal, state, and private lands.

The Value of National Parks and Other Federal Lands for Tracking and 
        Understanding Climate Change
    There are many uncertainties about future climate change impacts on 
ecosystems and watersheds. Much of what we have learned about the 
effects of past and recent climate variations and change on ecosystems 
has come from studies conducted within the National Parks and National 
Forests. In the future, we need to continue and expand monitoring of 
climate and ecosystems within Parks, because these places offer some of 
the best landscapes to study climate-driven changes with the least 
amount of human land-use effects. Furthermore, the rationale for the 
Parks was, and is, that these are the places we care the most about in 
terms of protecting and preserving these wonders for the enjoyment by 
people, now and in the future.
    There are two examples of climate change impacts in National Parks 
and Forests that I want to bring to your attention to illustrate the 
value of federal lands, and long-term monitoring data that comes from 
them. The first is a study of forest fire activity on federal lands in 
the western U.S. that I coauthored in the journal Science in 2006 with 
Dr. Tony Westerling of University of California, Merced and colleagues 
at the Scripps Institute, University of California, San Diego 
(Westerling et al. 2006). We used wildfire occurrence records primarily 
from National Forests and Parks in the eleven western states. We 
restricted our analyses to the period after 1970 and to fires larger 
than 200 hectares (about 1,000 acres) because this was the most 
complete and reliable type and period of documentary record.
    We found a nearly 7-fold increase in area burned during the recent 
17 year period from 1987 to 2003 compared to the earlier 17 year period 
from 1970 to 1986. This change was significantly correlated with rising 
spring and summer temperatures across this region, and the years with 
greatest numbers of large fires were consistently associated with years 
when spring arrived earlier, as measured by peak runoff dates in 
rivers. From locations of the large fires in different elevations and 
forest types, and patterns of spatial/temporal moisture deficits, it 
was apparent that warming climate was the key driver overall, and 
especially in some regions (e.g., the Northern Rockies). Both forest 
changes (fuel accumulations) and warming combined were likely important 
in other regions (e.g., the Southwest).
    The second example is a recent paper published by a group of 
scientists working in western forests, led by U.S. Geological Survey 
scientists located at Sequoia and Kings Canyon National Parks. Drs. 
Philip van Mantgem and Nathan Stephenson and their colleagues gathered 
long-term forest monitoring data from 76 forest plots across the 
western U.S. (van Mantgem et al. 2009). Using data from more than 
58,000 monitored trees they found that 86% of the plots showed 
increasing tree mortality rates over the period from about 1955 to 
2007. The mortality rates doubled over periods ranging from 17 to 29 
years in different plots and sub-regions during the studied time 
period. Mortality rates increased regardless of sub-region, elevation, 
tree size (age), species, or type of natural fire regime characteristic 
to the forests. The authors concluded that climate change (warming and 
drought) in the western U.S., and consequent physiological and 
ecological stresses on trees, was most likely the dominant factor 
leading to increased tree mortality rates.
    Both of these studies illustrate the power of long-term monitoring 
data sets from National Parks and Forests for detecting and tracking 
climate change impacts. Neither of the studies could have been 
conducted without the existence of these federal units, and sustained 
dedication of scientists and managers who have carried out the 
monitoring and record keeping over many years. In addition to the 
national policy implications and the public educational values of such 
broad-scale studies, the results from local monitoring data sets have 
importance for management of individual National Parks and Forests.
    Another important value of our Parks and Forests is that they are 
great places to teach our citizens about climate change and to directly 
engage them in the necessary monitoring and science. For example, 
federal agencies and the academic community are collaborating in an 
exciting national monitoring initiative, the USA-National Phenology 
Network (www.usanpn.org). Phenology is the study of the timing of 
events in the annual life cycle of plants and animals, including things 
like budburst, first bloom and leafout in plants and emergence, 
migration and hibernation in animals. A number of recent studies have 
shown that these biological events can serve as sensitive indicators of 
climate change effects on ecosystems. In essence, the NPN can serve as 
an early warning and monitoring system of climate change.
    One way for us to adapt to climate change is to integrate 
phenological observations and models with climatic forecasts. There are 
not enough scientists and technicians to do this routine monitoring 
everywhere on the continent, so large-scale programs like USA-NPN will 
also have to rely on ``citizen scientists''. What better place to start 
these efforts than in our National Parks?
    The key points I wish to emphasize from these examples are the 
following:
    1.  The National Parks and other federal lands are particularly 
valuable for monitoring, detecting, and tracking climate change.
    2.  Recent studies have begun to detect and describe probable, 
widespread climate change impacts in western National Parks and 
Forests, specifically increasing numbers of large forest fires and 
increasing tree mortality rates. These are broad-scale patterns, and 
the trends and primary causes of changes are different in some 
locations and sub-regions.
    3.  The National Parks and Forests can play a key role in public 
education about climate change and in carrying out broad-scale 
monitoring. Engaging people directly in observing climate change 
responses (e.g., the USA-NPN) is one approach. Programs such as the 
NPS's Research Learning Centers will also be essential in these 
endeavors.

The Value of Place-Based Science, and the Need for Expansion of 
        Translational Science Capacity
    During the past several decades of conducting applied research in 
National Parks and National Forests, one of the most effective models I 
have seen of translational science is a ``place-based'' approach, where 
scientists and their support teams are located at National Parks. There 
is a long tradition of federal agency scientists being located at 
research branch offices or laboratories on or near university campuses 
(e.g., USGS and USFS laboratories). These university-located 
laboratories have clearly been a huge benefit to applied science. 
However, the particular niche of a place-based scientist located at a 
National Park (or a Forest Service Supervisor's Office or Ranger 
District) is relatively rare. In the western U.S., there may be as few 
as a dozen or so such USGS lead scientists located in ``Field 
Stations'' within or very near National Parks, and fewer in the eastern 
U.S.
    The productivity and positive impacts of these relatively few 
place-based scientists are remarkable. The van Mantgem et al. Science 
paper on tree mortality is a case in point. The lead authors, van 
Mantgem and Stephenson, are place-based, USGS scientists at Sequoia 
National Park. Another great example of scientific leadership and 
impact of place-based science is the Western Mountain Initiative (see 
http://www.cfr.washington.edu/research.fme/wmi/). This is a 
collaboration of USGS and U.S. Forest Service scientists working on 
climate change impact topics in the western U.S. Three of the principal 
investigators on this team are place-based scientists at National Parks 
and three are in federal laboratories located at or near universities.
    The values of place-based science are well illustrated by the 
example of my colleague, Dr. Craig Allen, at Bandelier National 
Monument in northern New Mexico (see http://www.fort.usgs.gov/
resources/spotlight/place/).
    To summarize, the key values of place-based science include:
    1.  Place-based scientists can interact with on-site with managers 
on a daily basis, resulting in more effective communication, 
application, and follow-through of relevant science.
    2.  Place-based scientists can more effectively lead on proposing, 
conducting, arranging, overseeing, facilitating, and communicating the 
needed local research and monitoring.
    3.  Place based-scientists can act as a bridge between research and 
management, working to identify the information needs of management 
problems, secure external research funding, foster collaborations with 
outside institutions to conduct needed research, and communicate 
research findings quickly and effectively to local managers and the 
public.
    4.  Place-based scientists develop substantial expertise in the 
ecology of their particular landscape. Eventually this allows them to 
become information brokers of the deep-rooted institutional knowledge 
that comes from being in a place long enough to learn its lessons and 
grow familiar with its natural and cultural rhythms and history.
    5.  Place-based science, involving scientists and their teams 
located within National Parks, is a very effective model and it should 
be replicated. Currently, most of these scientists at Parks are USGS 
employees, but some of them started out as NPS researchers and they 
were eventually transferred to the USGS. The relationship of these 
scientists as translational-science support for local Parks and 
regional networks of Parks should be more formally defined and 
institutionalized in agreement between USGS and NPS, with the goal of 
sustaining the high quality and increasingly important work they 
conduct.
    In addition to place-based science as described above there is need 
for support of other models of translational science. For example, I am 
aware that the National Park Service is currently developing a concept 
for ``Bio-Regional Mitigation and Adaptation Planning Units'' to 
coordinate scenario and adaptation planning efforts for Parks (Leigh 
Welling, NPS Climate Change Coordinator, personal communication). The 
Units would be strategically placed to utilize existing field 
resources, such as the ``Inventory and Monitoring Networks'' and the 
``Research Learning Centers''. They would also coordinate with other 
entities, such as the NOAA RISAs, the USGS Field Stations and state and 
local governments. The bio-regional, landscape approach is critical for 
providing managers with relevant, up-to-date scientific information and 
for ensuring climate change efforts are dynamic, flexible and 
consistent across DOI and within other agencies
    To be effective, the Units would need to have scientific, resource 
management, and adaptation planning staff. Resource and planning staff 
would use shared information to build defensible and comprehensive 
scenarios that are integrated into a Resource Adaptation Plan for each 
park. Tangible results would be a list of response actions to climate 
change designed to reduce susceptibility of vulnerable species, 
ecosystems, or historic assets to harm or loss. Such actions could 
include documenting and inventorying historic sites that will be 
submerged, protecting additional species, adapting park infrastructure, 
identifying and protecting refugia and corridors, or transplantation 
and relocation of resources in extreme cases.
    The final science and management initiative I wish to bring to your 
attention is a very dynamic consortium of federal and university 
scientists called CIRMOUNT (Consortium of Integrated Climate Research 
in Western Mountains) who came together in the early 2000s to 
coordinate and converse on the issues of climate change impacts in 
western North American mountains. Monitoring, conducting integrated 
research, communicating science among disciplines, and promoting 
policy-relevant databases are among the goals of CIRMOUNT. Climate 
change impacts on National Parks and other federal lands are a common 
focus of this consortium. This group has organized multiple symposia in 
the past decade on climate impacts on ecosystems, water resources and 
people. The meetings and initiatives include managers and policy makers 
as well as scientists. I encourage anyone interested in climate change 
impacts in the west to visit their website (http://www.fs.fed.us/psw/
cirmount/), get on the mailing list for the newsletter (Mountain 
Views), and attend one of the biennial meetings. It is my hope that 
CIRMOUNT will be sustained in coming years by establishment of a 
central office in support of this dynamic organization and their 
important work.

References cited:
van Mantgem, P. J., N. L. Stephenson, J. C. Byrne, L. D. Daniels, J.F. 
        Franklin, P.Z. Fule, M. E. Harmon, A. J. Larson, J. M. Smith, 
        A. H. Taylor, T. T. Veblen. 2009. Widespread increase of tree 
        mortality rates in the Western United States. Science 323-521-
        523.
Westerling, A. L., H. G. Hidalgo, D. R. Cayan, and T. W. Swetnam. 2006. 
        Warming and earlier spring increase western U.S. wildfire 
        activity. Science 313:940-943.

        [GRAPHIC] [TIFF OMITTED] T8662.002
        
        [GRAPHIC] [TIFF OMITTED] T8662.003
        
                                 
    Mr. Grijalva. Mr. John Coleman, Senior Meteorologist, KUSI, 
San Diego, California.
    Mr. Coleman, welcome and I look forward to your comments.

  STATEMENT OF JOHN COLEMAN, SENIOR METEOROLOGIST, KUSI, SAN 
                       DIEGO, CALIFORNIA

    Mr. Coleman. Thank you very much to the Committee for the 
invitation to appear today. And to any who listen to my remarks 
or who happen to read them later, I thank you for your 
consideration of my testimony.
    I come before the Subcommittee with no allusions or 
expectations. And I'm aware, for the majority of the Committee, 
for the other witnesses here, and for most involved government 
officials, that my conclusions will run counter to your 
interests and agenda and I fear will be ignored. But, 
nonetheless, I have made the effort to be here today because I 
feel I have to contribute something that at least should be in 
the record.
    And here's what I think I know as a scientific fact. There 
is no manmade significant global warming or climate change at 
this time. There hasn't been any in the past. And there is 
little reason to fear any in the future.
    Now, I don't say that the activities of man do not alter 
the weather and climate, because it is clear that they do. What 
I said is that there is no significant manmade climate change, 
and that none should reasonably be expected to occur in the 
future.
    I have visited most of the national parks in the United 
States over the many years of the past, mostly with my 
children. I love our parks. I have enormous appreciation for 
the efforts of our government to protect our environment and to 
provide places and ways for the citizens to enjoy the amazing 
beauty and the powerful natural forces that are at work around 
us and for us to interact with the thousands of species that 
live in the parks and those regulated natural areas. Clearly it 
is a huge task to balance between access and protection, and I 
honor that.
    But here is the crux of what I contribute to the issue 
before us. The science behind the current global warming 
manmade climate change commotion has failed to verify. The 
hypothesis that our carbon footprints produced by our use of 
fossil fuels is producing a significant greenhouse effect that 
will lead to climate calamity has failed to verify. So, I 
repeat, there's no significant manmade global climate change.
    I have studied the research papers of the United Nations 
Intergovernmental Panel on Climate Change, and examined the 
science presented by Al Gore and his books, his movies, and his 
PowerPoint, and I have respect for Mr. Gore. He served 
honorably as Vice President and as a U.S. Senator. And I have 
traced the history of the development of the concept of carbon 
dioxide in the exhaust from our cars and our power plants and 
our industrial plants entering our atmosphere and interacting 
with the primary greenhouse gas, water vapor to magnify 
warming. It all collapses into a failed theory when examined 
with scientific care.
    And I want you to know I'm not alone in reaching this 
conclusion. In the past year 34,000 scientists, 10,000 of them 
with Ph.D.s, have signed a statement debunking global warming. 
There is no solid scientific evidence that by burning fossil 
fuels our civilization increases the amount of carbon dioxide, 
CO<INF>2</INF>--excuse me. There is solid evidence that by 
burning fossil fuels we increase the amount of CO<INF>2</INF> 
carbon dioxide in the atmosphere. However, even after 150 years 
of burning fossil fuels, CO<INF>2</INF> remains a tiny trace 
gas. To be precise, only 380 molecules out of every one million 
are CO<INF>2</INF>.
    Scientists with an anti-fossil fuel agenda developed a 
theory, what they call radiative forcing, to explain how this 
trace gas could create runaway greenhouse warming. And they put 
that theory into general circulation computer models, and their 
models then projected a continuous rapid rise in temperatures 
globally year after year. And in the 1980s and the 1990s their 
models seemed to be on track as the temperatures climbed. And 
in 1998 that warming stopped. By 2002 a rapid cooling had 
begun. And that cooling continues today.
    The computer proof has gone poof. It has failed. It has 
been clear to me and many others around me that warming in the 
'80s and '90s was at the peak of a solar cycle. And now that 
the sun has gone quiet, very quiet, that cooling now grips our 
planet. Yet the models continue to predict warming. And it's 
not happening. There is no significant warming from 
CO<INF>2</INF>. And in fact our temperatures have now retreated 
to the point where they began a hundred years ago.
    I am painfully aware that the global warming has become a 
political issue, and I deeply regret that. Because the latest 
Gallup Poll documents the wide divide on this issue. Sixty-six 
percent of the Republicans are of the opinion that the claims 
of global warming are exaggerated. Only 22 percent of Democrats 
are of that position.
    Now I want to make it very clear that my conclusion is in 
no way politically based. And I regret that political tie-in 
because it makes it very difficult. I recall I was a science 
reporter for ABC back in the 1970s when there was a similar 
theory of excitement about a coming Ice Age. And thankfully our 
government and our political parties didn't get involved then. 
So, when the science got things straightened out and no Ice Age 
developed, the frenzy quickly faded away. But unfortunately 
this time with people with the anti-fossil fuel agenda had 
jumped onto the global warming bandwagon and they just don't 
seem to want to let go. They have claimed that they have 
changed their rhetoric to climate change from global warming, 
but they're still wrapped up in the cap and trade to tax our 
fossil fuels.
    This tax will do great harm to our economy. And I think it 
will do nothing of consequence to protect the environment. So, 
my advice to the National Park Service and to this Subcommittee 
is do nothing to mitigate manmade global warming or climate 
change because there is none. Reject your extremists' agendas, 
concentrate on your wonderful work, which I honor, of 
protecting our natural resources and making the natural 
experiences available to us citizens of today and the 
generations to follow.
    And to any who have an interest in pursuing the sources 
behind my scientific conclusions, I have provided a list of 
internet links with my written testimony.
    And again I thank you, knowing I run quite counter to the 
drift of this hearing, for allowing me to present my testimony 
and place it on the record.
    Mr. Grijalva. Thank you. Sir.
    [The prepared statement of Mr. Coleman follows:]

                       Statement of John Coleman

    Thank you to the Committee for the invitation to appear here today. 
And to any who listen to my remarks or read them later, thank you for 
your consideration of my testimony.
    I come before this Subcommittee with no allusions or expectations. 
I am aware that for the majority of the Committee and most involved 
government officials my conclusions will run counter to your interests 
and agenda and will be ignored. None-the-less, I have made the effort 
to be here today because I feel what I have to contribute should at 
least be in the record.
    Here is what I know as scientific fact: There is no significant 
man-made global warming or climate change at this time, there has not 
been any in the past and there is little reason to fear any in the 
future.
    I did not say that the activities of man do not alter the weather 
and climate, because it is clear they do. What I said there is no 
significant man-made climate change and none should be reasonably 
expected to occur in the future.
    I have visited most of the National Parks in the United States and 
love them. I have enormous appreciation for the efforts to protect our 
environment and provide places and ways for the citizens to enjoy the 
amazing beauty and powerful natural forces at work around us and 
interact with the thousands of species that live in those parks and 
related natural areas. Clearly, it is a huge task to balance between 
access and protection. I honor that.
    But here is crux of what I can contribute to the issue before us. 
The science behind this current global warming, man-made climate change 
commotion, has failed to verify. The hypothesis that our carbon 
footprints produced by our use of fossil fuels is producing a 
significant greenhouse effect that will lead to climate calamity has 
failed to verify. So I repeat, there is no significant man-made global 
climate change.
    I have studied the research papers of the United Nations 
Intergovernmental Panel on Climate Change and examined the science 
presented by Al Gore in his books, his movie and his power point. I 
have traced the history of the development of the concept of carbon 
dioxide in the exhaust from our cars, power plants and industrial 
plants entering the atmosphere and interacting with the primary 
greenhouse gas, water vapor, to magnify warming. It all collapses into 
a failed theory when examined with scientific care. I am not alone in 
reaching this conclusion. In the past year, 34 thousand scientists, 10 
thousand with PhDs, have signed a statement debunking global warming.
    There is solid scientific evidence that by burning fossil fuels our 
civilization increases the amount of carbon dioxide, CO<INF>2</INF>, in 
the atmosphere. However, even after 150 years of burning fossil fuels, 
CO<INF>2</INF> remains a tiny trace gas. To be precise only 380 
molecules out of every one million are CO<INF>2</INF>. Scientists with 
an anti-fossil fuel agenda developed a theory of radiative forcing to 
explain how this trace gas could create runaway greenhouse warming. 
They put that theory into general circulation computer models. Their 
models then projected a continuous rapid rise in global temperatures 
year after year. In the 1980s and 1990's the models seemed on track as 
temperatures climbed. But in 1998 the warming stopped. By 2002 a rapid 
cooling had begun. That cooling continues today. The computer proof has 
failed. It has become clear the warming in the 80s and 90s was at the 
peak of a solar cycle and now that the sun has gone very quiet, cooling 
has gripped the planet. Yet the models continue to predict warming that 
is not happening. There is no significant warming from CO<INF>2</INF>.
    I am painfully aware that global warming has become a political 
issue. I deeply regret that. The latest Gallup Poll documents the wide 
divide on the issue: 66 percent of Republicans are of the opinion that 
the claims of global warming are exaggerated; only 22 percent of 
Democrats are of that position. I want to make very clear my conclusion 
is in no way politically based.
    I was a science reporter for ABC News in the 1970's when there was 
a similar flurry of excitement about a coming Ice Age. Thankfully our 
government and political parties didn't get involved so when the 
science got things straightened out, the frenzy faded away. 
Unfortunately, this time people with the anti fossil fuel agenda had 
jumped on the global warming bandwagon and just won't let go. They have 
calmed the rhetoric to climate change, but they are still all wrapped 
up in cap and trade to tax our use of fossil fuels. This will do great 
harm to our economy but do nothing of consequence to protect the 
environment.
    My advice to the National Park Service and the Subcommittee is: Do 
nothing to mitigate man-made global warming or climate change, because 
there is none. Reject the extremist agendas and concentrate on your 
wonderful work protecting our natural resources and making natural 
experiences available to us citizens of today and generations to 
follow.
    To any who have an interest in pursuing the sources behind my 
scientific conclusions I provide a list of internet links with my 
written testimony.
    Again, thank you for allowing me to present my testimony and place 
it into the record.
                                 ______
                                 
Links referenced in John Coleman's remarks
The United Nations Intergovernmental Panel on Climate Change: http://
        www.ipcc.ch/
The Al Gore movie, ``An Inconvenient Truth: http://
        www.climatecrisis.net/
An online article about the word ``deniers'' used to describe Global 
        Warming skeptics: http://www.spiked-online.com/index.php?/site/
        article/1782/
United Nations IPCC Chapter 9, the key chapter on CO<INF>2</INF> 
        Forcing: http://www.ipcc.ch/pdf/assessment-report/ar4/wg1/ar4-
        wg1-chapter9.pdf
Natural Resources Defense Council Global Warming report: http://
        www.nrdc.org/globalWarming/fcons.asp
Michael Mann and the Hockey Stick Chart: http://en.wikipedia.org/wiki/
        Michael_Mann_(scientist)
Stephen McIntyre and Ross McKitrick's Paper refuting the Hockey Stick 
        Chart: http://www.climateaudit.org/pdf/mcintyre.grl.2005.pdf
Stephen McIntyre's website: http://www.climateaudit.org
Ross McKitrick's website: http://www.uoguelph.ca/rmckitri/ross.html
NASA web pages on average annual temperatures: http://www.nasa.gov/
        vision/earth/lookingatearth/earth_warm.html
Dr. Mayhay Khandekar and Joseph D'Aleo's post on the problems with the 
        NASA average temperature calculations: http://icecap.us/images/
        uploads/PITFALLS.pdf
Dr. Roger Pielke Sr.'s post on problems with calculation average global 
        temperatures:: http://climatesci.org/2008/02/08/an-error-in-
        the-construction-of-a-single-global-average-surface-
        temperature/
Ross McKitrick and Pat Michaels paper detailing how observation points 
        change over time influences global average temperatures: http:/
        /icecap.us/images/uploads/MM.JGRDec07.pdf
Anthony Watts discovers serious site problems with many official 
        weather observation stations in the United States and conducts 
        a national effort to survey every location: http://
        surfacestations.org/
Dr. Ben Herman investigates questionable exaggerations in maximum 
        temperatures at locations where certain types of new 
        temperature sensors have been installed: http://climatesci.org/
        2008/01/21/guest-weblog-by-professor-ben-herman-of-the-
        university-of-arizona-maximum-temperature-trends/
The controversy about the influence of urban heat islands on global 
        temperatures is covered in the Wikipedia article at: http://
        en.wikipedia.org/wiki/Urban_heat_island
Long term climate changes on Earth, resulting from natural causes, 
        primarily variations in the radiation received from the Sun are 
        detailed by D. Bruce Merrifield: http://
        www.americanthinker.com/2007/07/global_warming_
        and_solar_radia_1.html
I write about the solar influence on climate variations on Earth in my 
        brief The Force behind Climate Change: http://
        images.bimedia.net/documents/Comments+on+Global+Warming.pdf
Roger Revelle, the Grandfather of Global Warming and the man who 
        inspired Al Gore, cautioned against alarmism from the carbon 
        dioxide build-up: http://www.kusi.com/weather/colemanscorner/
        40867912.html
Carbon Dioxide characterized as a pollutant, the force behind global 
        warming: http://worldcoolers.org/co2map/
Typical newspaper article decrying carbon dioxide build-up in the 
        atmosphere: http://seattletimes.nwsource.com/html/nationworld/
        2003716817_carbon22.html
Union of Concerned Scientists page on carbon dioxide: http://
        www.ucsusa.org/clean_vehicles/vehicles_health/cars-and-trucks-
        and-global-warming.html
The key Paper by Arthur B. Robinson, Noah E. Robinson and Willie Soon 
        that explains that Carbon Dioxide Forcing is not valid: http://
        science
        andpublicpolicy.org/images/stories/papers/other/
        Robinson_Soon.pdf
Another excellent Paper by Allan M.R, MacRae showing that Carbon 
        Dioxide is not the primary force in climate change: http://
        icecap.us/images/uploads/CO2vsTMacRae.pdf
Dr. David Evans Paper showing that Carbon Dioxide does not cause Global 
        Warming: http://icecap.us/images/uploads/Evans-
        CO2DoesNotCauseGW.pdf
Alan Cheetham details the history of the IPCC (Intergovernmental Panel 
        on Climate Change): http://www.appinsys.com/GlobalWarming/
        GW_History.htm
Dr. John McLean details the lack of significant peer review of the IPCC 
        documents: http://scienceandpublicpolicy.org/images/stories/
        papers/originals/mclean/mclean_IPCC_review_final_9-5-07.pdf
Dr. Vincent Gray writes about his experience as a member of the IPCC: 
        http://nzclimatescience.net/
        index.php?option=com_content&task=view&id=155&Item
        id=1
The report on the over 700 scientists who have spoken out in opposition 
        to global warming: http://www.epw.senate.gov/public/
        index.cfm?FuseAction=Minority.
        Blogs&ContentRecord_id=10fe77b0-802a-23ad-4df1-fc38ed4f85e3
The website of the global warming debunkers petition with over 31 
        thousand signatures: http://www.petitionproject.org/
My webpage which contains numerous other documents and links: http://
        www.kusi.com/weather/colemanscorner
                                 ______
                                 
    Mr. Grijalva. Let me begin by asking Mr. Harja a couple of 
questions.
    And first of all, let me commend your organization and the 
Governor's Association for the fine work that they've done in 
the corridor initiative. And I think that initiative has kind 
of focused a discussion on some regional aspects of this that I 
think are part of this whole hearing and this whole discussion 
about how the public lands interface with the issue of climate 
change.
    You talked about shared responsibility as part of where we 
need to be. Can you give us a better idea of what resources and 
tools the states are going to need in order to be able to 
effectively deal with the initiative. And then, as a secondary 
question, what should the role of the Federal government be in 
the implementation of that initiative as well. Two-part 
question.
    Mr. Harja. Thank you for the question, Mr. Chairman.
    Tools, a lot of it is fairly basic; things like computer 
programs, GIS work. GIS is going to be very important to 
mapping and then taking the layers you've mapped and then 
comparing it to proposals for development. A number of states 
aren't to that capacity yet.
    It's also personnel to investigate. If Mr. Coleman is 
correct and there is no issue, I guess there's no issue. But 
nonetheless, the states say that things are moving. And we've 
got to consider that. So, we've got to have the capacity to do 
a little more research.
    As I said, the data is there in some places. In some places 
it's not. And so the capacity to get out and determine what the 
situation is is crucial.
    Monitoring. As a matter of fact, just as a quick aside, it 
isn't just wildlife. Air quality is very important; and as 
fires occur and the air quality is affected, monitoring 
stations are vital. And one of them in Canyonlands National 
Park is threatened, one of the air quality stations, measuring 
stations. So, it's a big interrelated issue. And the states in 
partnership with our Federal and NGO friends have to be able to 
gather the data and interpret it and use it, no matter where it 
scientifically leads.
    In terms of our Federal partnerships, it's key that the 
Federal government has got to be able to take the data and the 
recommendations from the states and make significant use of 
them. We worked hard in Utah, for example, on some resource 
management plans. They used our data. That's what we need. We 
need the agencies to understand the states have information. A 
lot of it is coming from our partners in the NGO community. A 
lot of it is generated ourselves. But they've got to consider 
it. And they've got to work with us on it. Rather than just 
assuming--I'm not speaking of the Parks Service necessarily. 
Bureau of Land Management, Forest Service, and the Bureau of 
Reclamation have to work on balance.
    Hope that answers your questions.
    Mr. Grijalva. Thank you. I know you have another 
appointment that you're probably going to have to leave pretty 
soon.
    Mr. Harja. I'm OK for the moment.
    Mr. Grijalva. OK. Well, just in case you do, let me turn to 
Mrs. Napolitano and see if she has any questions for you. And 
while we're talking with the other panelists, if you need to 
leave----
    Mrs. Napolitano. Thank you, Mr. Chairman. Yes, I do have 
some.
    The Western Governor's Association, does it cover the same 
area that the Bureau of Reclamation does in the 17 western 
states?
    Mr. Harja. I don't know the Bureau of Reclamation 
boundaries. The Western Governor's Association is all the 
states west of the Dakotas, Kansas. Does not include Oklahoma 
or Texas--excuse me, it does include Texas but not Oklahoma.
    Mrs. Napolitano. OK. In page 2 you refer to much 
information is missing, and this is the Western Governors' 
Wildlife Council. Do you work with any of the agencies that 
have been today mentioned or given in testimony?
    Mr. Harja. Did I mention their names?
    Mrs. Napolitano. No. Is the council working with all these 
different agencies?
    Mr. Harja. Yes. The council is a coordinating body. Members 
of the council are heads of the wildlife agencies in the 
western states, not all of them. And people like myself work 
with Governors. So, we understand that the data is missing 
because of State of Arizona informs us that they need better 
data. Does that answer your question?
    Mrs. Napolitano. Partly because you say that sometimes 
other states offers differently.
    Mr. Harja. Yes.
    Mrs. Napolitano. So, some of these national organizations 
may have some of the information that the states may have 
available to them.
    Mr. Harja. Correct.
    Mrs. Napolitano. That's why I'm asking do you work with 
them.
    Mr. Harja. Oh, excuse me. OK. I understand your question. 
Bird data, for example, is often gathered by NGO's. And we use 
that in Utah, for example. The point is, as we shift forward 
and try to protect these corridors, connectivity issues--even 
climate change is part of that--we've got to find the best 
data. We don't have it all right now. We have some good data. 
We have some so-so data. It's got to improve. We've got to 
gather it and then be able to use it. It comes from a lot of 
sources.
    Mrs. Napolitano. OK.
    And then I think I'll just close with this one. But my 
vital interest, of course, is watershed. And I'm not sure 
whether the wildlife council actually includes into their area 
of research and whatever the issue of water, protection of the 
watershed, reforestation to be able to reestablish the 
watershed after fires and, of course, education of the 
visitors. And as was stated, there's a need for additional 
funding to be able to do all of the above. And how are we 
allowing cattle grazing, cabins to be able to provide leasing 
funding, you know, visitor charges, all of that that might be 
able to help expand the income to be able to do a little more 
or beyond what's being done now?
    Mr. Harja. That's a multiple question.
    Mrs. Napolitano. Yes, it is.
    Mr. Harja. See if I can remember.
    Mrs. Napolitano. Because you're on limited time.
    Mr. Harja. OK. Watersheds are key. I want to emphasize 
that. Watersheds are key. And forests are often the headwaters 
of those watersheds. In Utah we're losing the aspen community. 
And efforts to retain that and enhance the aspen community are 
very, very important. The loss of the spruce and other conifers 
from beetles is huge.
    But we focus in Utah, for example, on watersheds. We have a 
whole funding source put together to try to protect watershed 
sage-grouse areas, for example, are key. Other states have 
similar efforts.
    In terms of the council, of course, it's one point for the 
states to understand what's going on around the West. Everybody 
is working in different directions. Our colleagues from 
Washington State have a whole different issue in watersheds and 
timber cuts up there than Arizona does.
    But endangered species that live in rivers, for example, 
are very, very important. You recall we're attempting to move a 
tailings pile near Moab, Utah, that might affect the Colorado 
in your----
    Mrs. Napolitano. I have some information on that.
    Mr. Harja. I appreciate your efforts to help up there, from 
my perspective.
    So, that's kind of where we're started. And watershed is 
the basis of the examining of the issues. And we go from there.
    Mrs. Napolitano. Well, part of that question goes to the 
rivers. And, of course, you may not have the same problem as 
the invasive species in some of the dams and some of the rivers 
of quagga and zebra mussel infestation, in which the evolution 
of this infestation is the warming of the waters, is my 
understanding. So, we look at invasive species research and 
development to be able to counter--or be able to begin to look 
at--how you address some of those invasive species and where 
you go from there.
    Mr. Harja. You're absolutely right. We're watching a huge 
increase in cheatgrass, having huge effects on fires. Various 
weeds are moving by vehicles or such into high forests. It is 
dramatically changing the aspect. And trying to get a hold of 
that is also extremely important. I don't have all the answers 
for you today, but that's one of the areas that the council 
wants to work on in cooperation with our Federal agencies.
    Mrs. Napolitano. Well, with the infestation of zebra 
mussels they're taking to having the boats washed off before 
putting them into the water. Maybe we ought to wash tires.
    Mr. Harja. I agree.
    Mrs. Napolitano. I'm being facetious but, you know, 
desperate times call for desperate measures.
    Mr. Harja. Not only wash the vehicles, but they'd have to 
let them dry.
    Mrs. Napolitano. Thank you.
    Mr. Grijalva. Thank you.
    Mr. Harja, one more question.
    Mr. Harja. Sure.
    Mr. Grijalva. Within the 19 western states and the corridor 
initiative, in a broader initiative, how does that fit in? You 
know, the Dakotas, as wildlife and the range changes and----
    Mr. Harja. Yes. And that's why the council isn't focused 
necessarily on specific issues as much as trying to make sure 
that the approaches around the West are the same. The Dakotas 
are range land. Washington State has got huge stands of trees. 
We can't focus at our level on those specific issues. What we 
try to focus on is making sure that the states are approaching 
it in a similar manner and make sure that the Federal agencies 
are aware of that.
    So, you know, we're focused on gathering data, for example, 
to make sure that these standards for critical habitat are the 
same. And you've got the Fish and Wildlife Service with ESA 
critical habitat.
    We're trying to make sure that corridors are identified 
before it's too late, say, and then work with our Federal 
agencies to protect them. It's a little higher level than, say, 
working on trees and aspen regeneration. That's kind of from my 
perspective. The council is focused on the higher one.
    Mr. Grijalva. Thank you.
    Ms. Shaw, you talked about the likely need to alter 
existing management practices, governances, to achieve the 
adaptation objective. Could you expand a little bit about some 
examples of what you think those changes should be?
    Ms. Shaw. Yes. I think like the National Park Service, The 
Nature Conservancy has areas of special resources across the 
country and across the world that we're protecting because they 
harbor species that are important or unique or they support 
certain ecosystem processes that support human communities, 
water and watershed.
    It's clear that we've identified specific places in a 
static climate that are important today. But under a changing 
climate, resources, plants, and animals will move. And the 
availability of water and the other important ecosystem 
services from those places will also change. So, I think it's 
really incumbent upon us to understand what those changes will 
be and at what regional scale they will operate, how they will 
change, and then work with partner agencies and partner NGO's 
to ensure that we can protect them in the future.
    I think that's going to mean not just government entities 
but also private landowners to provide incentives to manage 
land to protect the species that we care most about and that 
serve as part of the public trust.
    Mr. Grijalva. And it was mentioned I think earlier as one 
of the comments by Mr. Jarvis--and now that I think about it 
let me pose the question, Ms. Shaw. As we're trying to come to 
grips with climate change in general, globally and both here 
and in the United States, and also now as specifically with 
regards to the public lands, with regards to the public lands 
there's two kind of forces going on in terms of the policy 
development. There is the extraction part of it, what we can 
get out in terms of energy, what's in the ground. And now with 
renewables, what's above the ground. And so the need to do 
that--or the urgency to do that, to deal with the consequence 
of climate change to some extent. And then the very valid point 
that's been made over and over today and in the previous 
hearing, a new way of looking at land use and planning in terms 
of scenario planning, adaptation, restoration, corridor 
linkages. How do you see that balance being struck?
    Ms. Shaw. I think, depending on the resource that you're 
talking about, whether that you're trying to protect or that 
you're extracting, the balance will be struck in very different 
ways. And as you know, right now in the Mojave Desert in 
California--to meet the goal of 33 percent of all electricity 
from renewable energies--we're looking at the development of 
vast solar rays in the desert. These are important lands both 
for meeting those renewable energy goals but also for 
protecting species.
    I think it's not about one or other, but it's about having 
heightened coordination among the entities and the stakeholders 
that matter, and making sure that we put in place a process 
that can make sure that we are thinking about the needs of 
meeting energy demands today and into the future and protecting 
the natural resources, the species and plants and animals that 
many of our public lands were designed to protect into the 
future.
    And I think that it does mean very considerable process. 
Here in California there is underway by the state a Desert NCCP 
process to try and get all the stakeholders to the table so we 
can really look carefully at how we meet those renewable energy 
goals but also design across the landscape in a way that allows 
for adaptation of plants and species.
    Mr. Grijalva. Defining that balance is going to be, I 
think, a huge policy question.
    Ms. Shaw. I think that's why we're all here. I think that 
we're definitely in new territory. This is absolutely business 
unusual. We are going to be using some of the same tools and 
some of the same planning processes that we have before, but 
with very different inputs and information and thinking very 
differently on very longer time horizons about what we want to 
see as outcomes so that we don't preclude the persistence of 
any single plant or animal, and so that we can meet those 
energy goals that are so important for curbing greenhouse gas 
emissions.
    Mr. Grijalva. Thank you.
    I think that question is going to be one that we're all 
going to be deeply involved in, in how you define that balance. 
Because it needs to be defined.
    Ms. Shaw. That's right.
    Mr. Grijalva. Because I think it's gone back and forth. 
It's always been an either-or proposition. And we're kind of in 
this state now where there has to be a definition of what that 
balance means. Yes, it's going to be an interesting process.
    Professor, it doesn't matter that the climate disturbances 
that we're dealing with are caused by human activity. It just 
doesn't matter. That's not part of the equation. But we do have 
some challenges before us. We have the invading buffelgrass and 
invasive species that you spoken about in other areas. We have 
dying forests. You have crumbling coast, reduced snow packs no 
matter what the cause. And don't we have to deal with these 
challenges even if this other cause question is up there in the 
air? I don't think it's in the air but it was introduced in the 
air today.
    Mr. Swetnam. Oh, I think it's a very good point. 
Temperatures are warming up. The recent decade is the warmest 
decade in the last century globally. And the Western United 
States shows a very similar trend. As to whether or not the 
warming in the Western United States is definitely attributable 
to climate change is still an open question, but there is an 
increasing body of evidence pointing to global warming as the 
cause of the droughts and the warming temperatures we're seeing 
in the Western United States.
    Beyond that, though, we are seeing extraordinary warming 
trends and we're seeing responses to it. Wildfires are 
increasing. There's a very clear connection between droughts, 
warm temperatures, and increasing size and severity of the 
wildfires. And likewise, bark beetle outbreaks and dying trees 
are increasing across the west. And the evidence is compelling, 
very compelling, that this is related to the warming 
temperatures.
    Now, this is all happening in the context of landscapes 
that we live in. And we've got increasing populations and 
increasing demands on the water resources, in particular, in 
these place. So, we have to deal with it.
    And it's very likely that the warming is going to continue 
and it's going to get worse. So, this question about whether 
it's human caused or not, we can debate about that endlessly, I 
believe. And I think the evidence is overwhelming that it is 
largely driven by humans, and we need to get on with dealing 
with it.
    And I think that's why we're here. This hearing is actually 
to talk about the impacts of the current climate changes that 
we're seeing, the warming and the likely warming in the future.
    Mr. Grijalva. Could you just for a second respond to that 
balance question that I asked, a little bit ago, about how you 
strike that balance, your idea.
    Mr. Swetnam. Balance between dealing with energy----
    Mr. Grijalva. The need to take energy and the need to 
balance, restore, and protect.
    Mr. Swetnam. Yes, I think that is indeed going to be a very 
critical issue is how we move forward with adapting our 
environments to live in them better and to develop energy 
resources to deal with the carbon issue. This is another 
balance issue regarding forests restoration, for example. 
Here's a key balance issue. As we need to move forward to 
forests that are more open and have less fuels in them, we need 
to do more prescribed burning. And prescribed burning actually 
emits carbon to the atmosphere. We need to better understand 
the balance of carbon in our ecosystems in the restored state 
or in the current state versus what we might get with wildfires 
that run through these forests and totally destroy them and 
convert them to grasslands or shrub fields. So, what kind of 
carbon do we get in our forest ecosystem that's going to enter 
into a grassland or a shrub field, which is maintaining it as a 
forest?
    So, there are going to be balance questions like this all 
along. The energy issues are how we develop solar energy in the 
deserts, for example. There's going to be balance issues on how 
we move in restoration to maintain the right balance of carbon, 
carbon sequestration in our forests.
    Mr. Grijalva. Thank you.
    If I may, Mr. Coleman, let me ask you the same question 
that I asked the professor. Does it--does it matter the climate 
disturbance we're seeing weren't caused by human activity? And 
the same challenges I talked about, invasive species, dying 
forests, crumbling coasts, disappearing aquifers, reduced snow 
packs, these are still challenges that we have to deal with. Do 
you agree with that or----
    Mr. Coleman. I watched all of this very carefully, and of 
course we need to deal with it. And 160 years of pretty good 
weather records, pretty good, we can identify 11 periods of 
drought in the Western U.S. They have occurred irregardless of 
mankind's activities. The worst drought, five-year drought, was 
1929, 1934. The most severe in California where we are today, 
and my home, occurred in 1976 and '77. We have had a drought in 
recent years. I'm happy to report that it is now--nature is now 
beginning to solve that drought. The drought has greatly eased. 
We had 102 percent of normal snow pack and the watershed of the 
Colorado River----
    Mr. Grijalva. So, do we let it run its course, this 
drought?
    Mr. Coleman. Well, I think we don't have a choice. Because 
we're not in control. Nature is in control.
    Mr. Grijalva. There's nothing we can do to mitigate----
    Mr. Coleman. Our problem, of course, is getting enough 
water to drink. And with 20 million people now living in 
Southern California, depending on the snow pack of the Sierra 
and the Colorado River, we are way overtaxing our resources. 
And this is a very serious matter. And forest fires are a very 
serious matter for us. I was evacuated from my home because of 
one, which came two blocks from me. So I'm very, very well 
aware and very conscious of this.
    I think there are a lot of things we're in charge of, but 
one of them isn't climate. Unfortunately, from our point of 
view, I guess, we can't stop droughts. We can't stop El Ninos. 
We are currently in what's known as a PDO, a Pacific Decadal 
Oscillation. The sun has gone very quiet. We've hardly had a 
sun spot. The sun's the quietest it's been in a hundred years. 
The Pacific Ocean has gone into a very cool mode. The Pacific 
Ocean, the biggest ocean on planet Earth, controls our climate 
of the United States. And our climate is definitely cooling.
    Mr. Grijalva. Well let----
    Mr. Coleman. And we have to deal with that.
    Mr. Grijalva. Thank you for going beyond the question that 
I asked.
    Mr. Coleman. Oh, I'm sorry, sir. But thank you for asking.
    Mr. Grijalva. Let me turn to Mrs. Napolitano for any 
questions she may have.
    Mrs. Napolitano. Well, Mr. Chair, I know that we have 
another panel. But there are some issues--not issues, but 
questions that I had.
    For Mr. Swetnam, on page 7 you talk about developing--let's 
see--education. And any time I want to make any message viable, 
I go to school kids. Because they take the message home and 
they're the future, they're the ones who need to understand how 
that would be impacted. So when you talk about the research 
learning centers, engaging people, they can play a key role. 
Are you going to be able to gear it toward children also? And 
maybe even put them on cable as informational, educational, et 
cetera. We miss a lot. We educate adults. What happened in 
educating our children, because they are the future.
    Mr. Swetnam. Yes, of course. As a university professor, I 
very much appreciate the educational needs and emphasis. And I 
think that the Park Services Research and Learning Centers are 
great opportunities to engage the public and help them 
understand ecological variability and climate variability and 
climate change. I was very encouraged to hear Jon Jarvis' 
comments with this regard and the focus of the Park Service in 
coming here on the research learning centers. And not only 
those places, but the parks in general. Virtually every park. 
Most parks should have some interpretative materials and 
displays and educational opportunities.
    Mrs. Napolitano. Well, I'm sorry, my time is going to be 
very limited. But I guess maybe a suggestion would be, because 
I deal a lot with water agencies, and they've taken to doing 
Earth Day celebrations where they teach, they bring in 
families. And they begin to have hands-on displays where 
children can actually feel, hear, see the things that you have 
on posters and on handouts. Water districts at the local levels 
adjacent to parks areas, maybe they should be engaged in being 
able to have continuum, if you will, of information for the 
youngsters and their families. And this is just one of the 
things that I've learned, if I want to engage parents I engage 
the children first.
    Mr. Swetnam. Yes, the hands-on activities especially are 
most effective.
    Mrs. Napolitano. Thank you.
    There's several other questions, but I think I'll defer 
with the Chair and I'll put them in writing.
    Mr. Grijalva. Thank you.
    And let me thank the panelists. I don't have any follow-
ups.
    There's some specific written questions that we will 
forward to you. And if you could get them back to the committee 
so we could make them part of the record. Thank you very much. 
It's very much appreciated.
    Mr. Grijalva. If I could invite the next panel, please.
    Thank you very much, and welcome. Let me begin with Mr. 
Robert Keiter, Director of Wallace Stegner Center for Land, 
Resources, and Environment, University of Utah. Welcome, and 
thank you for coming. I am looking forward to your comments.

STATEMENT OF ROBERT B. KEITER, DIRECTOR, WALLACE STEGNER CENTER 
 FOR LAND, RESOURCES, AND THE ENVIRONMENT, UNIVERSITY OF UTAH, 
                      SALT LAKE CITY, UTAH

    Mr. Keiter. Thank you very much, Chairman Grijalva and 
Congresswoman Napolitano, for the opportunity to testify today 
before the Subcommittee on the role of National Parks in 
combating climate change.
    As the Chairman noted, I'm Bob Keiter. I serve as the 
Wallace Stegner Distinguished Professor of Law and Director of 
the Wallace Stegner at the University of Utah, the S.J. Quinney 
College of Law.
    I'm appearing here today in my individual professional 
capacity, and my testimony is based on 25 years of research and 
teaching on public land law and policy.
    Our diverse National Parks System features an incredible 
array of ecosystems, many of which are already being impacted 
by climate change, as are the surrounding landscapes. As others 
have chronicled, these impacts include the rapid loss of the 
iconic glaciers at Glacier National Park, the gradual 
disappearance of the namesake Joshua trees in our neighboring 
national park today. The list goes on. Although these problems 
are serious, our national parks can and should play several 
important roles in understanding climate change and responding 
to it; namely as baseline study areas, biodiversity refuges, 
the critical cores of larger ecosystems, and as carbon storage 
sites.
    To play these roles effectively, however, the national 
parks must be fully and adequately protected. Without 
sufficient legal protection the national parks and their myriad 
wildlife, water, and other resources are at increased risk. 
Climate change will also impact the surrounding communities 
that rely on national parks as anchors for their economic 
welfare.
    Given these risks, we must not only protect existing parks 
and their resources but also expand the National Park System to 
ensure that we can adapt to climate change and mitigate its 
effect. In short, we must regard and manage our national parks 
as parts of the larger landscapes that sustains the 
biodiversity and ecosystem services that are vital to our 
society. And I think several of the witnesses earlier today 
have made basically that same point.
    My testimony will focus then on two key climate change 
adaptation mitigation concerns. One, how can we better protect 
the national parks, and two, how might we expand the National 
Park System.
    And in focusing on these questions, I don't mean to 
diminish the importance of the recent legislative proposals 
that I know the committee is well familiar with, including the 
recent Waxman-Markey discussion draft. I view instead my ideas 
as complimentary to and intended to strengthen several of the 
proposals that are part of this discussion legislation.
    Numerous studies over the past several decades have 
documented that the parks face serious environmental challenges 
that can be traced to developments or activities occurring on 
adjacent Federal, state, tribal, and private lands. And these 
impacts today are being exacerbated by climate change. They 
include threats from oil and gas development on nearby Federal 
and state lands. Too many roads and too much unregulated off-
road vehicle activity in sensitive locations, and ill-planned 
subdivisions intruding on critical wildlife habitat, migration 
corridors, and other sensitive areas which can either 
individually or cumulatively destabilize vital park ecosystems, 
rendering them both less resilient and adaptable.
    The important lesson and the one that climate changes 
reinforce is clear, we must begin to plan and manage at a 
landscape or ecosystem scale if we are to conserve and restore 
our ecologically critical Federal lands and resources.
    The parks at this scale serve as the critical cores of the 
larger ecosystems and the interconnected watersheds, airsheds, 
and wildlife habitats.
    The existing law, as I've explained in my written 
testimony, is not adequate to meet the challenge of landscape 
level planning and management. It doesn't ensure meaningful 
interagency coordination and consultation which several 
witnesses both today and at your earlier hearing have referred 
to as critical to address climate change. It also does not 
necessarily establish clear-cut management priorities 
consistent with the climate change challenge. So, we need to 
strengthen and put some real teeth into the coordination 
provisions that are in existing law, or there's little evidence 
or hope that we will see better or more consistent coordination 
either at the planning stage or the project decision-making 
stage that the Federal agencies go through.
    My first recommendation then, Congress should adopt a more 
detailed interagency coordination mandate that would apply to 
all Federal land management agencies, not only making 
interagency coordination efforts transparent as a mandatory 
part of agency decision records, but also making it enforceable 
in court. This would require the agencies during their planning 
processes and whenever contemplating an action with significant 
climate change implications to consult with the National Park 
Service by preparing an interagency coordination statement 
documenting the collaboration effort, potential impacts and 
mitigation strategies, and responses to any expressed park 
concerns regarding climate change.
    Congress could go further. It could put additional teeth 
into this idea of improved interagency coordination by adopting 
a new consistency requirement that would require consistency 
between the Park Service's climate change plans, and the 
management goals of other Federal agencies on adjacent lands, 
perhaps using a model derived from the Coastal Zone and 
Management Act Consistency Provisions. If even more teeth are 
necessary, the No Feasible Alternative concept that is part of 
the Transportation Act could also be utilized to address and 
promote consistency and coordination.
    Further step, the adoption of a model drawing upon the 
Surface Mine Control And Reclamation Act that would incorporate 
an unsuitability provision into the Federal Land Management 
legislation, empowering the Secretary of the Interior, upon 
petition, to designate lands adjacent to national parks or 
other protected areas as unsuitable for mining, logging, road-
building, and other intensive activities that could exacerbate 
climate change challenges.
    Some other thoughts regarding improving Federal land 
management efforts, the adoption of new substantive standards; 
perhaps an explicit biodiversity conservation mandate for all 
of the Federal land management agencies, or an ecosystem 
conservation mandate as an alternative.
    Strengthening the National Park Services authority to 
respond to activities occurring outside its boundaries would 
also be helpful to that agency to promote coordination on 
adjacent lands.
    We need to also, in addressing this problem at the 
landscape scale, to involve the states, the tribes, and private 
landowners that are located near or adjacent to the parks. 
Congress should make full use of its conditional spending power 
to do this, to seek to induce and encourage meaningful 
landscape-scale planning with mitigation and adaptation 
strategies, perhaps by conditioning Federal funds to these 
entities, contingent upon their coordinating their land use and 
transportation plans and economic development efforts with 
larger regional climate change planning efforts that are being 
undertaken by the Federal agencies.
    If I can make a couple of other points, moving off of 
current management of the national parks and surrounding 
Federal lands, and address the question of expansion of the 
National Park System. That too, it seems to me, would be 
helpful in order to protect and restore vital landscapes, 
including critical wildlife migration corridors, important 
watersheds, and other sensitive locations. The conventional 
approaches are certainly available, and the committee is well 
aware of them; the designation of new parks, monuments, or 
boundary adjustments. Let me suggest a new approach for 
expanding the park system. And that is to target currently 
damaged landscapes for inclusion into the system following a 
period of restoration.
    Most scientists, including several who testified both today 
and at your earlier hearing, have endorsed ecosystem 
restoration as an important strategy for mitigating climate 
change impacts as a historical matter. As our regional director 
Jon Jarvis noted earlier, the Park Service National Park System 
has experience with incorporating restored--incorporating and 
restoring damaged lands into the system, the Great Smokey 
Mountains, Shenandoah, Redwoods, serving as examples.
    Adding these--adding damage but restorable lands to the 
park system will require us to begin thinking about national 
parks from a longer-term perspective. But climate change is 
forcing us to adopt that strategy--or that perspective, excuse 
me. One strategy for accomplishing this park expansion 
restoration idea would be to think of it as a two-step 
approach, first setting aside the targeted lands for protection 
and restoration, perhaps as new national restoration areas, and 
then later seeking national park or another appropriate 
protective status once the landscape has been repaired.
    An alternative expansion approach would be to adopt a new 
landscape overlay designation, perhaps something like natural 
heritage areas or landscapes that would knit together an array 
of contiguous Federal lands that cover particular sensitive or 
vital landscapes such as the Greater Yellowstone area or the 
Greater Grand Canyon region or the Crown of the Continent 
ecosystem.
    For these special climate change mitigation landscapes 
Congress would need to establish new more protective management 
standards to protect the area's wildlife watersheds and other 
resources from warming pressures.
    A related concern already addressed today but let me add my 
endorsement of it is the potential need for new Federal 
wildlife corridor legislation or at least some congressional 
direction and support for the wildlife corridor concept that 
has now been endorsed strongly by the Western Governor's 
Association.
    Any Federal legislation could be modeled after the National 
Trail System Act of 1968, which involves Federal and state 
officials in making designation decisions and is likewise 
sensitive to private landowner concerns.
    To conclude let me note that these proposals raise 
sensitive political bureaucratic interagency concerns. And 
although some progress toward more coordinated landscape scale 
management has been made, the need for institutionalized 
coordination and consultation arrangements cannot be overlooked 
if we are going to effectively address the climate change 
challenge. Funding for these proposed initiatives might come 
from new revenues generated by a cap and trade system or a 
Federal carbon tax. Put simply, nothing less than significant 
strengthening of our existing laws and strategic expansion of 
our National Park System will provide the means necessary to 
mitigate the impact of a warming climate on our precious 
natural resources and sustain the resilient capacities of our 
vital ecosystems.
    Thank you.
    Mr. Grijalva. Thank you.
    [The prepared statement of Mr. Keiter follows:]

  Statement of Robert B. Keiter, J.D., Wallace Stegner Distinguished 
Professor of Law, Director, Wallace Stegner Center for Land, Resources 
 and the Environment, University of Utah S.J. Quinney College of Law, 
                          Salt Lake City, Utah

    Chairman Grijalva and members of the Subcommittee, thank you for 
inviting me to testify on the role of national parks in combating 
climate change. I am Bob Keiter and I am the Wallace Stegner Professor 
of Law, a Distinguished University Professor, and Director of the 
Wallace Stegner Center for Land, Resources and the Environment at the 
University of Utah's S.J, Quinney College of Law. In addition, I serve 
on the boards for several organizations: the Sonoran Institute, the 
Rocky Mountain Mineral Law Foundation, the University of Utah's 
Institute for Clean and Secure Energy, the University of Wyoming's 
Ruckelshaus Institute of Environment and Natural Resources, and the 
University of Montana's Public Land and Resources Law Review. My 
appearance here today, however, is not on behalf of any organization, 
but rather to present my ideas on the role that the national parks can 
play in addressing our nation's climate change challenge and how 
Congress might best ensure the parks can play that role. My testimony 
is based upon 25 years of research and teaching on public land law and 
policy, which includes four books and numerous book chapters and 
journal articles on these topics, several of which address national 
parks, climate change-related concerns, and regional or ecosystem-based 
management.

Climate Change and the National Parks
    The American national park system consists of over 390 units 
covering nearly 80 million acres, with units in 49 of the 50 states and 
several territories. Our large and diverse national park system 
features an incredible array of distinct ecosystems, many of which are 
already being impacted by climate change. As others have chronicled, 
these impacts include: the rapid loss of iconic glaciers at Glacier 
National Park; the gradual disappearance of the namesake Joshua trees 
from Joshua Tree National Park; the unprecedented spread of insect-
caused diseases that are devastating forests in the Great Smoky 
Mountains, Yellowstone, and elsewhere; and the loss of coral reefs in 
Biscayne and Virgin Islands national parks. Very few doubt that these 
warming impacts will affect other national parks and irreparably alter 
the park flora and fauna as well as vital ecosystem processes with 
repercussions that will extend well beyond the boundary lines.
    Our national parks can potentially play several important roles in 
understanding climate change and responding to it. First, as legally 
protected and relatively intact natural areas, the national parks can 
provide a baseline for understanding and studying how climate change is 
impacting the natural world, particularly the various species and 
ecosystems that can be found in the parks. Second, given their 
protected status, the national parks can offer a refuge for species 
that are--or might be--displaced from their native habitat by a 
changing climate. Third, as part of larger federal public lands 
complexes, the national parks may play a key role in promoting 
resilience across the landscape and sustaining vital ecosystems and 
ecological processes that transcend conventional boundary lines. 
Fourth, as relatively undisturbed sanctuaries with extensive forest and 
grass cover, many national parks can serve as a carbon storage 
repository and thus help reduce the amount of CO<INF>2</INF> escaping 
into the atmosphere. The national parks, simply put, give us the 
ability to better understand, mitigate, and adapt to a changing 
climate.
    However, to play these roles effectively in our warming world, the 
national parks must be fully and adequately protected. Without adequate 
legal protection, the national parks are at risk: park species can be 
lost or displaced; wildlife habitat can be destroyed or altered; 
critical cross-boundary migration corridors that can be blocked or 
fragmented; water quality can be degraded, while vital water supplies 
can be diminished; air quality can suffer deterioration; park forests 
and grasslands can be put at increased risk from invasive species, 
diseases, and wildfires; historic buildings and other cultural sites 
can be lost or damaged; and the list goes on. Any or all of these 
impacts can also adversely affect park visitor experiences and 
visitation levels, which will inevitably affect surrounding communities 
that so often rely on national parks as anchors for their economic 
welfare. The unambiguous realities of these risks present powerful 
reasons not only to protect existing parks and resources, but also to 
expand national parks in order to ensure we can adapt to climate change 
and mitigate its effects. In short, we must regard and manage our 
national parks as parts of the larger landscape that sustains the 
biodiversity and ecosystem services that are vital to our society.
    I will therefore focus my testimony on two key concerns that should 
be addressed if we are to effectively mitigate and adapt to the climate 
change threat: 1) how to better protect the national parks; and 2) how 
to expand the national park system. In doing so, I do not mean to 
overlook or diminish the importance of recent proposals designed to 
address climate change, such as those found in the Dingell-Boucher 
discussion draft, which was circulated in the 110th Congress. The 
natural resource provisions in that draft legislation--including new 
natural resource adaptation plans, a natural resource adaptation 
climate change fund, and other innovative provisions--would provide 
comprehensive guidance and assistance to the federal and state agencies 
charged with sustaining our public lands and resources, and they merit 
serious consideration on those grounds. My recommendations, though, are 
more specific to the national parks and supplement several provisions 
found in these earlier proposals. In that spirit, what follows are 
proposed changes or additions to existing law designed to enhance the 
role of national parks as key climate change laboratories and 
sanctuaries, and thus ensure that these benefits extend across the 
landscape.

Protecting the National Parks
    During the past three decades, numerous studies have documented 
that the national parks face serious environmental challenges that can 
be traced to developments or activities occurring on adjacent federal, 
state, and private lands. See, e.g., U.S. Gen. Accounting Office, 
Activities Outside Park Borders Have Caused Damage to Resources and 
Will Likely Cause More (1994); National Park System Advisory Board, 
Rethinking the National Parks for the 21st Century 5-6 (2001). These 
threatening activities include oil and gas development on nearby 
<plus-minus>federal and state lands, too many roads and too much 
unregulated off road vehicle activity in sensitive locations, and ill-
planned subdivisions intruding on critical wildlife habitat, migration 
corridors, and other sensitive areas. In the face of a warming climate, 
which is already stressing national park resources, these external 
developments or activities--either individually or cumulatively--can 
destabilize vital park ecosystems, rendering them less resilient and 
undermining their utility as baseline study areas, biodiversity 
refuges, or carbon storage sites. The important lesson--and one that 
climate change has reinforced--is clear: We must begin to plan and 
manage at a landscape or ecosystem scale if we are to conserve and 
restore our ecologically critical federal lands and resources. At this 
scale, the national parks serve as the critical core of larger 
ecosystems that contain interconnected watersheds, air sheds, and 
wildlife habitats.
    The initial question is whether the existing law is adequate to 
meet the challenge of landscape level planning and management sensitive 
to the national parks. At a superficial level, several legal provisions 
seem to offer important protection to the national parks; but upon 
closer inspection, these laws do not fully protect park lands and 
resources, and they are decidedly not designed to address the 
additional challenges associated with climate change. The amended 
National Parks Organic Act instructs the National Park Service to 
conserve its scenic and wildlife resources in an ``unimpaired 
[condition] for the enjoyment of future generations'' and to protect 
``the high public value and integrity of the National Park System.'' 16 
U.S.C. Sec. Sec. 1, 
1a-1. The National Environmental Policy Act (NEPA) requires all federal 
agencies to prepare an environmental analysis before taking any action 
that will significantly affect the human environment, but these 
requirements are merely procedural and do not require the agency to 
make environmentally protective decisions. 42 U.S.C. Sec. 4332(2)(C). 
The Endangered Species Act does protect federally listed species and 
their critical habitat, but it only applies when listed species are 
present, and it has not always been rigorously enforced. 16 U.S.C. 
Sec. 1531 et seq. While these laws compel the Park Service to 
protectively manage its own lands, they do not compel the same level of 
protective management on adjacent federal lands, at least not unless 
listed endangered species are present.
    A very real problem, then, is how management priorities are set and 
implemented on adjacent federal lands, most often neighboring national 
forest or BLM lands. The Forest Service and the BLM manage their lands 
under a multiple-use standard, which frequently means mining, logging, 
grazing, and industrial level recreation. 16 U.S.C. Sec. 528; 43 U.S.C. 
Sec. 1732. On these lands, the National Forest Management Act (NFMA) 
and the Federal Land Policy and Management Act (FLPMA) contain 
provisions requiring the Forest Service and the BLM to coordinate their 
resource planning and project-level decisions with other federal 
agencies, which would include adjoining national parks. 16 U.S.C. 
Sec. 1604(a); 43 U.S.C. Sec. 1712(c)(9). But these coordination 
provisions have not proven enforceable, and they are frequently 
overlooked to achieve other multiple-use priorities. Recent reports 
indicate that the BLM completely disregarded an earlier interagency 
consultation agreement with the Park Service in order to expedite the 
sale of extensive oil and gas leases near Arches, Canyonlands, and 
Dinosaur national park units in Utah. Similar problems are evident at 
Grand Canyon National Park, where the Forest Service is moving ahead to 
permit uranium mining on national forest lands adjacent to the park, 
despite the Park Service's persistent objection. Moreover, the federal 
laws cited above have little or no application on adjacent state or 
private lands, which can be equally important to maintaining ecological 
integrity and resilience on the broader landscape.
    In the case of adjacent federal lands, it is frequently suggested 
that better coordination or more consultation between the national 
parks and other federal land managers should sufficiently protect the 
parks from possible harm. Indeed, several witnesses at the 
Subcommittee's March 3, 2009, hearing on climate change and the federal 
lands offered interagency coordination as a potential solution for the 
climate change problem. In my view, unless federal law is strengthened 
to put some real teeth into existing coordination provisions, there is 
little evidence or hope that we will see better or more consistent 
coordination among the federal land management agencies. In fact, 
voluntary, non-binding interagency coordination gains made during one 
administration are likely to fade during the next one, as we witnessed 
with the Bush administration's utter disregard of the Clinton 
administration's ecosystem management initiatives.
    Moreover, coordination is inherently complex. To be effective, it 
must occur at two separate levels: the planning level where broad scale 
resource management plans are developed, and the project level where 
individual project proposals are assessed and ultimately approved. In 
the case of climate change, a coordinated landscape level planning 
process is crucial; it is at this level that the agencies have the 
opportunity to set resource management priorities and mitigation 
strategies to address sensitive resource issues. But the Supreme Court 
has ruled that resource management plans are not generally subject to 
judicial review and that these plans ordinarily do not impose legally 
binding obligations. See Ohio Forestry Association v. Sierra Club, 523 
U.S. 726 (1998); Norton v. Southern Utah Wilderness Alliance, 542 U.S. 
55 (2004). (These court decisions, I should note, suggest that the 
Dingell-Boucher federal natural resource adaptation plans may not be 
enforceable or judicially reviewable, unless Congress specifies 
otherwise.) An effective coordination strategy for climate change 
purposes must therefore ensure meaningful and accountable coordination 
at both the planning and project levels.
    So, as an antidote to climate change, how might Congress go about 
imposing meaningful and enforceable interagency coordination or 
consultation obligations on the public land agencies? Several related 
options are available. (Though the following options are framed in 
general terms, the goal in each instance is to promote landscape scale 
management to meet the climate change challenge.)
    Congress should adopt a new and more detailed interagency 
coordination mandate that would apply to all federal land management 
agencies, not only making interagency coordination efforts a mandatory 
part of agency decision records, but also making it enforceable in 
court. This would require federal land management agencies, during 
their planning processes and whenever contemplating an action with 
significant climate change implications for nearby national parks, to 
consult with the National Park Service by preparing an interagency 
coordination statement documenting the collaboration effort, potential 
impacts and mitigation strategies, and responses to any expressed 
national park concerns. The idea is to require transparency through 
specific written documentation of the consultation as part of the 
planning or project decision process to ensure that climate change 
concerns are addressed and mitigation commitments are adopted. With 
judicial enforcement lurking in the background, the agencies would be 
accountable for their coordination efforts, which should ensure more 
meaningful and better interagency collaboration.
    This interagency coordination statement could be readily 
incorporated into normal planning and NEPA processes, or it could be a 
separate stand-alone document. It might be implemented by Congress by 
including this requirement as part of each agency's climate change 
adaptation plan, or by amending NEPA to set forth this new requirement, 
or by instructing the Council of Environmental Quality (CEQ) to add a 
new interagency coordination statement requirement to its NEPA rules. 
Or Congress could amend the organic legislation governing the Forest 
Service, the BLM, and other agencies to incorporate these new 
interagency coordination statement requirements into the existing 
coordination provisions found in the National Forest Management Act, 
the Federal Land Policy and Management Act, and other legislation. 
Although such an interagency coordination statement would impose only a 
new procedural--rather than a substantive--requirement on the agencies, 
judicial enforcement of the NEPA EIS procedural requirements has had 
the salutary effect of ensuring that action agencies give full 
consideration to the environmental implications of their decisions. If 
the courts were instructed to similarly enforce an explicit interagency 
coordination process, then it should yield similar results.
    Congress might put additional teeth into a new interagency 
coordination or cooperation mandate by requiring ``consistency'' 
between NPS climate change plans or management goals and those of 
adjacent federal agencies. The model for this type of provision is the 
Coastal Zone Management Act, which requires that federal agency actions 
affecting coastal zone lands or waters must be consistent with the 
state coastal zone plan. 16 U.S.C. Sec. 1456(c). Under this standard, 
for example, the courts have found that industrial pipeline projects 
and off-shore energy lease decisions require a ``consistency'' review 
and the consideration of alternatives to the proposal. Millennium 
Pipeline Co., L.P. v. Gutierrez, 424 F.Supp.2d 168 (D.D.C. 2006); 
California v. Norton, 311 F.3d 1162 (9th Cir. 2002). The trigger for a 
``consistency'' review might be the potential ``impairment'' of 
national park lands or resources, which would draw upon the protective 
standard already in the National Parks Organic Act. Moreover, state 
natural resource and wildlife agencies might be subjected to the same 
consistency standards as a condition to receiving federal grant funds 
to support their planning efforts and management programs.
    If even more teeth are needed, Congress might prohibit intensive 
development activities on public lands adjacent to national parks 
unless there is no feasible alternative to the proposal and climate 
change concerns can be adequately mitigated. This proposal draws upon a 
similar provision found in Section 4(f) of the Transportation Act, 
which prohibits new transportation projects that require the use of 
public parks or other sensitive lands unless there is ``no prudent or 
feasible alternative to using that land'' and ``all possible planning 
to minimize harm to the park'' has been undertaken. 49 U.S.C. 
Sec. 303(c). Under this provision, the Tenth Circuit Court of Appeals 
blocked construction of a new airport adjacent to Glen Canyon National 
Recreation Area in southern Utah, concluding that the responsible 
agencies had not adequately considered how airport noise would impact 
the park visitor experience. National Parks and Conservation Ass'n v. 
Federal Aviation Administration, 998 F.2d 1523 (10th Cir. 1993). A 
similar type of statutory provision that more broadly protected 
national parks from adjacent or nearby development projects with 
significant climate change impacts would help maintain the integrity of 
park ecosystems, wildlife, and other vital resources, which are key to 
mitigating climate change impacts.
    Alternatively, Congress could promote consistency in the management 
of federal lands by prohibiting unsuitable or inappropriate development 
on sensitive lands adjacent to national parks. To do so, Congress could 
adopt new ``unsuitability'' legislation empowering the Secretary of the 
Interior, upon petition, to designate lands adjacent to national parks 
(or other protected areas) as ``unsuitable'' for mining, logging, road 
building, or other intensive activities that could exacerbate climate 
change problems. This approach could be modeled on the 
``unsuitability'' provision in the Surface Mining Control and 
Reclamation Act. 30 U.S.C. Sec. 1272; Utah International v. Dept. of 
the Interior, 553 F.Supp. 872 (D. Utah 1982). As such, it would be 
quite similar to the Secretary's FLPMA-based withdrawal power; it could 
be made revocable, either by the Secretary or by Congress, and its 
exercise could be governed by precise standards to protect against 
possible abuse.
    Whichever route is chosen, the ultimate goal is to promote 
meaningful and coordinated landscape scale management that is 
responsive to the climate change problem. This can only be done by 
ensuring that agency coordination efforts are documented and truly 
transparent, and that the agencies are fully accountable. To do so, 
clear standards and procedures must be set forth to govern interagency 
coordination and consultation, and these new coordination requirements 
must be enforceable in the courts through citizen suits.
    Beyond improving interagency coordination, Congress should consider 
adopting new substantive standards designed to improve federal resource 
management at the landscape scale as a means to address climate change 
concerns. Because the loss of biodiversity is a key concern among 
climate scientists, Congress should legislatively clarify that 
biodiversity conservation at the landscape scale is a priority 
responsibility in agency planning and management decisions. Although 
some federal public land agencies already have statutory biodiversity 
conservation mandates (namely for the national forests and the national 
wildlife refuges), these mandates are not entirely clear (particularly 
in the case of the national forests), and they can present enforcement 
problems. The problem is most plainly illustrated by the Bush 
administration's revisions to the national forest planning rules, which 
essentially deleted enforceable biodiversity conservation requirements, 
giving the Forest Service near carte blanche discretion in this 
important area. A new explicit biodiversity conservation mandate, 
perhaps linked with maintaining and restoring sustainable ecosystems, 
would give this key aspect of climate change strategy the prominence 
that it merits on the federal climate agenda. This might be done by 
noting a connection with the Endangered Species Act, namely that an 
effective biodiversity conservation program should reduce the number of 
species that will require listing under the ESA and thus ultimately 
help preserve the land management agencies' decision making autonomy. 
It also might be done by establishing new federal ecosystem management 
requirements applicable across the public lands.
    In addition, given the important role of the national parks in 
addressing climate change, Congress should consider strengthening the 
National Park Service's authority under the Organic Act, particularly 
its ability to respond effectively to cross-boundary problems. As has 
been frequently documented, the Park Service has historically been 
reluctant to assert itself outside its boundary line, regularly 
questioning whether it has any responsibility or authority over 
external matters. Most commentators agree that the Park Service does 
have a responsibility to protect park lands and resources from 
threatening activities occurring outside the parks, a view captured in 
the National Parks Organic Act and the so-called Redwood amendments to 
that act. 16 U.S.C. Sec. Sec. 1, 1a-1. The DOI Solicitor has read these 
statutory provisions to vest agency officials with this protective 
responsibility, concluding that the relevant law ``infuses the 
Secretary's decisions with a concern for park values and purposes, and 
signals caution where [these]--could be threatened.'' Options Regarding 
Applications for Hardrock Mineral Prospecting Permits on Acquired Lands 
Near a Unit of the National Park System, M #36993, at 23 (April 16, 
1998). The Park Service's Management Policies likewise acknowledge that 
``activities proposed for adjacent lands may significantly affect park 
programs, resources, and values,'' and that park officials ``will use 
all available tools to protect park resources and values from 
unacceptable impacts.'' National Park Service, Management Policies 1.6 
(2006). Nonetheless, given the potential devastating implications of 
climate change and the important role that the national parks must play 
in addressing it, Congress should give the agency some explicit 
authority outside its boundaries, perhaps through a mandatory 
consultation process whenever adjacent activities or developments might 
impair park resources.
    To effectively address climate change at the landscape scale, state 
and private lands located near or adjacent to national parks cannot be 
overlooked. Federal law, however, has little impact on these lands, and 
most state and private landowners will resist new federal regulatory 
mandates. The alternative, therefore, is to use Congress's conditional 
spending power to induce changes in state and private landowner 
behavior that will redound to the benefit of the national parks and 
encourage landscape scale planning with meaningful mitigation and 
adaptation strategies. This can be done by making federal funds 
available to the states and local communities contingent on them 
coordinating their land use and transportation plans or economic 
development efforts with the regional climate change planning efforts 
undertaken by the adjacent federal land management agencies. The 
important point is to promote consistency between state and local 
planning efforts and those occurring at the federal level, while 
developing coordinated landscape scale mitigation and adaptation 
strategies keyed to regional climate change concerns. A similar 
incentive-based approach should be employed to bring tribal governments 
into these coordinated planning and mitigation efforts.
Expanding the National Park System
    To address the risks and uncertainties inherent in climate change, 
Congress should also consider expanding the national park system to 
ensure that sufficient space is available to make the adaptations and 
mitigations that will be required. By expanding the national park 
system, Congress can protect and restore vital landscapes that 
encompass critical wildlife migration corridors, sensitive watersheds, 
or other locations that are deemed essential to meeting the climate 
change challenge. Not only would strategic park boundary expansions or 
the addition of new units enhance the conservation and scientific value 
of the existing park system, but it would also enhance carbon storage 
opportunities.
    Congress is, of course, quite familiar with the conventional 
legislative approaches that have been used to expand the national park 
system. These include the creation of new national parks, national 
monuments, national recreation areas, national heritage areas, and the 
like, as well as boundary adjustments to existing national park units. 
Over the years, Congress has shown a willingness to reconfigure park 
boundaries and to add new units on nearby federal lands with a view 
toward creating more ecologically manageable park units, as illustrated 
by the California Desert legislation. Congress can--and should--give 
serious consideration to using these conventional strategies to enable 
the national park system to effectively meet the climate change 
challenge. Indeed, with reconfigured boundary lines and a more 
ecologically sensitive management structure in place, the Park Service 
and other federal land management agencies should be better able to 
employ the adaptive management strategies necessary to address the 
attendant risks and uncertainties that climate change portends.
    A new approach to expanding the national park system that Congress 
should consider is targeting currently damaged landscapes for inclusion 
into the system following a period of restoration. Most scientists, 
including several who testified at the Subcommittee's March 3, 2009, 
hearing on federal lands, have endorsed ecosystem restoration as an 
important strategy for mitigating climate change impacts. As a 
historical matter, several of the eastern national parks, including 
Great Smoky Mountains and Shenandoah, were created from previously 
logged, mined, and farmed landscapes, and today they represent 
important components of the national park system. The same is true of 
the eastern and midwestern national forests, many of which had been 
devastated by over logging before they were reacquired by the federal 
government during the early 20th century under the Weeks Act; today 
these forest lands are fully restored and provide an array of resources 
and benefits to a large segment of our populace, and their role will 
only become increasingly important as temperatures continue rising.
    Adding damaged but restorable lands to the national park system 
will require us to begin thinking about national parks from a longer 
term perspective, but climate change is forcing us to adopt that 
perspective. As an agency that takes prides in its environmental 
management skills and one that his historical experience restoring 
damaged landscapes, the National Park Service should relish the 
challenge of bringing a damaged ecosystem back to life, not to mention 
the management efficiencies that would be realized when adjacent lands 
are added to an existing national park unit. One strategy for 
accomplishing this park expansion restoration idea would be to think of 
it as a two step approach; first setting aside the targeted lands for 
protection and restoration, perhaps as new national restoration areas, 
and then later seeking national park or another appropriate protective 
status once the landscape has been repaired. Whatever approach is 
taken, our grandchildren will thank us, just as we thank our forebears 
for their farsightedness in first establishing and then restoring our 
large eastern national parks and forests.
    An alternative expansion approach that Congress should consider is 
the creation of a new landscape scale overlay designation designed to 
protect targeted landscapes for climate change mitigation purposes, 
perhaps as Natural Heritage Areas or Landscapes. The idea is to 
identify and knit together an array of contiguous federal lands that 
cover a particular sensitive or vital landscape, such as the Greater 
Yellowstone area, the Crown of the Continent ecosystem, or the Greater 
Grand Canyon region. For these special climate change mitigation 
landscapes, Congress would need to establish new, more protective 
management standards to protect the area's wildlife, watersheds, and 
other resources from warming pressures. The important point is to 
ensure that migratory corridors are protected, that jointly managed 
watersheds are safeguarded, and that the needs of other climate-
sensitive resources are adequately addressed. In most instances, this 
should not entail significant changes in current management standards 
or priorities, and it may not require shifting management 
responsibility from one agency to another. As noted earlier, nearby 
state and private lands might be incorporated for management purposes 
into these special designations through a carefully designed federal 
funding program linked to integrated planning and development 
requirements.
    A related concern that merits congressional attention is the need 
for new federal wildlife corridor legislation, or at least some 
congressional direction and support for the wildlife corridor concept. 
The scientific community agrees that a warming climate is altering 
national park and other protected area ecosystems, thus forcing park 
wildlife species to seek more suitable habitat outside park boundaries. 
But as already noted, many of the lands surrounding national parks (and 
other wildlife reserves) face significant development pressures that 
could make safe passage treacherous at best and lethal at worst. It is 
important, therefore, to safeguard essential corridors to enable 
climate-impacted wildlife to survive by changing their home ranges as 
global warming alters their surrounding habitats. A new system of 
designated wildlife corridors would facilitate that movement and serve 
as an important climate change adaptation strategy.
    The concept of protected wildlife corridors has already been 
endorsed by the Western Governors' Association, largely in response to 
the growing impacts that energy activities and other developments are 
having on the public lands. Western Governors' Association, Protecting 
Wildlife Corridors and Crucial Wildlife Habitat in the West, Policy 
Resolution 07-01 (Feb. 27, 2007). Thus far, the WGA has created a 
Western Wildlife Habitat Council to identify potential wildlife 
corridors and designed a process for protecting thee corridors. Western 
Governors' Association, Western Wildlife Habitat Council Established 
(June 29, 2008). New federal wildlife corridor legislation could be 
modeled on the 1968 National Trails System Act, which designated and 
funded several such trails and created a process for future trail 
designations. 16 U.S.C. Sec. Sec. 1241-49. To create this system, 
Congress should direct federal land managers and state wildlife 
officials to collaboratively determine where corridors might be best 
located for maximum impact. On federal public lands, a new corridor 
designation could be simply overlaid, with some new management 
restraints and planning obligations to ensure adequate protection. On 
private lands, federal funds should be made available to provide 
landowners with an incentive to participate in the corridor program. 
Just as in the case of national trails, it should be possible to design 
a national wildlife corridor program that will help address climate 
change without significantly disrupting land ownership patterns.

                              * * * * * *

    Clearly, the national parks are already being affected by climate 
change impacts, and the parks have a significant role to play in 
addressing the climate change challenge that we face. Because the 
national parks provide sanctuary for important wildlife species and 
other biodiversity resources, protective management of the parks and 
surrounding lands should be a critical part of any national climate 
change strategy. New legal standards designed to promote landscape 
scale planning and to better coordinate park management with adjacent 
federal, state, tribal, and private lands are essential to promote 
managerial consistency and the protection and restoration of regional 
ecosystems. The strategic and ecologically-based expansion of the 
national park system can also help effectively address looming climate 
change impacts. Funding for these initiatives might come from the new 
revenues generated by a national cap and trade carbon management 
program or by a new federal carbon tax. In sum, I urge the Subcommittee 
to give serious consideration to the various proposals outlined above 
as potential means to mitigate the impact of a warming climate on our 
national parks and to sustain the resilient capacities of our vital 
ecosystems.
                                 ______
                                 
    Mr. Grijalva. Melyssa Watson, Director, Wilderness Support 
Center, welcome. I am looking forward to your comments.

            STATEMENT OF MELYSSA WATSON, DIRECTOR, 
         WILDERNESS SUPPORT CENTER, DURANGO, CALIFORNIA

    Ms. Watson. Thank you, Mr. Chairman and Congresswoman 
Napolitano. It's a real honor to be here today again, my name 
is Melyssa Watson. I am the Senior Director for Wilderness of 
the Wilderness Society.
    Before I begin, I want to thank the Chairman, the 
Congresswoman, and other members of the Subcommittee, for your 
leadership on the Omnibus Public Lands Act that the President 
signed into law just last week. Without your perseverance and 
commitment to this legislation we wouldn't have seen it become 
law. So, thank you.
    Mrs. Napolitano. Well, thank.
    Mr. Grijalva. He was point on that.
    Ms. Watson. Absolutely.
    Let me also thank you and your staff for working so hard to 
include a natural resources adaptation title in the upcoming 
climate legislation. We look forward to working with you on 
this in the coming months.
    Today I'm going to speak to the unique role that wilderness 
areas, both within and outside our national parks, have to play 
in our country's efforts to provide climate change and also 
provide some policy recommendations.
    While not even the most ardent wilderness advocate would 
suggest that wilderness is the solution to helping communities 
and ecosystems adapt to a changing climate, it is one important 
tool that we should use as part of a balanced portfolio of 
climate change adaptation and mitigation strategies.
    First, wilderness preserves the potential to produce 
ecosystem services such as keeping our water clean, keeping 
nutrients in our soils, and filtering the air that we breathe.
    Further, many wilderness areas and other public lands are 
natural carbon sinks. Carbon sequestration has not yet been 
widely recognized as a valuable ecosystem service, and this 
needs to change.
    Second, wilderness is a critical scientific yardstick or 
control for comparing the varying types of active management 
outside of wilderness. As land managers experiment to maximum 
our land's adaptive capacity, wilderness may be the most 
effective conservation strategy in the future, just as it has 
been in the past.
    Finally, wilderness areas provide refuge from disturbances 
resulting from climate change. Clearly large unfragmented core 
landscapes protected as wilderness provide wildlife with room 
to roam and refuge from areas suffering from climate impact 
such as drought, floods and fire. They're really the essential 
building blocks that we need as we work to protect and connect 
landscapes and preserve ecological function over time.
    When it comes to protecting and connecting landscapes, the 
Park Service has a long and proud history of land stewardship, 
wilderness management, and biodiversity protection. The agency 
has a tremendous opportunity and perhaps even an obligation to 
play a significant leadership role within the Federal 
government on climate adaptation and mitigation. I was really 
encouraged to hear the comments of Mr. Jarvis earlier in this 
hearing.
    As the Chairman is well aware, Congress too, obviously, has 
a vital role in addressing climate change. First, the most 
urgent action Congress should undertake is to pass legislation 
that ends the practice of dumping harmful global-warming 
pollution into the atmosphere for free. We need legislation 
that will place a declining cap on the emissions of greenhouse 
gases, through auctioning permits and using revenues for public 
benefit.
    Second, Congress should ensure that the Park Service and 
other land management agencies have the necessary resources to 
respond to climate change by providing dedicated annual funding 
to support new investments and safeguarding the natural system 
that sustains our human communities, as well as robust 
populations of fish and wildlife.
    Third, Congress should require Federal agencies to be 
climate smart by incorporating consideration of climate change 
into all of their planning and decision making.
    Fourth, to prevent the further loss of the carbon stored on 
our public and private lands, Congress should consider the 
establishment of the U.S. Climate Reserve as a national 
priority, and further establish the goal of no net loss of our 
nation's carbon sink in the coming decade.
    Finally, energy policy decisions and the fate of our public 
lands are inextricably intertwined. Congress can ensure that 
renewable energy is developed without impeding ecological 
adaptation, destructing carbon storage, or harming important 
wildlife habitat. And we look forward to working with Congress 
and the administration to strike that balance.
    In conclusion, I'd urge the Subcommittee to be visionary in 
tackling climate change. The same kind of vision and foresight 
that created our national parks and system of public lands is 
needed today, but perhaps on an even larger scale that meets 
the challenges posed by climate change.
    Thank you again for the opportunity. And I look forward to 
your questions.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Ms. Watson follows:]

    Statement of Melyssa L. Watson, Senior Director for Wilderness, 
                         The Wilderness Society

    America's public lands--some 600 million acres of land and 150,000 
square miles of protected waters--are the birthright of every citizen, 
and the legacy we hold in trust for generations to come. Global warming 
poses an unprecedented threat to the nation's iconic landscapes--our 
national parks, forests, wilderness areas, desert lands managed by the 
Bureau of Land Management, and wildlife refuges. At the same time, our 
country's parks and other public lands offer one of our best hopes for 
sustaining the plants, animals, birds, clean water and air, and 
recreational opportunities that are important to our heritage. They 
store carbon and provide large core protected areas that will be 
essential in adapting to a changing climate. These lands also provide 
critical services for our communities, including filtering the air we 
breathe and the water we drink, and play important roles in our 
nation's economy. Protecting these natural places is more important now 
than ever before.

Public Lands in a Changing Climate
    America's National Parks and other public lands include some of the 
nation's most intact and diverse ecosystems and have an important role 
to play in helping us address the effects of climate change on wildlife 
and our communities. In addition to their vital role in carbon storage 
and sequestration, protected wildlands can help species cope with the 
many threats exacerbated by climate change. For example, wildlands 
provide important habitat and migration paths and large, intact 
landscapes create a greater buffer for wildlife from the impact of 
disturbances, such as floods, hurricanes, and fires made more intense 
by climate change.
    Our economic health depends on the health of our public lands. One 
in every 20 American jobs is related to outdoor recreation that depends 
on land and ecosystem conservation. This includes fishing, hunting, 
hiking and canoeing jobs which are at particular risk from the on the 
ground impacts of climate change. Eighty-five percent of all hunters in 
the West use public lands for hunting and fishing. The estimated value 
of water flowing from national forest land is $7.2 billion per year 
from both instream and offstream uses.
    Community health depends on the health of our natural ecosystems. 
One important function of natural ecosystems is to protect our public 
health. Ecosystem services are those things that we would have to 
produce ourselves if they were not provided by nature. Some are so 
basic, such as keeping our water clean, keeping nutrients in our soils, 
and filtering the air we breathe, that we are barely aware of what it 
would take to provide man-made substitutes for these necessary 
functions. For example, our forests provide 53% of the nation's 
drinking water to more than 180 million people and 66 million rely 
directly on National Forest lands as their water source. Other 
services, such as carbon storage, are necessary complements to the 
fight to reduce greenhouse gas emissions. It is clear that we cannot 
live without these services, and that our welfare is tied to their 
protection.
    With protection, our public lands provide a critical component of 
ecosystem resiliency and strength. They safeguard our natural systems 
and the goods and services on which our human communities depend.

The Unique Role of Wilderness
    Our designated wilderness lands are one of our nation's greatest 
treasures. We have praised the foresight and perseverance of 
generations of leaders in their work to establish, protect and grow our 
system of wilderness lands and we will continue to celebrate the 
recreational, scenic, educational and conservation benefits of 
protected wilderness. The prescience of those early wilderness leaders 
is likely to be especially important in an era of climate disruption.
    While not even the most ardent wilderness advocate would suggest 
that wilderness is the solution to helping ecosystems and communities 
adapt to a changing climate--there must be many approaches if we are to 
successfully address the issue--protected wild ecosystems most 
certainly have a unique and very critical role in helping land managers 
figure out a path forward.
    Wilderness preserves the potential to produce ecosystem services. 
As a strategy for protection of biodiversity and productive potential, 
the advantages of wilderness are well known: wilderness produces the 
best water quality, it provides a refuge for species from numerous 
anthropogenic stressors outside wilderness, and it provides unique 
recreational and aesthetic experiences. Wilderness represents the best 
strategy we have identified so far for achieving all these benefits and 
will remain an important strategy in the face of climate change.
    Wilderness is a strategy for spreading the risk of failing to find 
the right adaptation options on non-wilderness lands. Climate change 
has changed the rules that have guided conservation for the past 
century. If our goal is to conserve and manage lands so that they are 
resilient in the face of climate change, then forms of management that 
were relied on to produce goods and services may not work in the 
future. Land management will have to be explicitly experimental to find 
new ways to sustain ecosystem services for the future. Wilderness is a 
unique form of land management among a suite of approaches that will 
have to be employed to maximize adaptive capacity. It is impossible to 
determine at present, but wilderness may turn out to be the most 
effective conservation strategy in the future, just as it has been in 
the past.
    Wilderness is a critical scientific yardstick. New methods of 
forestry and range, wildlife, and watershed management will need to be 
utilized in order to adapt to future climate. The success of these new 
approaches is anything but certain, and their performance will need to 
be monitored and measured against a standard of comparison. Wilderness 
can provide a scientific yardstick, or ``control,'' for comparing the 
effects of active management outside wilderness.
    Wilderness provides refuge from disturbances resulting from climate 
change. Wild ecosystems are constantly changing in response to such 
forces as fire and water; stasis is the exception. However, climate 
change is altering the environment to reflect conditions previously 
considered extreme or which are entirely out of the range that species 
have contended with in the past. Increases in fire frequency and 
changes in the timing and intensity of storms, for example, will alter 
the recovery time of ecosystems and their ability to provide habitat 
for wildlife. To survive these changes, species will need to be able to 
move around the landscape to find the places that still provide 
habitat. Large, unfragmented wilderness provides species with ``room to 
roam'' and refuge from areas that have burned, are experiencing drought 
or floods or from the effects of other climate-related disturbances.

A Path Forward
    Climate change is forcing policymakers to take a new look at 
wilderness areas as prime examples of large intact ecosystems that can 
serve as reservoirs for biodiversity and clean water that will be 
essential to the provision of ecosystem services in the future. Also, 
because we were wise enough to protect areas of our country from 
extractive uses, deforestation and development, we have in place 
natural carbon sinks that can help us fight back against global 
warming. Yet carbon sequestration has not yet been recognized as a 
valuable ecosystem service provided by our wilderness areas, parks and 
other public wildlands.
    Similarly, natural resources adaptation efforts have rarely moved 
from the vulnerability assessment phase to the implementation phase--
that is we have studied the problem but have done little as a country 
to actually implement plans to address it. The vulnerability of our 
public lands to a few degrees rise in temperature is deep, profound 
and, unfortunately, inescapable. Even if all emissions of greenhouse 
gases were to stop tomorrow, the emissions of the last 100 years are 
causing global warming that we must anticipate and adapt to. We have 
little time. We must move ahead, from gathering and synthesizing data 
to implementing adaptation strategies.
    We need to be both proactive and reactive. That is, we must have 
the ability to react and deal with climate change after an event or 
impacts have occurred, and we need to take action to prevent and reduce 
exposure to future impacts. The details of future scenarios, in terms 
of timing, scale, and severity, cannot be known with certainty and this 
uncertainty has been used as a smokescreen to delay action. However, 
even without precise knowledge of future events ``which we will 
probably never gain--proactive policy planning improves preparedness by 
integrating adaptation considerations into the decision-making process.
    Even with all of the uncertainty, land managers already have many 
of the needed tools. A balanced portfolio of adaptation and mitigation 
strategies provides an insurance policy for our natural heritage that 
diminishes the risks associated with climate change. We may need to 
utilize them in new and creative ways, but today's conservation work is 
still relevant:
    One, expand core protected areas, reconnect the land and reduce 
avoidable stressors. Scale matters in wildland and ecosystem 
conservation. Large, connected, intact ecosystems offer the best hope 
of surviving global warming, sustaining the capacity to sequester 
carbon, preserve species habitat and protect human communities. This 
was true before the threat of climate change was first recognized, and 
it is even truer today now that the threat is accepted as a reality. We 
need to protect large areas of habitat set within sympathetically 
managed, jurisdictionally and ecologically diverse landscapes that can 
also yield food, fuel, and materials. Through the use of protective 
designations and conservation management on our public lands as well as 
conservation easements, acquisition from willing sellers, and 
complementary management of private lands we can:
    <bullet>  Reduce fragmentation and increase the size of core 
protected lands;
    <bullet>  Ensure representation and redundancy of different 
ecosystem and habitat types to minimize the potential for loss of 
component parts: and
    <bullet>  Protect lands along a variety of elevational and 
latitudinal ranges to ensure connectivity across environmental 
gradients and allow wildlife to migrate to suitable habitat as climate 
changes.
    Scientists frequently point out that given the uncertainty of how 
global warming will affect the climate and resiliency of any particular 
natural environment, the first best strategy is to reduce the non-
climate pressures that threaten critical ecosystems and the communities 
that depend on them. Toxics, development, agricultural intensification, 
overgrazing, loss of wetlands to infill, etc. are all added stresses to 
a system already stressed to the brink. Protection of large, connected, 
intact landscapes can reduce the effects of these pressures on climate-
stressed ecosystems.
    Two, develop strong adaptation plans. Land managers must consider, 
analyze, and develop plans to address the impacts of climate change 
when undertaking planning exercises, setting priorities, and making 
management decisions.
    Adaptation strategies must develop at the local and regional 
levels. Climate change and associated impacts vary greatly from 
location to location. Yet systems such as water resources and habitat 
cross traditional jurisdictional lines. Those engaged in planning need 
to share information, plan together, and collaboratively modify 
existing polices and procedures to ensure effective solutions. The 
exchange of information, resources, best practices, and lessons learned 
across jurisdictions and among different stakeholders is a key element 
of successful adaption planning.
    We also must avoid the situation where the adaptation actions of 
one sector compromise sustainable adaption in another, or threaten our 
ability to protect vulnerable species and ecosystems. This is yet 
another reason to focus on collaboration and cooperation between and 
amongst interest groups and experts.
    Strong, science-based adaptation plans should include:
    <bullet>  an experimental framework in which management is 
conducted using experimental treatments, ``controls'', monitoring, and 
constant learning in a cycle of adaptive management;
    <bullet>  protection for existing and potential ecological movement 
corridors (including those that will enable wildlife, as it moves, to 
pass through urban and developed areas) between major ecosystems;
    <bullet>  protection for mature and complex elements of the 
ecosystem, such as mature forest stands, as these are both difficult to 
replace once lost and likely to be resilient to climate change (having 
demonstrated the ability to adapt to past changes in climate);
    <bullet>  mechanisms to engage the public in ongoing collaborative 
management; and
    <bullet>  for many ecosystems, an evaluation of the need to secure 
additional water rights for drought-prone ecosystems.
    Three, manage for change. Adaption to climate change must address 
uncertainty. We must adopt management approaches that both assess and 
react to risks, but are also designed to learn from experience. 
Monitoring provides an essential feedback loop to assess effectiveness 
and develop action accordingly. Public land managers have a host of 
tools available to help them appropriately manage their resources in 
the face of climate change. Some of the tools and actions that managers 
must consider include:
    <bullet>  Restoration of natural fire regimes through the use of 
prescribed fire, wildland fire use, and mechanical treatment where 
necessary to reduce damage from unnatural fire behavior more likely in 
a warmer climate;
    <bullet>  Removal or management of non-native, invasive species 
that weaken ecosystems and increase susceptibility to climate change;
    <bullet>  Conservation of rare species and restoration of 
extirpated species--though not necessarily in their historical locales) 
as these may be important to future ecosystem function through 
partnerships between agencies, research institutions and private 
partners;
    <bullet>  Management of post-disturbance environments for future 
resilience (e.g., if replanting after a fire is necessary, consider 
species that may be better adapted to future climates); and
    <bullet>  Monitoring of ecological and human systems in order to 
anticipate impacts and adjust management techniques.
    Finally, we recognize the unique role the National Park Service 
(NPS) can play in climate change adaptation and mitigation. With the 
Park Service's long and proud history of leadership on treasured 
landscape stewardship and conservation, wilderness designation and 
biodiversity protection, NPS has a tremendous opportunity--perhaps even 
an obligation--to play a significant leadership role within the 
Department of the Interior (DOI) and with other federal land management 
agencies on issues relating to climate adaptation and mitigation. In 
addition to opportunities to initiate and coordinate on important 
science and vulnerability assessments, no less meaningful would be 
leadership on reducing DOI's own carbon footprint. We encourage NPS to 
set a high bar and ambitious goals that can serve as models for NPS as 
well as other federal agencies. What a tremendous accomplishment it 
would be for NPS to be carbon neutral by the NPS Centennial in 2018!

The Congressional Role
    First, the most time-sensitive role that Congress can play is to 
pass legislation that ends the practice of dumping harmful global 
warming pollution into the atmosphere for free. The President has 
submitted a budget that assumes the end of uncapped free dumping by 
polluters. Congress needs to pass the legislation that will put that 
assumption into practice, by placing a declining cap on the emissions 
of greenhouse gases, making the polluters pay through auctioning 
permits and capturing the auction revenues for public benefits.
    Second, we need to ensure that agencies have the necessary 
resources to respond to the new climate imperatives. Congress should 
provide dedicated and assured annual funding to our land management 
agencies that will
    <bullet>  support new investments in safeguarding the natural 
systems that sustain human communities and robust fish and wildlife 
populations
    <bullet>  provide funding for a broad range of eligible activities 
including conservation, restoration, enhancements, planning, research 
and monitoring and education.
    <bullet>  encourage investment in habitat acquisition and 
protection. The Land and Water Conservation Fund, for example, was 
woefully underfunded during the Bush Administration. The new 
Administration has placed a high priority on this important program, 
increasing its budget by 50 percent next year and fully funding it by 
2014.
    Funding for land management climate priorities should come from the 
auction of carbon allowances under a new climate bill. This investment 
in natural resources must be dedicated (not appropriated annually) so 
that resource managers can plan ahead in their adaptation projects 
knowing funding is secure and to ensure funding goes exclusively to 
global warming-related projects. This is the approach that has been so 
successful in funding the Pittman-Robertson Wildlife Restoration Act 
since 1950. It works for wildlife land acquisition--now we need to take 
the same approach to climate-related land acquisition, management and 
protection intended to protect all human communities as well.
    Third, the agencies must have a clear and strong mandate to be 
``climate smart'' by incorporating consideration of climate change into 
all of their planning, decision-making and research priority setting 
process. All federal agencies engaged in land management and 
biodiversity activities should protect, maintain, restore and value 
biodiversity and wildlife habitat, while incorporating climate change 
mitigation and adaptation activities into management and planning. This 
may require new policies or legislation.
    Fourth, Congress should declare the establishment of a U.S. Climate 
Reserve a national priority, with the intention of ensuring through a 
variety of regulatory sticks and financial carrots that we achieve a 
``no net loss'' standard with respect to preserving the nation's carbon 
sink. California, for example, has proposed that it set a 2020 target 
for emissions reductions that assumes no net loss of current 
sequestration services from its forests and has called on the federal 
government to adopt a similar goal for federal lands. The Wilderness 
Society urges Congress to establish an explicit federal target of ``No 
Net Loss'' in the existing sequestration value of our public forests.
    This U.S. Climate Reserve needs to be nurtured and enhanced, both 
as a carbon sink and as a storehouse of other ecosystem services on 
which we rely. Congress should also provide incentives for private 
landowners to manage their lands in a manner which contributes to the 
protection of our country's carbon storage capacity. Sixty percent of 
our nation's forests are privately-owned so their management must be 
part of the effort to mitigate the threat of climate change. From 
Wilderness designation to wetland banking, we need a truly national 
strategy to stop the galloping destruction of our existing carbon 
stocks that begins with the recognition that our forests, as well as 
other carbon storing ecosystems such as grasslands and pinyon-juniper, 
are weapons in the fight against global warming and should be protected 
like an army protects the armory.
    Finally, energy policy decisions and the fate of our public lands 
are inextricably intertwined. We must sustain the integrity of our 
wildlands and wildlife habitats as we make the transition to a new 
sustainable energy economy. Abundant wind, solar, and geothermal 
resources are found on public lands, especially here in the Southwest 
where solar resources are concentrated. Interest in developing these 
resources is rapidly increasing. As with any development that occurs in 
predominantly natural systems, large-scale renewable energy projects 
can entail a range of adverse impacts and must be carefully planned and 
sited to ensure renewable energy generation does not unintentionally 
impede ecological adaptation, disrupt carbon storage, or fragment large 
core areas of protected public lands.
    We need not choose between development of renewable energy and 
protection of the country's wildlife and treasured landscapes. We have 
the opportunity to develop renewable energy the right way, to 
prioritize development on already disturbed lands, brownfields and 
sites close to the communities they serve to reduce transmission needs, 
costs and losses. Siting on public lands should require an open and 
transparent process about where it is best to build clean energy 
generation facilities and about how to ensure renewable energy 
installations are kind to both the land and the atmosphere. In this 
way, they can avoid the conflicts we've seen over other forms of energy 
development on public lands. We applaud Secretary Salazar for issuing a 
Secretarial Order prioritizing renewable energy development over other 
forms of energy on the public lands, and for establishing a task force 
that concerning renewable energy development and its impacts on global 
warming. It is imperative that we act now to develop these resources in 
the right way from the start lest our communities and ecosystems suffer 
from the devastating impacts of global warming.
Conclusions
    In 2007, in response to a request form this body, the Government 
Accountability Office issued a report recommending that the Secretaries 
of the Interior, Agriculture and Commerce develop guidance advising 
managers on how to address climate change effects on the resources they 
manage. In commenting on the draft GAO report, the agencies generally 
agreed with this recommendation, but they have been slow to take 
action.
    The nation's national parks, wilderness areas and other public 
lands cannot afford any further delay. Climate change must be a major, 
if not the primary, factor in making sound land management planning 
decisions and in shaping the agenda for land conservation actions for 
the foreseeable future.
    Thank you for opportunity to testify today.
                                 ______
                                 
    Mr. Grijalva. Mr. Michael Cipra, California Desert Program 
Manager, National Parks Conservation Association, welcome.
    Mr. Cipra. Thank you.
    Mr. Grijalva. Thank you.

STATEMENT OF MICHAEL CIPRA, CALIFORNIA DESERT PROGRAM MANAGER, 
     NATIONAL PARKS CONSERVATION ASSOCIATION, JOSHUA TREE, 
                           CALIFORNIA

    Mr. Cipra. Chairman Grijalva and Congresswoman Napolitano, 
I wanted to thank you for your leadership. I wanted to thank 
you for inviting me to testify. And I wanted to say, welcome to 
the California desert.
    Founded in 1919, the National Parks Conservation 
Association works to protect, preserve, and enhance America's 
National Park System for present and future generations.
    I'm here today on behalf of our more than 330,000 members 
who care deeply about the wildlife ecosystem, the cultural 
resources that our parks preserve, and want to see these unique 
American treasures passed on to our children and grandchildren 
undiminished.
    The single greatest threat to the health of our national 
parks is global climate change. It threatens not only the 
plants and animals, but also the health and economic viability 
of many communities that rely on the park's reserves and 
monuments. Outdoor pursuits that depend on healthy ecosystems 
contribute 730 million dollars annually to the U.S. Economy. 
Keeping wildlife populations, rivers, forests, deserts and our 
national parks healthy will allow us to support nearly 6.5 
million existing jobs and continue to generate $88 billion 
annually in state and national tax revenue.
    Today we sit outside Joshua Tree National Park. Over 1.3 
million people visit this park every year because of its unique 
natural opportunities, to see animals like bighorn sheep and 
desert tortoise in the wild, or to stand at sunset in a forest 
of Joshua trees, the park's namesake species.
    However, based on the research of Dr. Ken Cole, of the 
USGS, the effects of climate change over the next hundred years 
could remove Joshua trees as a species from the national park 
that bears their name.
    What does it mean to have a Joshua Tree National Park 
without Joshua trees? On a scientific level it means fewer 
animals and an ecosystem out of balance. On an economic level 
it means fewer recreation visits and less money generated for 
our communities. And on a spiritual level it means that our 
grandchildren will see a diminished world.
    Joshua Tree is not the only national park that's being 
affected by climate change. In fewer than 20 years glaciers 
will disappear from Glacier National Park. Coral reefs are 
dying at Biscayne and Virgin Island National parks due to 
increased heat and disease. Insect pests are thriving. They're 
devastating forests from Great Smoky Mountains to Yellowstone. 
As temperatures rise species throughout our national parks are 
being driven upward in elevation and are literally running out 
of space where they can live.
    Reducing greenhouse gas emissions is absolutely necessary 
to guarantee the health of our parks, our wildlife, our 
communities, and our children's future. But reducing emissions 
is not enough. The effects of climate change are already 
impacting wildlife and natural systems throughout the national 
parks. Even with immediate action to reduce greenhouse gases, 
these negative impacts on wildlife and natural systems will 
continue for many decades to come.
    By establishing a coordinated national plan to protect 
natural resources and dedicating a portion of the revenues from 
the auction of pollution permits under a Federal cap and trade 
system for wildlife and ecosystem adaptation programs, we can 
preserve the life-supporting services provided by our national 
parks and other natural lands.
    Federal, state, and tribal agencies must work together in a 
coordinated way to address the crucial issues related to the 
survival of plant and animal species. Their work must be 
informed by the best and latest science. Effective programs 
must focus on building ecosystem resilience by protecting 
important habitat in migration corridors and reducing other 
stressors such as air pollution and nonnative species.
    NPCA is very encouraged by the legislation introduced in 
the House Energy and Commerce Committee on March 31 by 
representatives Waxman and Markey. Their comprehensive energy 
and climate bill would substantially reduce greenhouse gas 
emissions through an integrated set of policies that are 
sensible and achievable, including clean renewable energy, 
energy efficiency, clean fuels and vehicles, and a declining 
cap on emissions of major emitters. We are especially pleased 
that congressmen Waxman and Markey included in their bill a 
robust adaptation title that would safeguard natural resources 
and wildlife from climate change impacts. We recognize that the 
House Natural Resources Committee is continuing its leadership 
and its work on natural resource adaptation issues, and we 
offer our assistance and support for your work.
    As Americans we have faced tremendous economic and 
environmental challenges before, and we have met these 
challenges with courage, with urgency, and with a coordinated 
response. After all, we are the Nation that invented the 
national park idea and brought it to the rest of the world. 
This truly democratic idea that the best of our natural and 
cultural heritage is not something to be enjoyed by just a few 
privileged individuals, but should be owned by all of us, to 
guarantee our collective health in the future, for our 
recreation and education and spiritual growth and economic 
health, and for our children's benefit as well.
    Thank you for the opportunity to provide testimony. I'll 
look for forward to any questions you have.
    Mr. Grijalva. Thank you.
    [The prepared statement of Mr. Cipra follows:]

    Statement of Michael Cipra, California Desert Program Manager, 
                National Parks Conservation Association

    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for inviting me to testify about the challenges that our 
national parks face as a result of climate change, and the opportunity 
that we have to meet these challenges.
    Founded in 1919, the National Parks Conservation Association works 
to protect, preserve, and enhance America's National Park System for 
present and future generations. Today, we have 24 regional and field 
offices across the country, including the California Desert Field 
Office in Joshua Tree, California, which I manage. I'm here today on 
behalf of our more than 330,000 members, who care deeply about the 
wildlife and ecosystems our parks preserve, and want to see these 
unique American treasures passed on to our children and grandchildren 
undiminished.
    The single greatest threat to the health of our national parks is 
global climate change. It threatens not only the plants and animals, 
but also the health and economic viability of many communities that 
rely on the parks, preserves, and monuments. According to a 2006 study 
by the Outdoor Industry Association, fishing, hunting, wildlife 
watching, hiking and other outdoor pursuits that depend on healthy 
ecosystems contribute $730 billion annually to the U.S. economy. 
Keeping wildlife populations, rivers, forests, deserts, and our 
national parks healthy will allow us to support nearly 6.5 million 
existing jobs and continue to generate $88 billion in state and 
national tax revenue.
    Today we sit outside Joshua Tree National Park, which is visited by 
over 1.3 million people every year. So many people visit this desert 
park because of its unique natural opportunities--to see animals like 
bighorn sheep and desert tortoise in the wild, to gaze in wonder at a 
field of blooming wildflowers or stand at sunset in a forest of Joshua 
trees, the park's namesake species. Joshua Tree was ushered into the 
park system largely through the efforts of an inspired American 
citizen, Minerva Hamilton Hoyt. Minerva Hoyt was a desert enthusiast in 
the 1920s and 1930s, who witnessed the widespread destruction of native 
desert plant life by thoughtless people who dug up, burned, and 
otherwise destroyed many of the cacti and Joshua trees that Ms. Hoyt 
found beautiful. So she did something quintessentially American--she 
worked to protect the natural world, not just for herself but for all 
Americans, including those not yet born. Largely through Minerva Hoyt's 
tireless efforts to educate others about the beauty and value of the 
desert, Joshua Tree was shepherded into the National Park System as a 
national monument. In 1994, with the passage of the California Desert 
Protection Act, Joshua Tree achieved national park status.
    We stand today at another important crossroads for this park, a 
moment when we can witness damage and destruction wrought by human 
activity, and a moment when we have the opportunity to protect what has 
great value for the American people.
    A month ago, the National Parks Conservation Association, in 
partnership with the National Park Service and a number of other 
organizations, hosted the second annual Climate Change and the 
California Desert Conference in Joshua Tree, California. One of our 
distinguished speakers was Kirsten Erin Ironside from Northern Arizona 
University. Professor Ironside presented the results of her research 
conducted with Dr. Ken Cole of the U.S. Geological Survey. This 
research applies climate models to the home range of Yucca brevifolia, 
a species commonly known as the Joshua tree. The results that Professor 
Ironside presented at our conference were stark. In all six of the 
climate models she explored, in 100 years, there was no new recruitment 
of Joshua trees in Joshua Tree National Park, and significant death of 
existing trees. Consider that for a second. As a result of climate 
change, there may no longer be Joshua trees in Joshua Tree National 
Park. This plant is not just an iconic image on a postcard--it is 
critical to the health of this desert ecosystem. Ecologists refer to 
the Joshua tree as a ``foundation species''--a plant that serves as 
living habitat for a whole range of animals, providing food and shelter 
critical to the survival of everything from Great Horned Owls, which 
nest in the tree tops, to night lizards, North America's smallest 
lizards, which give live birth to their young beneath decaying bark of 
the Joshua tree. The Joshua tree is absolutely critical to the health 
and integrity of Joshua Tree National Park's ecosystem. And based on 
the research of Dr. Cole and Professor Ironside, the effects of climate 
change over the next 100 years may mean that Joshua trees as a species 
will not survive in the national park that bears their name.
    What does it mean to have a Joshua Tree National Park without 
Joshua trees? On a scientific level, it means fewer animals and an 
ecosystem out of balance. On an economic level, it means fewer 
recreation visits and less money generated for our communities. And on 
a spiritual level, it means that our grandchildren will see adiminished 
world.
    Minerva Hamilton Hoyt watched the native plants disappear from this 
desert, and she didn't despair or give up or lose hope. She decided to 
do something to halt the destruction she saw. This is the story of 
America. We have a rich history of rising to meet conservation 
challenges. After all, we are the nation that invented the national 
park idea and brought it to the rest of the world--this truly 
democratic idea that the best of our natural and cultural heritage is 
not something to be enjoyed by just a few privileged individuals, but 
should be owned by all of us, to guarantee our collective health and 
future, for our recreation and education and spiritual growth and 
economic benefit, and for our children's benefit as well.
    Joshua Tree is not the only national park that is being affected by 
climate change. In fewer than 20 years, glaciers will disappear from 
Glacier National Park. Coral reefs are dying in Biscayne and Virgin 
Island National Parks due to increased heat and disease. Insect pests 
are thriving, and are devastating forests from Great Smoky Mountains to 
Yellowstone. Water levels at Lake Mead are in decline as a result of 
extended drought. As temperatures rise, species throughout our national 
parks are being driven upward in elevation and are literally running 
out of space where they can live. Global warming poses an unprecedented 
threat to the natural world and the survival of wildlife that Americans 
cherish. Ecosystems that support healthy wildlife also support healthy 
human communities and are the foundation of a robust economy.
    Reducing greenhouse gas emissions is absolutely necessary to 
guarantee the health of our parks, our wildlife, our communities, and 
our children's future. But reducing emissions is not enough. The 
effects of climate change are already impacting wildlife and natural 
systems throughout the national parks and across multiple land 
management agencies. Even with immediate action to reduce greenhouse 
gasses, those negative impacts on wildlife and natural systems will 
continue for many decades to come.
    There is an historic opportunity for us as Americans to address 
these challenges. Federal, state and tribal agencies must work together 
in a coordinated way to address the crucial issues related to the 
survival of plant and animal species, as well as intact ecosystems. 
Their work must be informed by the best and latest science. Effective 
wildlife adaptation activities must focus on building ecosystem 
resiliency by protecting important habitat and migration corridors and 
reducing other stressors, such as air pollution and non-native species.
    Joshua Tree National Park presents a prime example of how other 
environmental stressors such as air pollution and non-native species 
can combine with climate change to create significant challenges. High 
levels of nitrogen are currently being deposited on the soil in Joshua 
Tree National Park by air pollution moving east from the Los Angeles 
Basin. Dr. Edith Allen of the University of California at Riverside 
found that these nitrogen levels are 15 to 30 times higher than the 
levels in an undisturbed ecosystem. The park's native desert plants 
have evolved to thrive without this extra nitrogen. But many invasive 
plants, grasses in particular, do really well with the added fertilizer 
from air pollution. Exotic grasses, such as red brome and cheatgrass, 
now represent up to 60 percent of the park's biomass from annual 
plants. The increased fuel loads provided by these exotic grasses can 
then carry lightning-ignited fires from plant to plant, resulting in 
increasingly large and destructive wildfires throughout the Mojave 
Desert region. In 1999, the Juniper Complex fire, burned 13,894 acres 
of slow-growing California junipers, pinyon pines, and Joshua trees. 
This was the largest fire in Joshua Tree National Park's history.
    Desert plants are highly susceptible to fire, particularly during 
times of drought. Desert tortoises and other ground-dwelling animals 
have low survivability during an intense fire event. And for people who 
live in an urban-park interface, homes and even families are put at 
risk. Now overlay climate change on these challenges posed by air 
pollution and invasive species. Invasive, fire-carrying grasses like 
red brome have accelerated growth with increased levels of atmospheric 
carbon dioxide, while plants like Joshua trees may never recover their 
habitat due to the increased temperatures and evaporation caused by 
climate change. To address the challenges of maintaining an intact 
ecosystem at Joshua Tree National Park, managers need the resources to 
simultaneously address exotic species control, manage fires, monitor 
air pollution, and work cooperatively with land management agencies 
such as the BLM to create ecological linkage corridors free from 
invasive species.
    And that's just one park. Efforts to estimate the financial 
investment it will take to help wildlife and ecosystems vulnerable to 
climate change's impacts are too preliminary to precisely quantify. 
Like the mitigation of greenhouse gas emissions, the size and 
seriousness of the threat requires an urgent response. Making a 
substantial new financial commitment to conservation science and 
ecosystem management is a significant challenge we must meet. Given 
both the magnitude of the funding necessary and the need for a reliable 
funding stream, this challenge cannot be met through the annual 
congressional appropriations process. Funding will need to be sustained 
over multiple decades to protect our parks and other natural wealth.
    Fortunately, legislation to address global warming provides an 
historic opportunity and an appropriate avenue to safeguard our 
national parks, their fish, plants, and wildlife, from the destructive 
effects of climate change. Virtually all of the legislative proposals 
advanced in the 110th Congress to reduce global warming emissions 
appropriately recognized the need to address the unavoidable and severe 
harm that climate change will have on wildlife and the ecosystems that 
sustain us all. These proposals did so by establishing a coordinated 
national plan to protect natural resources, and dedicating a portion of 
the revenues from the auction of pollution permits under a federal cap-
and-trade system. The Senate's Climate Security Act, for example, 
proposed allocating roughly 7 percent of federal revenues from the sale 
of allowances, or roughly $7 billion per year to addressing the impacts 
of global warming on wildlife. This funding would be made available 
automatically and not be subject to the uncertainties of the annual 
federal appropriations process. Such funding would be but a small 
fraction of the value of the life-supporting services provided annually 
by our national parks and other natural lands, and is commensurate with 
the challenge before us.
    NPCA is very encouraged by the legislation introduced in the House 
Energy and Commerce Committee on March 31 by Representatives Waxman and 
Markey. Their comprehensive energy and climate bill would substantially 
reduce greenhouse gas emissions through an integrated set of policies 
that are sensible and achievable, including clean renewable energy, 
energy efficiency, clean fuels and vehicles, and a declining cap on 
emissions of major emitters. We are especially pleased that Congressmen 
Waxman and Markey included in their bill a robust adaptation title that 
would safeguard natural resources and wildlife from climate change 
impacts. NPCA recognizes that the House Natural Resources Committee is 
continuing its work on natural resource adaptation issues, and we offer 
our assistance and support for your work.
    Given the direct and severe impact of global warming on wildlife 
and ecosystems, it is appropriate that at least a percentage of the 
significant federal revenue from the auction of pollution permits, 
which estimates place as high as hundreds of billions of dollars, be 
used to address the damage and protect life-supporting ecological 
services. The significant and certain funding stream provided in a cap-
and-trade bill can provide the most effective mechanism to ensure that 
the nation's federal, state and tribal natural-resource agencies will 
have the financial resources necessary to effectively address climate 
change's unavoidable impacts.
    If we are realistic in our analysis of climate change, we must 
anticipate a future that presents huge challenges for our national 
parks, our natural systems, our communities, our health, and our 
economic future. As Americans, we have faced tremendous economic and 
environmental challenges before, from the dust bowl of the 1930s to the 
loss of species from DDT. And we have met these challenges with 
courage, with urgency, and with a coordinated response. That time to 
meet our challenges has arrived again. Climate change presents the 
single greatest threat to our environment, and our health and economic 
future depends on how we meet this challenge. Introducing cap-and-trade 
legislation with a dedicated funding source for wildlife and ecosystem 
adaptation activities is crucial to a healthy future for our economy, 
our national parks, and our children's health. Thank you for the 
opportunity to provide testimony, and I look forward to any questions 
you may have.
                                 ______
                                 
    Mr. Grijalva. Professor, first of all let me thank you for 
your very thoughtful and helpful points and ideas, the same 
points and ideas we've been asking other witnesses about. Your 
point of view is very much appreciated.
    In the legislation--I don't know if you've reviewed it 
yet--but in the legislation that's being promoted right now in 
the draft, Waxman and Markey, the adaptation language in there, 
have you had a chance to look at that?
    Mr. Keiter. I have read through it, relatively quickly, but 
I have had a chance----
    Mr. Grijalva. Any reactions to that?
    Mr. Keiter. I think that it takes us a good ways down the 
road. What I'm particularly concerned about, as I indicated in 
my testimony, is promoting interagency coordination, 
collaboration, and consistency in this area.
    There is a provision in there, as I recall, that it calls 
for cooperation between the agencies. And I think that gets us 
partway there. What I'm concerned about is that it's not very 
specific in terms of what is required. And my experience over 
the years, trying to understand how the various particularly 
public land agencies interact with each other, is that in 
particular locations with particular park or forest managers, 
or district rangers, if the personalities mesh, things work 
well. But those positions change. And I see the need to try to 
institutionalize better coordination. The best idea I've been 
able to come up with is the one I alluded to in my testimony, 
that is perhaps requiring a written interagency coordination 
statement that would reflect--perhaps as part of the 
environmental impact analysis process--the coordination 
efforts, require specific responses by an action agency to the 
concerns of other agencies, and require specific mitigation and 
adaptation responses as part of the climate change concern that 
all of the agencies share.
    I also think that it would be helpful, frankly, if this 
sort of a coordination statement or requirement was potentially 
enforceable in court. My experience is that when that looms in 
the background, that the agencies take those sorts of 
obligations seriously. NEPA has had a salutary effect because 
environmental impact statements can be challenged in court. And 
I think something like this might work in a similar sort of 
manner.
    Mr. Grijalva. I think that Mr. Cipra said, I think, the 
legislation takes us a long way. And the point of this 
Subcommittee, and hopefully the Full Committee, will be to hone 
in where our jurisdiction is, and hone in effectively that we 
should not deal with the public lands as an after-the-fact 
thought. Once legislation is moving, to have a marker down in 
terms of a piece of legislation that we are able to influence 
the outcome of the full legislation. And some of the thoughts 
that you brought here today were very good.
    I think in your studies of the Glacier National Park and 
its neighbors you talked about you observed some of the other 
factors besides climate change, development proposals that 
might harm the park, and sometimes the reluctance, for whatever 
reason, of land managers there to speak out about what that 
potential harm could be. And we're talking about regional 
solutions as we move forward. And do you recommend any explicit 
authority that we should indicate--and this is to NPS--in order 
to deal with those harmful encroachments, whatever they may be?
    Mr. Keiter. Right.
    Mr. Grijalva. And do you think that's been a failure of law 
or is it just a practice that's not practiced?
    Mr. Keiter. Well, as the committee is well aware, there are 
difficult political and relationship issues both between the 
Park Service and sister Federal land management agencies as 
well as the surrounding private and tribal landowners. And in 
some locations that has dissuaded park managers from being as 
assertive as they might be.
    I guess what might be most helpful would be a clear 
expression from Congress to the Park Service that it needs to 
be actively engaged in management and planning decision making 
for the entire landscape or ecosystem where individual national 
park units sit.
    There is language to that effect in the 2006 management 
policies document that was alluded to earlier today. And that I 
think is helpful. But direction from Congress making explicit 
the authority or at a minimum the responsibility and the 
authority of the Park Service to participate and engage would 
be helpful.
    Mr. Grijalva. I think that Secretary Salazar and the 
President made a very good point. And it's going to be very 
helpful through this process. Because I can understand some of 
the reluctance, given some of the other political machinations 
that have been going on for eight years. I think what they said 
was that there's going to be a reliance on science and fact-
based decision making. And I think if that becomes the gold 
standard, I think we're all in much better shape as we go 
along.
    Ms. Watson, my question is about--I think we were talking 
about it back in the anteroom before the hearing. We're kind 
of--we're going into uncharted waters here on adaptation 
strategies for our public lands. And as we go forward, I have 
heard I don't know how many times at the hearings in Washington 
from some of our colleagues about how environmental radicals 
are absolutely ham-stringing the system with the lawsuits. I 
don't share that view, but I'm curious to know from your 
organizational point of view--and I'm going to ask then if you 
could respond right after her, Mr. Cipra, we're building a 
bicycle while we're riding it. That's the scenario here. And so 
how much leeway--how much good faith effort do we give the 
National Park Services to begin the adaptation strategy? And 
some of those efforts are going to not have the success that we 
would want them to have. What's the latitude that you see 
organizationally, if there is indeed transparency, good faith 
effort, public process? Put all those into what is being done, 
but yet that adaptation restoration strategy didn't have the 
outcome that it was intended to. How do you see leeway in terms 
of community based and NGO's out there?
    Ms. Watson. Sure. Thanks for the question. And I do think 
with those safeguards in place we have to allow a fair amount 
of leeway. I think we recognize that some land management is 
going to have to be explicitly experimental. Moving forward, we 
don't know what's going to work everywhere. I think that we do 
have some forms of land management that are well tested, that 
we should continue to use, wilderness among them. But having 
those in place will allow us to be experimental in other 
places. And certainly from my organization's perspective, 
that's something that we support and encourage. And I think in 
the context of looking at the larger landscape, we have to do 
that, and understand what's going to work across a range of 
ecosystems, both for wildlife but for the communities that 
depend upon the services that our public lands provide.
    Mr. Grijalva. Sir, if you don't mind.
    Mr. Cipra. Absolutely. Sometimes the National Parks 
Conservation Association is described as a watchdog. I tend to 
see it more as a guardian angel or maybe----
    Mr. Grijalva. Guard dog?
    Mr. Cipra. Life partner, yeah, for the National Park 
Service. And I think flexibility is absolutely the key. That 
there needs to be a flexibility and a willingness to partner. I 
think the more partners the better in our attempt to deal with 
the impacts of climate change.
    And I think that National Parks Conservation Association is 
already partnering with the National Park Service in the 
climate-friendly parks program, which is also involving the 
environmental protection agency, as Director Jarvis alluded to 
earlier.
    And you look at a park like Joshua Tree National Park 
that's taking some really fantastic steps, you have solar 
panels on shade structures, that before they even put in the 
solar panels they were looking at ways to make the buildings 
more efficient.
    The Park Service is leading by example, in my mind. And we 
would want to continue to support them.
    Mr. Grijalva. Thank you.
    Ms. Watson, one other question. Then there's one for 
everybody. Two for everybody.
    In your testimony, you talk about managing for change. Can 
you expand on that briefly.
    Ms. Watson. Sure. I think that in terms of managing for 
changes, I said earlier we don't know what's going to work in 
every instance and, therefore, we need to be willing to 
experiment with new forms of management at the same time we use 
some other controls of existing management to measure against.
    I think we also need to be looking at not only what has 
worked, but be willing to explore new concepts like the U.S. 
Climate Reserve that I mentioned in my written testimony, and 
create new tools that could be part of managing for change in 
the future. I think there are any number of ways. I could go on 
for some time, but I'll stop there.
    Mr. Grijalva. Well, I appreciate that.
    If all of you could as briefly as possible respond, Mrs. 
Napolitano needs to ask questions. She's giving me a dirty 
look. I'm not looking that way but----
    Mrs. Napolitano. He can feel it.
    Mr. Grijalva. I can feel it.
    Cap and trade could guarantee a revenue stream for the 
parks systems and the public lands. We've also talked about the 
need to expand, increase, supplement efforts that are going on, 
initiate corridor activity, initiate adaptation and 
restoration, planning and projects that are not part of the 
landscape right now. And many have seen that cap and trade as a 
resource that can be tapped. Your reactions.
    Ms. Watson. Well, I'll start.
    I think that absolutely there are any number of priorities 
that can and perhaps should be funded as legislation moves 
forward. I think the role of public lands and natural resource 
adaptation is especially critical in funding for some core 
components of that. I think supporting new investments in the 
kind of management for change that we were just talking about 
would be critical, providing some funding for what works now, 
existing activities around restoration, planning, research, and 
education that some of the other witnesses have talked about. 
But also encouraging investment and habitat acquisition and 
protection will be critical. The land, water conservation fund 
and other sources of funding I think have to be part of that 
equation.
    Mr. Grijalva. OK. If there's a reaction. It's not 
necessary.
    Mr. Cipra. National Parks Conservation Association would 
definitely agree that there be a balance between some of the 
things we talked about in terms of education. LWCF funding for 
acquisition of crucial wildlife. People are saying wildlife 
corridors; ecological linkages is a great way to put it as 
well. And I think for National Park Service and other Federal 
agencies to be able to deal with it on the ground effect of 
climate change.
    Mr. Grijalva. Professor, any comment on that?
    Mr. Keiter. I think I would echo what the other witnesses 
have said, that some funding source I think would be necessary 
to improve coordination, facilitate large-scale landscape 
management, and in particular to provide funding to induce 
additional collaboration and cooperation from state, tribal, 
and private landowners through the contingent funding mechanism 
that is available from Congress.
    Mr. Grijalva. OK. Now, that's one of the things that 
worries me, that we might have legislation that will have all 
the authorizing language that we want, but nothing behind it. 
And so I think as we look at this legislation, we want to 
explore what the variety of revenue streams are available in 
order for whatever we are legislating. Actually there's an 
opportunity for the public lands area, watershed areas, et 
cetera, to be able to carry out some of these things.
    The question I'm going to send to you is about the earlier 
question I asked about balance. I think that's an important 
question, and even as part of this discussion. We talked about 
using damaged land as a primary site and not for renewable 
activity. Talked about buffering along some very important 
areas, interagency cooperation where other ideas that were 
mentioned. But I still think this balance definition question 
for our land managers and our leadership in the Park Service is 
essential that we get around to that as quickly as possible. 
Because I think otherwise, we're always going to be fighting 
the battle over the latest initiative as opposed to having some 
plan that we're working over. So, I would send that to you. And 
if you could respond to it, it will be very helpful.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. And yes, I'm 
chomping at the bit.
    Mr. Keiter, I have a lot of questions. I may have to submit 
some of them in writing. But you state on page 3, the first 
paragraph, in regard to the threatened activities, you include 
oil and gas development on nearby Federal and state lands, too 
many roads, too much regulated off-road vehicles activity, ill-
planned subdivisions. So, we see that in many areas. But how 
prevalent is the use of these public lands in regard--because I 
know they use a lot of water, number one. But do they clean it 
up? And is there a funding mechanism to be able to force that, 
going after the potential responsible parties, the PRPs, if you 
will. And our talk in Moab is a perfect example of how we need 
to know how many of these are left untended and will have to be 
cleaned up at taxpayer expense.
    Mr. Keiter. You're talking about the aftermath of energy 
development----
    Mrs. Napolitano. Correct.
    Mr. Keiter.--or other mineral development in particular.
    Mrs. Napolitano. Correct, on public land.
    Mr. Keiter. On the public lands, yes. Well, there are some 
studies available--and I can't recite them off the top of my 
head--from the Congressional Research Service and other 
government entities, that document the legacy of some of the 
mining and energy development activities on the public lands. 
By and large my observation is that when we get into the energy 
development field, the larger energy companies seem to be 
pretty good about taking care of the developments that they 
pursue. The ability of some of the smaller companies to do that 
is questionable, based upon again observation.
    Mrs. Napolitano. OK.
    Mr. Keiter. In this instance, the law provides some backup 
but it doesn't--it needs people available to enforce it.
    Mrs. Napolitano. Thank you.
    So, this goes back to the funding, to be able to follow and 
be sure that those entities have left the same or better as 
they found it when they were doing their projects.
    Mr. Keiter. There generally are reclamation obligations 
attached. But again, they're not always followed through on.
    Mrs. Napolitano. Then also on page--the same one, you 
talked about ESA. The Endangered Species Act protects Federally 
listed species and their critical habitat but only applies when 
listed species are present, and not always rigorously enforced. 
Would you clarify that?
    Mr. Keiter. The point I was trying to make there is that in 
addition to the various Federal lands and the private lands 
that make up the larger landscape, the Endangered Species Act 
functions as something of an umbrella for protection across the 
landscape so long as a Federally listed species is present. And 
it serves to constrain the management decisions, both the 
Federal land managers and private landowners. And this is 
perhaps most obvious when you think about the Northwest Forest 
Plan that was put in place back--what is it now, 15 or so years 
ago. Driven in large part by the presence of several endangered 
species, most prominently the Northern Spotted Owl. And it's 
the presence of that species that then forces everyone together 
to coordinate their management activities. In the absence of a 
wide-ranging Federally listed species it is difficult 
frequently to bring the diverse land management agencies and 
landowners together for conservation management objectives.
    Mrs. Napolitano. Well, sometimes there are discussions in 
Washington committees about ESA being responsible for a lot of 
things, that they do not take endangered species that have now 
been protected and have reached a level of--they should be 
dropped off the list, in other words. Is there something there 
that we need to start looking at?
    Mr. Keiter. It seems to me that the criteria for listing a 
species under the Endangered Species Act--and there are five of 
them in the statute--are the same criteria for delisting a 
species. And, by and large, I think that if applied fairly and 
in an appropriate scientific manner, those are workable 
standards. And we do have some examples of species coming off 
of the list. We have some that have been controversial. But I 
think by and large the basic standards that are there work 
pretty well. And they've been refined sufficiently by agency 
interpretation and judicial interpretation so most of the folks 
know what the rules of the game are today.
    Mrs. Napolitano. Well, given a lot of what's been reported 
that climate change is going to reduce a lot of these species 
and there is a great thrust to continue protecting them, 
whatever the cost, would--some people say--pit people versus 
the ESA's list? What is it that Congress needs to do to be able 
to address it and have a win-win, rather than an argument that 
takes it to court and only attorneys win?
    Mr. Keiter. A good question. There certainly has been 
plenty of litigation under the Endangered Species Act. There 
are several I would characterize them as sort of modest reform 
proposals that have floated around in Congress over the last 
decade roughly. And several of those make some sense to me. I 
don't see the need for radical revision of the Endangered 
Species Act. Some of the administrative changes that were put 
in place during President Clinton's tenure that opened the door 
for the creation of multiple species habitat conservation plans 
alluded to in earlier testimony today provide a vehicle to get 
people together for planning under the--to live with the 
Endangered Species Act, it seems to have worked reasonably well 
in most locations. So, I don't see a need for radical change.
    The one thing I do allude to in my testimony that might be 
helpful would be for Congress to come forth with an explicit 
biodiversity conservation mandate for all of the Federal land 
management and perhaps even water management agency as part of 
their organic missions with the view that if they are proactive 
in conserving biodiversity that will potentially guard against 
later listing. And so if we can get out in front of the curve 
and avoid the Federal listing and the sort of regulatory 
mechanisms that come with it, I think we would be ahead of the 
game. So, I would recommend that as something for the 
Subcommittee to think about.
    Mrs. Napolitano. Some might see the mandate as another 
regulation on top of other regulations--but you're right, you 
have a good point.
    Ms. Watson, on page 3 of your testimony--in the second 
paragraph--you talk about something I find very interesting--
the room-to-roam statement. In my area, we are at the other end 
of the spectrum. And I've heard it in other testimony that 
wildlife habitat is being encroached upon by development, and 
so they're being pushed and there's not enough room for them to 
roam. So, they're coming down to districts like mine because of 
food scarcity and water scarcity. What is it that we can do 
then? What's the impact? What it is that people need to 
understand is a valuable lesson for us to learn about both 
these things that are happening.
    Ms. Watson. I think it's a really critical issue. And I 
think we--in addition to having large core areas, in some 
places we're finding aren't large enough, we need to not only 
consider expansion of those areas where that's possible, but 
also looking to the issues of corridors and how to manage for 
migratory patterns and give wildlife the ability to move from 
one large core area to another. I think that's something the 
Western Governors' Association and other folks who have 
testified have talked about in some detail--and that we 
strongly support.
    Mrs. Napolitano. But if there's not enough water, there's 
not enough habitat, and the animals are coming down into 
habitated areas to find food.
    Ms. Watson. Right.
    Mrs. Napolitano. So, how do we address the issue of them 
being fed or balancing the ecosystem so they have their own 
source of food in those quarters?
    Ms. Watson. I think that it's a really challenging 
question, particular as we think about the impacts of climate 
change. And as that scenario becomes more likely where their 
core habitat is so impacted that they need to move elsewhere, I 
think really we need to study more of what is needed to not 
only provide the resources in those core habitats but also 
understand more where they're going to go, and certainly the 
impacts on communities in California and elsewhere when that 
happens. I don't think there is one answer, unfortunately. But 
we look forward to working with the committee as this becomes 
more and more an issue.
    Mrs. Napolitano. Mr. Cipra, I have heard especially in my 
Subcommittee that the government owns a large amount of U.S. 
Land; in other words, in California, maybe in Colorado, maybe 
in Utah some, that they need to be able to sell off so that we 
can have more economy. Kind of flies in the face of some of the 
things that we talk about, adding to park land and conserving 
land for future use. I have a great-grandson so I have a great 
stake in this.
    But a lot of it is owned by the conservancies and parks and 
historical sites, et cetera. How do we counter some of those 
challenges from some of the business community who would like 
to see land opened, especially for logging and mining and all 
those things?
    Mr. Cipra. Well, I think it's important to recognize how 
much our public lands contribute to our economy. And I think 
that recognition is absolutely critical. And I don't think it's 
a matter of countering an argument, I think it's a matter of 
bringing folks in and recognizing that that's the life blood of 
a lot of communities.
    This park, for example, generates $45 million annually for 
local communities. And I think when people recognize that, 
they're supportive. And this park has a very good relationship, 
for example, with the City of Twentynine Palms, with the town 
of Yucca Valley, with Joshua Tree as well.
    So, I think it's a matter of bringing people in and to 
think about the public lands and wildlife corridors and 
ecological linkages when we're creating those, when we're 
establishing those. And for those to have long-term viability 
you have to bring in stakeholders. You have to bring in people 
who do own the private land in that area, and those people have 
to be part of the process.
    So, I would recommend full and open process and 
partnerships between the parks and local communities.
    Mrs. Napolitano. Well, it's all right when it's local 
communities. When outside come in and try to benefit from it 
and the whole issue is, go in, dig it in, and leave it. And 
that to me is a concern.
    Thank you, Mr. Chair.
    Mr. Grijalva. Thank you.
    And thank all the witnesses today. Very informative. And as 
we go down the road in formation of this legislation, let me 
first of all thank Mr. Jarvis. I think for me he crystallized 
where I began with this process, which is the canary in the 
mine in terms of climate change, that we had an opportunity 
here, and I still see this as an opportunity to be very 
effective, set some wonderful examples, about how to begin to 
deal with this very vexing issue.
    There are political minefields ahead of us. I know that. 
But nevertheless I think that effort of protecting the very 
precious resources of this nation is worth the walk.
    With things today about resources, i.e., funding, those 
good well-written gestures without the backbone of resources is 
not going to do anything. An institutional agency mandate about 
cooperation and shared responsibility and coordination on this 
issue, and public land and water resources. We see it as a 
critical core to climate change legislation, and our intent is 
to work on it in a more detailed and specific manner as we go 
forward.
    I want to thank you very much. The key point today was 
interagency cooperation. Another key point today, I think Mr. 
Jarvis as well said, the park system and our public lands could 
be in a leadership role on this issue, not only nationally but 
internationally if we grip this question with the kind of 
urgency that I think we should.
    I want to thank everybody. The issues of adaptation, 
restoration, linkages, and necessary mandates are all part of 
the discussion in this legislation--as well as the funding. So, 
I appreciate it. You've brought us farther than we were. And 
we're very appreciative of that.
    And the meeting is adjourned. Thank you.
    [Whereupon, the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
